U.S. Department of tranSportation
 Office Of inspectOr General
    SemiannUal report to conGreSS

      April 1, 2012 – September 30, 2012
                                                                                                                   Table of Contents


From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii

Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           In Focus: Ensuring Pipeline Operators Identify and Correct Safety Threats  .  .  .  .  . 17

           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

           In Focus: OIG Investigations Uncover Weaknesses in

               NHTSA’s Strategic Traffic Enforcement Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

           In Focus: Bringing Amtrak Up to Speed for High Speed Rail  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

           Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51


Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53

Work Planned and in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59

           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             59

           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             65

           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                            69

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                       71

           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                           75


Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79

           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79

           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81

           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81

           OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 82

           OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  .  . 83

           OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 84

           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 85

           Office of Inspector General Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 86

           Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 105

           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 107

           Statistical Outcomes  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 107

           Profile of All Pending Investigations by Case Type, as of September 30, 2012  .  .  . 109


Peer Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .111

Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .113

Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .117


                                                            Semiannual Report to Congress                                                i

Table of Contents      ii
                          From the Inspector General


I am pleased to present the Department of Transportation (DOT), Office of Inspector
General’s Semiannual Report to Congress for the second half of fiscal year 2012.
Our audit and investigative work supports the Department’s strategic goals of safety,
livable communities, economic competitiveness, environmental sustainability, and
state of good repair. Over the past 6 months, we issued 105 reports with a total of 355
recommendations, including financial recommendations totaling nearly $350 million.
Our investigative work resulted in 59 indictments, 62 convictions, and a total of more
than $13 million in fines, restitutions, and recoveries.
Our aviation work continued to identify opportunities to improve safety and
achieve savings in large programs, particularly those related to the Federal Aviation
Administration’s (FAA) management of the Nation’s airspace. Four of our five
testimonies this period highlighted our concerns regarding FAA’s efforts to realign air
traffic facilities; ensure transparency and accountability in its Air Traffic Safety Action
and Contract Tower programs; and address cost, schedule, and performance risks in
implementing the Next Generation Air Transportation System (NextGen). Persistent
problems in NextGen’s transformational programs continue to threaten the system’s
viability. To protect the integrity of our Nation’s aviation system, our investigations
continued to aggressively pursue individuals who compromise safety through greed-
based schemes, including the use of unapproved parts in aircraft repairs, fraudulent
pilot certification, bogus safety inspections, and the illegal transport of hazardous
materials.
Our special programs work highlighted significant deficiencies in the Pipeline and
Hazardous Materials Safety Administration’s efforts to ensure pipeline operators
comply with pipeline risk mitigation requirements. A key challenge for the agency is
how to address data management deficiencies and manage a growing backlog of
inspections as it transitions to a new risk-based inspection program.
Our highway and transit work also identified areas where action is needed to ensure
safety and protect Federal investments. Unsafe passenger carriers that continue to
operate under a new identity pose a significant safety threat to our highways. While
the Federal Motor Carrier Safety Administration has begun to take action to close
enforcement gaps, deficiencies remain in its oversight of the passenger carrier
industry—including its process to detect reincarnated carriers. Our investigations
similarly identified commercial trucking companies that were operating illegally under
out-of-service orders, falsified drivers’ logs, deceptive drug testing, or fraudulent
commercial driver’s licenses. We also stepped up our efforts to stop extortion by
household goods movers—a particularly egregious fraud scheme, which we testified
on this period. Our current household goods investigations involve 3,800 potential
victims and around $1.9 million in fraud. The highway- and transit-related deficiencies
and fraud schemes we identified have also put considerable Federal dollars at risk,
including more than $57 billion in transit enhancement grants provided to more than
1,200 State and local grantees, and $3.1 billion in discretionary grants for highway,
bridge, public transportation, rail, and port infrastructure projects. Embezzlement, bid


                        Semiannual Report to Congress        iii
rigging, bribery, and disadvantaged business enterprise fraud have already diverted
millions of Federal dollars from legitimate firms, as well as degraded the quality of
taxpayers’ investments and increased infrastructure costs.
Our rail work continued to focus on the Federal Railroad Administration’s (FRA) efforts
to meet its responsibilities under the Passenger Rail Investment and Improvement
Act, improve and expand intercity passenger rail, and ensure that the Government’s
investments in the $10 billion grant program for high-speed intercity passenger rail
achieve their intended benefits. The Surface Transportation Board is relying on our in-
depth analysis of the causes of Amtrak delays—a significant barrier to realizing high
speed rail—as it assumes responsibility for levying fines on freight railroads that cause
substantial delays. We also identified ongoing challenges FRA faces in carrying out its
expanded role—challenges that have undermined its efforts to effectively administer
and ensure the accountability of grant funds across all its active programs.
Our audits of DOT’s substantial information technology (IT) portfolio continue to
identify vulnerabilities. A key concern is the Department’s approach for implementing
an effective enterprise architecture (EA), a congressionally mandated requirement for
all Federal departments. Specifically, DOT has not developed—and does not plan to
develop—a departmentwide EA program for making sound IT investments. Instead,
it delegated EA development to its components without establishing procedures
to assess their progress. We determined that components have yet to implement
complete programs with up-to-date policies and sufficient IT security processes. Our
ability to gain full access to the U.S. Merchant Marine Academy’s LAN and sensitive
information indicates significant cyber security weaknesses remain in the Department.
Opportunities to increase efficiency, accountability, and transparency in some of DOT’s
acquisitions and procurements continue to be lost. The impact of insufficient acquisition
planning and poor contracting practices was demonstrated in FAA’s NextGen program.
Insufficient acquisition planning led to poor design of a transformational program’s
contract—which was not structured or administered to control costs and achieve
desired outcomes—and ineffective contract management. Strategically managing
acquisitions, which is critical to maximizing limited resources and achieve mission
results, remains a top management challenge for the Department.
Finally, our audits and investigations identified fraud, waste, and abuse in the
Metropolitan Washington Airports Authority’s (MWAA) governance. We observed that
weak policies and procedures have diminished MWAA’s ability to ensure compliance
with provisions of the law and have limited its transparency and accountability to the
Congress, stakeholders, and the public. Our observations prompted MWAA to initiate
immediate actions in an effort to strengthen its governance.




                          From the Inspector General      iv
Our work continues to reflect our commitment to fully inform Congress, the Department,
and the public of pressing transportation concerns and to aggressively pursue
individuals intent on defrauding the Government and victimizing citizens. I commend
and thank our hard-working staff for their outstanding efforts and dedication to our
critical mission. I would also like to thank Secretary LaHood for his strong leadership
in these challenging times. I look forward to continuing to work with the Secretary, his
team, and the modal administrators to provide Americans with a safe transportation
system that meets the national objectives of general welfare, economic growth and
stability, and security.




    Calvin L. Scovel III




                       Semiannual Report to Congress        v
From the Inspector General      vi
                                                  Audits and Investigations




                                            Aviation and Special Programs




Audits                                             and infrastructure. However, FAA has yet to
                                                   establish total program costs, schedules, or
                                                   performance baselines for these programs—
April 23, 2012                                     which limits visibility into NextGen’s total
                                                   costs and timelines—or develop an integrated
Status of Transformational Programs                master schedule, a key planning tool to
and Risks to Achieving NextGen Goals               manage the programs’ interdependencies.
Requested by the Chairmen and Ranking              Evolving program requirements and integration
Members of the Senate Committee on                 issues with complex automation systems
Commerce, Science, and Transportation and          have created additional risks. We made four
Subcommittee on Aviation Operations, Safety,       recommendations aimed at addressing these
and Security                                       risks, and FAA concurred with three and
                                                   partially concurred with one. We are requesting
                                                   additional information regarding FAA’s plans
FAA’s Next Generation Air Transportation
                                                   to baseline each segment of the six programs,
System (NextGen) relies on six transformational
                                                   as well as expected timeframes for delivering
programs to provide foundational technologies
                                                   NextGen benefits and capabilities.




                               Semiannual Report to Congress   •   1
April 25, 2012                                       May 31, 2012

The State of Aviation Safety and FAA’s               Progress and Challenges With FAA’s
Oversight of the National Airspace                   Facility Consolidation Effort
System                                               Testimony before the House Committee on
Testimony before the House Committee on              Transportation and Infrastructure’s Aviation
Transportation and Infrastructure’s Aviation         Subcommittee
Subcommittee
                                                     The Principal Assistant Inspector General for
The Assistant Inspector General for Aviation         Auditing and Evaluation testified on FAA’s
and Special Programs testified that while FAA is     efforts to consolidate the Nation’s air traffic
taking important steps to improve safety, such       facilities, many of which are outdated and
as implementing voluntary safety reporting for       cannot take advantage of newer technologies.
controllers, the Agency will need to ensure that     FAA plans to consolidate these facilities over
the reported data are accurate, comprehensive,       the next 2 decades, beginning with facilities
and effectively analyzed in order to establish       managing airspace in the Northeast. However,
baselines and identify safety trends and             FAA has delayed making a final decision until
address concerns. The Assistant Inspector            next May on where to build the first facility.
General also noted that FAA must strengthen          FAA is also challenged to align consolidation
and better use its risk-based approach for           plans with ongoing construction projects, make
oversight. Finally, while FAA has made progress      technical decisions that could significantly alter
implementing important mandated safety               the cost and schedules for other modernization
provisions, the Agency has not implemented           programs, finalize project cost estimates, and
other requirements such as improved pilot            address associated workforce issues. Although
training standards and a new pilot records           FAA’s consolidation plans are evolving, a
database.                                            number of near-term actions could better
                                                     position the Agency for success. These actions
                                                     include incorporating lessons learned from
                                                     prior consolidation efforts, developing metrics
                                                     to identify and track anticipated benefits,
                                                     and determining how best to keep Congress
                                                     and other stakeholders informed as the effort
                                                     progresses.




                                 Aviation and Special Programs   •   2
June 18, 2012                                       July 17, 2012

Hazardous Liquid Pipeline Operators’                The Success of FAA’s Long-Term Plan
Integrity Management Programs Need                  for Air Traffic Facility Realignments
More Rigorous PHMSA Oversight                       and Consolidations Depends on
Self-initiated                                      Addressing Key Technical, Financial,
                                                    and Workforce Challenges
In 2002, the Pipeline and Hazardous Materials
                                                    Requested by the Chairmen of the House
Safety Administration (PHMSA) initiated a
                                                    Transportation and Infrastructure Committee
program to oversee hazardous liquid pipeline
                                                    and House Subcommittee on Aviation
operators’ implementation of PHMSA-required
integrity management (IM) programs for
mitigating pipeline risks. Since the oversight      Over the next 2 decades, FAA plans to
program was launched, PHMSA has inspected           consolidate the Nation’s air traffic facilities—
all pipeline operators at least once and            many of which are deteriorating and outdated—
operators have identified and repaired more         into large facilities, beginning in the Northeast
than 35,000 defects. However, PHMSA is              at an estimated cost of $2.3 billion. While FAA
challenged to manage a growing backlog of           has decided to build its first integrated facility
inspections as it transitions to a new risk-based   for the New York/New Jersey/Philadelphia area,
inspection program. PHMSA oversight is              it has not decided on the facility’s location.
further limited by infrequent onsite inspections    Delays in the construction of the first integrated
and less rigorous IM requirements for non-line      facility could have a cascading effect on FAA’s
pipe facilities such as valves, pump and meter      schedule for consolidating other facilities. The
stations, and storage tanks. Finally, PHMSA         success of FAA’s consolidation plans also
has not yet resolved key data-management            depends on developing metrics to measure
deficiencies or established meaningful analysis     the plans’ effectiveness, aligning ongoing
capabilities to improve IM oversight. We made       construction projects, making critical technical
nine recommendations to strengthen PHMSA’s          decisions, coordinating with NextGen offices,
oversight program; PHMSA concurred with             finalizing cost estimates, and addressing the
seven and partially concurred with two.             impacts of consolidations on the workforce
However, PHMSA’s responses did not fully meet       and affected communities. We made five
the intent of six of our recommendations, and       recommendations to assist the Agency in
we are requesting additional information for        addressing these challenges. FAA concurred
these recommendations.                              with all five; however, we are requesting that the
                                                    Agency provide target completion dates for two
                                                    recommendations.




                                Semiannual Report to Congress   •   3
July 18, 2012                                             July 19, 2012

Update on the Safety and Cost                             Long Term Success of ATSAP Will
Aspects of the Federal Aviation                           Require Improvements in Oversight,
Administration’s Contract Tower                           Accountability, and Transparency
Program                                                   Requested by the Chairmen and Ranking
Testimony before the Senate Subcommittee                  Members of the Senate Committee on
on Aviation Operations, Safety, and Security              Commerce, Science, and Transportation; Its
                                                          Subcommittee on Aviation Operations, Safety,
                                                          and Security; and the Ranking Member of
The Inspector General testified on FAA’s Contract
                                                          the House Transportation and Infrastructure
Tower Program, which currently oversees 250
                                                          Subcommittee on Aviation
contract towers providing air traffic control
services to airports nationwide. The Inspector
General testified that, based on our ongoing work,        As of October 2010, all air traffic facilities have
contract towers continue to provide safe air traffic      implemented FAA’s Air Traffic Safety Action
services, as contract towers have a lower number          Program (ATSAP)—a voluntary non-punitive
and rate of reported safety incidents and Agency-         program for air traffic controllers to report
identified deficiencies when compared with                safety concerns, such as operational errors
similar FAA towers. In addition, contract towers          and events that present hazards to aviation.
remain strongly supported by users and continue           However, potential deficiencies in transparency
to provide cost-efficient air traffic control services.   and accountability may lead to the perception
Our work found that the average contract tower            that ATSAP is an amnesty program in which
costs roughly $1.5 million less to operate annually       reports are automatically accepted, regardless
than a comparable FAA tower, largely due to               of whether they qualify under the program’s
lower staffing and salary levels. However, the            guidelines. Moreover, because ATSAP provisions
Inspector General noted that FAA can improve              protect controller confidentiality, much of the
its oversight of the program by implementing a            ATSAP data that FAA collects are not validated,
voluntary safety incident reporting program at            raising questions about the effectiveness of the
contract towers, reviewing labor hours worked to          data for analyzing safety trends and identifying
ensure contract compliance, and implementing              root causes of safety risks. At the same time,
processes to regularly evaluate contract towers           FAA does not have a formal process to assess
as required by Congress.                                  the program’s review committees’ decisions
                                                          to ensure that report acceptance criteria are
                                                          rigorously followed and that conduct issues
                                                          are appropriately addressed. We made 10




                                     Aviation and Special Programs    •   4
recommendations to strengthen internal controls,     process for deploying new flight procedures and
use of data, and performance management within       training controllers on advanced procedures.
the ATSAP program. FAA fully concurred with five     We made seven recommendations to FAA
recommendations, partially concurred with three,     to improve its implementation of the task
and did not concur with two. We are requesting       force recommendations. However, FAA’s
that the Agency reconsider its responses for these   response did not meet the intent of four of
two recommendations, particularly regarding the      our recommendations, and we are requesting
validation of all data accepted through ATSAP.       additional information from the Agency.

August 1, 2012                                       August 22, 2012

Challenges With Implementing                         FAA Has Not Effectively Implemented
Near-Term NextGen Capabilities                       Its Wildlife Hazard Mitigation
at Congested Airports Could Delay                    Program
Benefits                                             Self-initiated
Requested by the Chairmen and Ranking
Members of the House Committee on                    FAA’s Wildlife Hazard Mitigation Program aims to
Transportation and Infrastructure and Its            reduce the risk of aviation wildlife strikes—which
Subcommittee on Aviation                             have increased fivefold over the past 2 decades—
                                                     by requiring airports to create and implement
In September 2009, a government-industry task        plans to assess and minimize the risk of wildlife
force made 32 recommendations for accelerating       hazards. From 1997 to 2011, FAA provided
NextGen’s deployment. While FAA quickly              airports an estimated $458 million to assess
incorporated the task force’s recommendations        and mitigate wildlife hazards, and estimates it
into its NextGen strategic plans and budgets,        will spend an additional $366 million over the
efforts are delayed in key areas, including FAA’s    next 20 years. However, FAA’s oversight and
critical metroplex initiative to improve airspace    enforcement activities do not ensure airports fully
efficiency at large, congested metropolitan          adhere to program requirements or effectively
airports. In addition, industry is concerned         implement their wildlife hazard plans. In addition,
that the initiative does not yet include other       FAA’s policies and guidance for monitoring,
related task force recommendations, such as          reporting, and mitigating wildlife hazards are
better managing surface operations, and may          mostly voluntary. As a result, FAA’s strike data
not deliver all desired benefits. Moreover, FAA      are incomplete, which impacts the Agency’s
has not yet resolved many of the barriers that       ability to evaluate program effectiveness. Further,
will impede implementation of the task force         while FAA coordinates effectively with the U.S.
recommendations, such as streamlining the            Department of Agriculture Wildlife Services,




                                 Semiannual Report to Congress   •    5
its main partner in wildlife hazard mitigation,       and schedule delays for FAA’s critical, multibillion
coordination with other relevant Government           dollar ERAM program—exposing significant
agencies is limited and infrequent. We made           programmatic and contract management issues.
10 recommendations aimed at improving FAA’s           Finally, the Inspector General noted that FAA has
management and oversight of the program. FAA          not approved total cost, schedule, or performance
concurred with six, partially concurred with three,   baselines for any of NextGen’s transformational
and did not concur with one. We are requesting        programs or developed an integrated master
additional information or revised responses for       schedule for managing NextGen.
five recommendations—particularly related to
improving the quality and quantity of the Agency’s
wildlife strike data.                                 Investigations
September 12, 2012                                    April 2012

Update on FAA’s Progress and                          Former Executives of Ciellos Airlines,
Challenges in Advancing the Next                      Arrow Air, and South Winds Cargo
Generation Air Transportation System                  Sentenced for Fixing Fuel Surcharge
Testimony before the House Committee on               Rates on Air Cargo Shipments
Transportation and Infrastructure Subcommittee
                                                      George Gonzalez, former Chief Commercial
on Aviation
                                                      Officer of Peruvian air cargo carrier Cielos Airlines;
                                                      Buillermo Cabeza, former President of Arrow Air;
The Inspector General testified on three
                                                      and Luis Juan Soto, former President of South
challenges that continue to impact FAA’s ability
                                                      Winds Cargo, were sentenced in U.S. District
to realize NextGen’s benefits: (1) implementing
                                                      Court, Miami, FL. The three airline executives and
NextGen capabilities at congested airports; (2)
                                                      others conspired to suppress and eliminate com-
resolving technical and program management
                                                      petition on cargo rates by fixing and coordinating
problems with the En Route Automation
                                                      customer charges, including security and fuel
Modernization (ERAM) program; and (3) managing
                                                      surcharges, for air cargo services to and from the
program costs and schedules in developing
                                                      United States.
and implementing NextGen’s transformational
programs. The Inspector General noted that while
                                                      Gonzalez was sentenced to 5 months imprison-
FAA has made progress in improving air traffic
                                                      ment, 5 months home detention, and 3 years
management at congested airports in major
                                                      probation. Cabeza was sentenced to 3 years
cities, the Agency has not yet fully resolved key
                                                      probation and fined $20,000. Soto was sentenced
barriers to implementing NextGen capabilities in
                                                      to 6 months home detention and 3 years proba-
the near term. In addition, extensive software-
                                                      tion. All three were fined $20,000 and ordered to
related problems have caused cost increases
                                                      perform 100 hours of community service.


                                  Aviation and Special Programs    •   6
This investigation is being conducted jointly with      purchasers, including the Air Force and others
the Federal Bureau of Investigation (FBI) and the       in the commercial and military aviation industry.
U.S. Postal Service Office of Inspector General.        McFlicker was sentenced to 45 months in prison;
                                                        Persaud was ordered to serve 37 months.
April 5, 2012                                           McFlicker and Persaud will each serve a term
                                                        of 36 months probation, as well as pay a $100
South Florida Men Jailed and Ordered                    special assessment fee. The court also ordered
                                                        the owners to pay $1.45 million in restitution and
to Pay $1.45 Million in Restitution in                  ordered a $1 million forfeiture.
Aircraft Parts Fraud Conspiracy
                                                        This investigation is being conducted jointly
Henry McFlicker and Ayodha Persaud—owners
                                                        with the Defense Criminal Investigative Service,
of Daytona Aerospace, a South Florida aviation
                                                        Air Force Office of Special Investigations, the
parts broker—were sentenced to U.S. District
                                                        FBI, Department of Homeland Security’s (DHS)
Court, Miami, FL, for conspiracy to commit
                                                        Immigration and Customs Enforcement (ICE), with
aircraft parts fraud. Our investigation revealed that
                                                        FAA providing technical assistance.
Daytona Aerospace purchased, sold, and traded
aircraft parts between commercial airlines, private
aircraft, other brokers, and the U.S. Department
                                                        April 18, 2012
of Defense. Specifically, McFlicker and Persaud
misrepresented the condition and origin of              Former FAA Aviation Safety Inspector
aircraft parts in their responses to numerous bids      Sentenced for Accepting Illegal
advertised by the U.S. Air Force and U.S. Navy.
                                                        Gratuities
Although the orders and contracts specifically re-
quired the defendants to supply new surplus parts       Harrington Bishop was sentenced in U.S.
manufactured by The Boeing Company, they used           District Court, Camden, NJ, for accepting illegal
various unauthorized local dealers to manufacture       gratuities. Bishop, a former FAA safety inspector
the requested parts. McFlicker and Persaud,             assigned to the Teterboro Flight Standards Safety
in concert with their employees, concealed the          District Office, Saddle Brook, NJ, was sentenced
fraud by completing a certificate of conformance        to a year and a day in prison, a $5,000 fine, 1
and other paperwork, such as packing slips and          year of supervised release, and a $100 special
invoices, that misrepresented either the condi-         assessment. As part of his sentencing, Bishop
tion of the parts or the manufacturer. To further       was also subject to a criminal forfeiture in the
conceal the fraud, McFlicker and Persaud created        amount of $70,000.
fraudulent inventory lists, certification forms, and
letters bearing various airlines’ corporate logos;      On October 27, 2011, Bishop pleaded guilty to
attached these false forms to shipments contain-        accepting illegal gratuities as a public official.
ing the parts; then forwarded the completed             Bishop admitted to accepting tens of thousands
fraudulent paperwork and counterfeit parts to the       of dollars for hundreds of unauthorized pilot check


                                   Semiannual Report to Congress    •    7
rides he personally performed between May 2004        This investigation was conducted in cooperation
and February 2011. Bishop spent weekends,             with the U.S. Attorney’s Office, Cleveland, OH
holidays, and other days of approved leave to
conduct flight checks, including private-pilot        May 4, 2012
and airline transport pilot certificate tests. In
exchange for these check flights, he routinely        Former Air Traffic Controller
accepted $300 “tips” from the pilots, fully aware
that he was not allowed to accept payment from        Sentenced for Worker’s Compensation
pilots in exchange for the performance of his         Fraud
official duties. Bishop admitted that nearly all of
the check flights resulted in the pilot passing the   Raymond Elmo Deskins, III, a former air traffic
tests.                                                controller, was sentenced in U.S. District Court,
                                                      Alexandria, VA, to 24 months imprisonment,
                                                      3 years supervised release, a $1,200 special
On October 21, 2011, Bishop retired from
                                                      assessment, and $682,438.08 in restitution
Federal service after being served with a Notice
                                                      for his role in a worker’s compensation fraud
of Proposed Removal in connection with the
                                                      scheme. Deskins failed to disclose work
investigation.
                                                      activities in the construction industry to the
                                                      Department of Labor’s Office of Workers’
April 23, 2012                                        Compensation Programs (OWCP).

Ohio Contractor Agrees To Pay                         The investigation revealed that in June 2004,
$500,000 to Settle DBE Fraud Claims                   Deskins submitted a notice of traumatic
                                                      injury to OWCP, claiming Federal Employees’
Anthony Allega Cement Contractor, Inc., signed        Compensation Act benefits in connection with
a civil settlement agreement in U.S. District         an injury sustained during his employment
Court, Cleveland, OH, agreeing to pay the U.S.        with FAA. In August 2004, OWCP accepted
Government $500,000 to settle allegations             Deskins’ claim and began issuing Deskins
that they committed disadvantaged business            monthly benefits. From 2005 through 2008,
enterprise (DBE) fraud between August 2000            while receiving disability benefits based on his
and January 2006.                                     inability to perform work of any kind, Deskins
                                                      worked as a construction foreman for a Sterling,
Allega (the prime contractor) indicated that          VA, based general contractor. To continue
certain services and supplies on a runway proj-       receiving disability benefits, Deskins falsely
ect at Cleveland Hopkins International Airport        certified to the Department of Labor on annual
would be provided by Chem-Ty (the DBE), when          forms that he had not been engaged in any
in fact Allega provided those services and used       work activities during the reported periods.
Chem-Ty as a pass through.                            Deskins subsequently received nearly $700,000
                                                      in Federal workers’ compensation benefits.


                                  Aviation and Special Programs   •   8
This investigation was conducted jointly with          May 24, 2012
the FBI and the U.S. Department of Labor,
Office of Inspector General.                           Virginia Man Sentenced for Faulty
                                                       Inspections and Certifications of
May 21, 2012
                                                       Cylinders Containing Hazardous
California Man Pleads Guilty To                        Materials
Unlawfully Refilling and Transporting
	                Stephen Paul Ganger, of Norfolk, VA, was
Uncertified Compressed Gas Cylinders
	                 convicted and sentenced in District Court,
                                                       Norfolk, VA, to a suspended sentence of 24 years
James Richard Giles of Stockton, CA, and former        of incarceration and a $60,000 fine for multiple
owner of Clean Fuels, LLC, pleaded guilty in           violations of failing to properly test cylinders
U.S. District Court, Sacramento, CA, to charges        containing hazardous materials according to
involving the unlawful refilling of a cylinder with    PHMSA regulations and the Commonwealth
compressed natural gas, a hazardous material,          of Virginia’s fire prevention code. In lieu of
knowing that the cylinder was overdue for its          incarceration, Ganger was ordered to serve 36
5-year recertification. Giles then offered the         months probation and to meet certain special
cylinder for transportation.                           conditions, including performing 100 hours of
                                                       community service and to reimburse $4,275 to
The charge to which Giles pleaded guilty               the City of Norfolk for response costs.
pertains to a trailer used to transport 38 cylinders
of compressed natural gas. All 38 cylinders            The investigation revealed that Ganger, owner
refilled by Giles had service certification dates      of Atlas Fire Protection, conducted faulty
that expired months before. He personally              inspections of fire extinguishers in schools,
transported them from his business in Stockton         hospitals, and restaurants and falsely certified
on his trailer to Pacific Gas & Electric’s natural     that the cylinders complied with Norfolk Fire
gas refilling station on McDonald Island, in           Code and the Virginia Statewide Fire Prevention
San Joaquin County. Our investigation also             Code. During June 2011, OIG, PHMSA, Norfolk
found that Giles did not have a DOT required           Fire Marshal’s Office, and Chesapeake Fire
Retester’s Identification Number and is not a DOT      Marshal’s Office executed a search warrant on
authorized tester.                                     Atlas Fire Protection. As a result of the search
                                                       warrant, Ganger was charged by Norfolk’s Fire
This investigation is being conducted with             Marshal’s Office with numerous safety violations
substantial assistance from PHMSA.                     including failure to hydrostatically test cylinders in
                                                       accordance with DOT standards.




                                  Semiannual Report to Congress     •   9
This investigation was conducted jointly with        Massport in order to conceal Dickerson’s lack
PHMSA, Norfolk Fire Marshal’s Office, and            of activity and to give the appearance that the
Chesapeake Fire Marshal’s Office.                    DBE goal had been met.

June – September 2012                                June 12, 2012

Massachusetts Company Owner                          Florida Pilot Pleads Guilty to Falsifying
Pleads Guilty to DBE Fraud                           His FAA Airmans Medical Application
David Hebert, Dennis Degrazia, and Robert            Jonathon Vondracek, a commercial pilot and
Dickerson pleaded guilty in U.S. District Court,     certified flight Instructor, pleaded guilty in U.S.
Boston, MA, to conspiracy in a scheme to             District Court, Tampa, FL, for falsifying his FAA
obstruct DOT’s DBE program. Hebert and               Airman Medical Application. The investigation
Degrazia, partial owners of U.S. Window and          revealed that previously, the Veteran’s
Door Construction, Inc., and Dickerson, sole         Administration (VA) awarded Vondracek, a Navy
proprietor of Woodchuck’s Building and Home          veteran, 80 percent medical disability benefits
Center, a State-certified DBE, were previously       for a series of service-related medical conditions
indicted for their roles in this scheme.             that included chronic obstructive pulmonary
                                                     disease (COPD). Vondracek failed to disclose
For approximately 10 years, Hebert and               these medical conditions along with receipt of
Degrazia indicated that Dickerson—doing              disability benefits on three FAA airman medical
business as Woodchuck’s, which was awarded           certificate applications. The investigation further
FAA-funded Residential Soundproofing                 determined that Vondracek did not actually suffer
Improvement Program contracts by the                 COPD. As part of his plea agreement, Vondracek
Massachusetts Port Authority (Massport) in           will make restitution to VA in an amount not to
excess of $2.5 million—was a supplier of             exceed $51,237 for the COPD disability benefits
windows and doors and eligible towards its           he received.
DBE goal on each contract. All parties knew
that Dickerson was merely a pass-through and         This investigation is being conducted jointly
would not actually supply any materials, incur       with the Department of Veteran Affairs, Office of
any expenses, or perform any work. Over the          Inspector General.
10 years, companies that Hebert and Degrazia
worked for or owned were awarded over $9.5
million in FAA-funded residential soundproofing
contracts. Dickerson was paid a fee of up to
4 percent of the material costs for his role in
the conspiracy. With Dickerson’s concurrence,
the defendants submitted false documents to



                                 Aviation and Special Programs   •   10
June 27, 2012                                        sell and falsely certify to commercial aviation
                                                     customers the airworthiness of aircraft cockpit
South Florida Airline Pilot Sentenced                windows. The investigation revealed that from
for Falsification of His FAA Airmans                 approximately August 2009 to August 2010, ATR
                                                     employees continued repairing cockpit windows
Medical Certificate                                  despite having its repair station certificate
Kelvin Romello Changur, Airline Transport Pilot,     revoked in July 2009. As part of the scheme,
was sentenced in U.S. District Court, Miami, FL,     ATR and TEG purchased “as removed” cockpit
to 3 years probation, and ordered to perform 120     windows in the open market and backdated
hours of community service for falsifying his FAA    documents to make it appear that the windows
Airman Medical Application and for using a U.S.      had been retrieved from ATR’s or TEG’s
passport containing the same false information       inventory prior to ATR’s repair station certificate
he provided to FAA.                                  revocation. Additionally, serial numbers on the
                                                     windows were changed to disguise the source
                                                     of the windows and to further make it appear
This investigation revealed that on several
                                                     that all ATR work had been performed prior to
occasions, Changur provided a false date of birth
                                                     its certificate revocation.
on FAA documents and on a U.S. passport to
FAA and DHS’s Homeland Security Investigations
(HSI). Changur maintained employment with a          Between July 18 and 20, 2012, former ATR and
commercial air carrier utilizing this fraudulent     TEG employees Diego Garcia, Ivonne Portales,
documentation until it was discovered through        and Chabela Aneiros were sentenced. Garcia
verification checks done by another commercial       was sentenced to 2 years probation; 100 hours
air carrier in which he was seeking employment.      of community service; and was ordered to pay
                                                     a $500 fine, $5,440 in restitution, and a $100
                                                     special assessment. Portales was sentenced
This investigation is being conducted jointly with
                                                     to 3 years probation, 150 hours of community
DHS HSI with assistance from FAA’s Office of
                                                     service, and ordered to pay $9,550 in restitution
Security.
                                                     and a $100 special assessment. Aneiros was
                                                     sentenced to 3 years probation, 100 hours of
July – September 2012
                                                     community service, and ordered to pay $6,300
                                                     restitution, and a $100 special assessment.
Prosecutions in Florida Aircraft Parts
Fraud Conspiracy                                     In August 2012, after a 4-week trial, Dennis
                                                     Romero, Shop Supervisor, ATR and TEG,
In March 2012, a multi-count indictment
                                                     was convicted in U.S. District Court, Fort
was filed against 16 employees of Aircraft
                                                     Lauderdale, FL, for his participation in an
Transparencies Repair (ATR) and Transparencies
                                                     aircraft parts conspiracy. Additionally, Rangel
Engineering Group (TEG) for conspiracy to
                                                     Fernandez, President; Ivan Fernandez,



                                 Semiannual Report to Congress   •   11
Vice-President; Jerry Frystak, General                  testing process. Several companies had retained
Manager; and former employees Lisbet                    Bowman to complete chemical film coating for
Gonzalez and Francisca Diaz pleaded guilty for          their aircraft parts, submitting purchase orders
their participation in the scheme.                      listing the required specifications for the coating.
                                                        After the coating was performed, Bowman
In September 2012, Aileen Bermudez and                  certified that the aircraft parts were processed in
Geovanni Hernandez, former employees of                 accordance with applicable specifications, and
ATR and TEG, were sentenced. Bermudez                   the parts were shipped to customers. Although
was sentenced to 3 years probation and was              the parts and the certificates of conformance
ordered to pay $23,200 in restitution and a             had been shipped, Bowman did not notify its
$100 special assessment. Hernandez was                  customers of the failure, so intermediary and end
sentenced to 3 years probation and was                  users of the parts were unaware of the testing
ordered to pay $10,200 in restitution and a             failures.
$100 special assessment.
                                                        This investigation is being conducted jointly with
This investigation is being conducted jointly           the Defense Criminal Investigative Service.
with the U.S. Department of Labor, Office
of Inspector General; the FBI; and ICE; with            July 6, 2012
substantial assistance from FAA.
                                                        Chicago Contractor Pleads Guilty to
July 2, 2012                                            DBE Fraud
Southern California Chemical                            Anthony Cappello pleaded guilty in U.S. District
                                                        Court, Chicago, IL, to a mail fraud charge.
Processing Company Pleads Guilty
Bowman Plating Company, Inc., a chemical                Our investigation determined that from
processing company located in Compton, CA,              approximately 1999 through May 2006,
pleaded guilty in U.S. District Court, Los Angeles,     Cappello participated in a scheme to defraud
CA, to providing false statements related to            the Government of more than $2.3 million in
chemical processing of aircraft parts sold to           contracts with the Chicago Department of
commercial aviation companies and to the U.S.           Aviation related to the Women in Business
Department of Defense.                                  Enterprise (WBE) and DBE programs. Cappello
                                                        falsely represented that his company, Diamond
In 2007, OIG began investigating allegations that       Coring, was a legitimate WBE DBE eligible to
Bowman failed chemical process control tests,           receive contracts related to those designations
but it had not notified customers of the failures. In   and participation requirements. However,
2006, a private testing company notified Bowman         Diamond Coring was not certified or eligible to
that its chemical film coating had failed the           be certified as a WBE DBE.


                                   Aviation and Special Programs   •   12
July 31, 2012                                        approach lighting system at the Modesto Airport.
                                                     As part of the joint investigation, Modesto Police
Project Manager Pleads Guilty in                     Department subsequently put up surveillance
Connection With DBE Fraud Scheme                     cameras, which led them to Vanderheiden. OIG
                                                     subsequently interviewed Vanderheiden, who
Richard Schultz, project manager of Nationwide       confessed to the theft of copper cable and
Construction (a non-DBE), pleaded guilty to mail     implicated Kody Esstep.
and wire fraud conspiracy. Between 2007 and
March 2011, Schultz conspired with Madeline          In May 2012, Vanderheiden and Esstep, both
Pepe of Staten Island-based MS Construction          residents of Modesto, CA, pleaded guilty in
Corporation, a DBE, by performing the fencing        U.S. District Court, Fresno, CA, to the theft of
work that was contracted to MS Construction          Government property and conspiracy, admitting
on an FAA-funded JFK International Airport           to having stolen the copper cable. The damage
project. Pursuant to the plea, Schultz agreed to a   to the airport is valued at more than $40,000.
monetary forfeiture of $61,750.                      Further, the theft resulted in the failure of the
                                                     approach lighting—which is needed for poor
This case is being conducted jointly with the U.S.   visibility situations, such as fog and heavy
Department of Labor, Office of Inspector General;    rain—posing a significant safety risk to incoming
the Port Authority of New York & New Jersey,         aircraft and neighboring residents and the
Office of Inspector General; and the New York        potential need to divert aircraft.
City Department of Investigation.
                                                     This investigation is being conducted jointly
August 6, 2012                                       with the Modesto Police Department and with
                                                     assistance from FAA.
California Man Sentenced in Airport
Copper Theft Conspiracy                              August 8, 2012

Robin Neal Vanderheiden, also known as Jeremy        California Man Guilty of Submitting a
Wayne Patrick, was sentenced in U.S. District
Court, Fresno, CA, to serve 16 months in prison
                                                     False Document to FAA
for conspiring to steal 2,800 feet of copper cable   In U.S. District Court, Sacramento, CA, Michael
from the Medium Intensity Approach Lighting          D. Maupin—former Quality Assurance Manager
System at the Modesto Airport. Vanderheiden          for WECO Aerospace Systems, Incorporated,
was also ordered to pay $60,000 to FAA for the       Lincoln, CA—pleaded guilty in connection with
damage caused to the Modesto Airport.                his involvement in an aircraft repair scheme.
                                                     Maupin was charged for submitting an aviation
OIG began its investigation based on a referral      quality assurance manual to FAA that contained
from FAA alleging vandalism to the airport           false statements. In September 2011, Maupin


                                 Semiannual Report to Congress   •   13
and five other defendants were indicted on           The investigation revealed that Flying Tigers—a
charges of conspiracy to commit fraud involving      Lancaster, PA, based aircraft maintenance
aircraft parts in interstate commerce and mail       facility operated by Jay and Joel Stout—was
fraud. The defendants are former executives          neither an FAA-certified repair station nor a
and supervisors at WECO, an FAA-certified            certified maintenance facility, but instead relied
repair station that was purchased by Gulfstream      on individuals’ mechanics’ FAA certifications
Aerospace Corporation in 2007. WECO was              and inspection authority. In 2003, FAA
required to use FAA-approved parts and               permanently revoked Jay Stout’s authority to
procedures in the repair and overhaul of aircraft    conduct aircraft inspections. Joel Stout did not
parts; however, the investigation disclosed that     hold an FAA certificate or inspection authority
WECO technicians used unapproved parts               past March 2006. However, the investigation
during their repair.                                 revealed that between October 2006 and
                                                     October 2009, Flying Tigers charged customers
This investigation is being conducted jointly        for annual aircraft inspections that were not
with the FBI and DHS Office of Inspector             performed by FAA-certified mechanics or
General.                                             not performed at all. The indictment further
                                                     alleged that Gunter certified annual inspections
August 14, 2012                                      although he did not perform those inspections
                                                     and that Jay and Joel Stout prepared fraudulent
Pennsylvania Aircraft Repair Company                 certifications and forged signatures of an
                                                     unsuspecting certified inspector who had
Indicted for Aircraft Parts Fraud;                   not performed the inspections. The 5-year
Company Official Arrested                            transportation safety investigation revealed
                                                     that the defendants routinely altered airframe
The U.S. Attorney’s Office, Philadelphia, PA,        and engine logbooks and made false entries
announced the unsealing of an indictment             to conceal their actions. Flying Tigers allegedly
charging Flying Tigers, Inc. and its president,      conducted more than 75 questionable aircraft
Jay Stout, and his son, Joel Stout, with various     inspections between 2006 and 2009.
crimes including conspiracy, fraud involving
aircraft parts, wire fraud, and obstruction of
                                                     Note: Indictments, Informations, and Criminal
justice. In addition, the indictment charged
                                                     Complaints are only accusations by the
Howard Gunter, a former FAA-certified
                                                     Government. All defendants are presumed
mechanic and inspector, with conspiracy and
                                                     innocent unless and until proven guilty.
fraud involving aircraft parts.




                                 Aviation and Special Programs   •   14
August 16, 2012                                     August 23, 2012

FAA Employee Convicted for Theft                    Pennsylvania Man Indicted for
In Cleveland County Court, Norman, OK, Perry
                                                    Attempting to Board Plane With
Morrison, a mechanic with FAA, pleaded guilty       Explosives
to a charge of false declaration to a pawn broker
in connection with his theft of tools from FAA.     A Federal grand jury in Philadelphia, PA,
On August 12, 2011, Morrison pawned tools           returned an indictment against Joseph Picklo,
belonging to FAA while claiming to be the owner.    charging him with possessing an explosive in an
                                                    airport and carrying an explosive on an aircraft.
                                                    On March 29, 2012, Picklo, of Dallas, PA, arrived
The investigation disclosed that Morrison stole
                                                    at the Philadelphia International Airport, and
over $2,400 in tools, which he pawned at two
                                                    allegedly attempted to pass through security
pawn shops located in Cleveland and Oklahoma
                                                    screening with explosives in his carry-on
counties. Morrison was subsequently sentenced
                                                    backpack. Airport security officials searched
and given a 5-year deferred sentence. He was
                                                    his backpack and confiscated two M80-style
also ordered to perform 200 hours of community
                                                    fireworks, flash-powder in a concealed
service, serve 2 years of supervised release, and
                                                    container, a lighting wick, and a flammable
pay $565.50 in fines.
                                                    lighter. Picklo was subsequently arrested.

                                                    This investigation is being conducted jointly with
                                                    the Alcohol Tobacco Firearms and Explosives
                                                    and the FBI.

                                                    Note: Indictments, Informations, and Criminal
                                                    Complaints are only accusations by the
                                                    Government. All defendants are presumed
                                                    innocent unless and until proven guilty.




                                Semiannual Report to Congress   •   15
Semiannual Report to Congress   •   16
                               In Focus: Ensuring Pipeline Operators
                                   Identify and Correct Safety Threats



Every day in the United States, 175,000            safety programs designed to significantly
miles of pipelines transport crude oil, refined    reduce threats, incidents, and accidents to
petroleum products, and other hazardous            the Nation’s pipeline systems. All operators—
liquids, while another 2.4 million miles of        hazardous liquid, gas transmission, and gas
pipelines gather, transmit, and distribute         distribution—are required to establish an
natural gas. Even though these pipelines are       Integrity Management Program (IMP) to identify
considered safe, accidents still occur. Over       and mitigate threats to pipeline integrity. All
the last 12 years, there have been 525 serious     hazardous liquid operators’ IMPs have been
pipeline accidents in the United States due to     inspected at least once, and PHMSA has
causes that are potentially detectable, such as    taken more than 1,400 enforcement actions
internal corrosion, and undetectable, such as      against hazardous liquid operators that failed
excavation damage. These serious accidents         to comply with elements of PHMSA’s IMP
resulted in 200 deaths, 747 injuries, and $539     regulations and proposed more than $3 million
million in property damage. Notable examples       in civil penalties. Despite these actions, the
include the July 2010 Marshall, MI, oil spill;     National Transportation Safety Board (NTSB)
the September 2010 San Bruno, CA, gas              in investigating recent hazardous liquid and
transmission explosion; and the January 2012       gas transmission pipeline accidents criticized
Austin, TX, gas distribution explosion.            operators’ IMPs as well as PHMSA and State
                                                   partners’ oversight and enforcement of such
Over the last decade, PHMSA has required           programs.
pipeline operators to implement a series of


                               Semiannual Report to Congress   •   17
We recently identified significant challenges         Finally, PHMSA needs better data systems and
PHMSA must overcome to effectively oversee            integrity management-specific performance
hazardous liquid pipeline operators’ IMPs. First,     measures to identify and mitigate pipeline risks.
PHMSA must implement multiple strategies              Currently, the Agency lacks the capability to
to address its backlog of inspections, caused         identify high-risk pipelines by linking accidents,
in part by the Agency redirecting resources to        oversight actions, and pipeline characteristics
fulfill other requirements, such as inspecting        to their geographic location. While PHMSA has
pipelines under construction. PHMSA plans             begun developing such a system, it will take
to transition to an integrated, risk-based            years and additional resources to implement.
inspection process by 2013 to target high-risk        In addition, the Agency has not established
areas. However, while this decision may allow         performance measures for assessing the IMP’s
PHMSA to conduct IMP inspections more                 effectiveness. Instead, PHMSA focuses on
efficiently, the success of the new inspection        overall pipeline safety measures that provide
process depends on the Agency’s ability to            no feedback on the IMP’s impact, such as the
complete other safety initiatives.                    number of fatalities and injuries.

PHMSA also needs to step up its IMP oversight         PHSMA has begun implementing our
requirements for non-line pipe facilities—such        recommendations but also cautioned that its
as valves, pump and meter stations, and               ability to complete the effort requires additional
storage tanks—which account for more than             staffing and financial resources contained in its
half of all hazardous liquid accidents. PHMSA         fiscal year 2013 budget request. We continue to
does not require pipeline operators to perform        monitor the Agency’s progress in implementing
regular and consistent assessments of these           our recommendations to strengthen its
facilities, largely because when PHMSA                processes and capabilities.
drafted its IMP requirements in 2000, the
assessment technologies were of little benefit
when inspecting such facilities. For example,
the assessment tools could not pass through
the sharp turns and small pipes within non-line
pipe facilities. However, technological advances
have improved the ability to assess facilities.
One device, for example, uses ultrasonic
guided waves to inspect facility piping for
corrosion and pipeline dents.




           In Focus: Ensuring Pipeline Operators Identify and Correct Safety Threats   •   18
                                             Highway and Transit Programs




Audits                                            attempt to operate as a different entity to
                                                  evade enforcement action, out-of-service
                                                  orders, or both. NTSB also highlighted issues
April 17, 2012                                    related to Federal oversight of passenger
                                                  carrier compliance with Federal Motor Vehicle
Timely and Targeted FMCSA Action                  Safety Standards (FMVSS). In its final report,
Is Needed To Fully Address National               NTSB recommended that FMCSA review
                                                  multiple years of carrier applications for Federal
Transportation Safety Board Recom-                operating authority to identify reincarnated
mendations for Improving Passenger                carriers, issue new rules to strengthen its
Carrier Oversight                                 capabilities to oversee the passenger carrier
                                                  industry, and enhance oversight efforts to
Requested by the House Transportation,
                                                  enforce FMVSS. We found that while FMCSA
Housing and Urban Development
                                                  took action on rules NTSB recommended to
Appropriations Subcommittee
                                                  improve passenger carrier oversight, it has yet
                                                  to implement those rules. Further, FMCSA’s
Following a fatal motorcoach accident near        vetting process to detect reincarnated carriers
Victoria, TX, in January 2008, NTSB raised        could be improved, and FMCSA has not
concerns about the Federal Motor Carrier          implemented NTSB’s recommendations on
Safety Administration’s (FMCSA) ability to        enhancing FMVSS compliance. We made
detect reincarnated carriers—carriers that


                              Semiannual Report to Congress   •   19
five recommendations to improve FMCSA’s            July 26, 2012
oversight of passenger carriers; FMCSA
concurred with all five.
                                                   Actions Needed To Improve FTA’s
                                                   Oversight of the Dulles Corridor
May 17, 2012
                                                   Metrorail Project’s Phase 1
FTA Can Improve Procedures To                      Self-initiated
Ensure More Effective Implementation
                                                   Phase 1 of the Dulles Corridor Metrorail
of the Charter Service Regulation                  Project—a joint Federal-State-local project
Requested by the Senate Transportation,            expected to provide a mass transit link to Dulles
Housing and Urban Development                      International Airport—is estimated to cost $3.1
Appropriations Subcommittee                        billion. FTA is responsible for overseeing the
                                                   significant Federal investment in phase 1 of the
In January 2008, the Federal Transit               project—close to one-third of the estimated
Administration (FTA) amended the Federal           cost. In October 2009, we raised concerns in a
Charter Service Regulation to clarify disputed     Management Advisory to FTA about the safety
provisions regarding competition between           of 11 pier foundations to support part of the
private charter operators and federally funded     project’s guideway. While FTA subsequently
public transit agencies. While FTA improved        implemented an oversight process to ensure
procedures for overseeing the implementation       that the 30-year-old pier foundations were
of the regulation—including procedures for         tested, the testing process has not yet provided
responding to stakeholder concerns and             assurance that the structures will meet the 50-
for notifying private charter operators of         year service life specified in FTA guidance. In
potential business opportunities—inaccuracies      addition, FTA had not taken sufficient mitigation
in FTA data and misinterpretations of the          actions to address key project issues that put
regulation’s requirements still exist. We made     the schedule, cost estimate, and funding from
five recommendations to FTA to improve data        the 2009 Full Funding Grant Agreement at risk.
quality, monitor stakeholder issues, and provide   We made seven recommendations aimed at
targeted outreach. Based on FTA’s response,        strengthening FTA’s oversight of the project.
we considered all five recommendations             FTA agreed to direct additional testing to further
resolved but open pending completion of its        ensure the 50-year service life for the structures
planned actions.                                   and to take acceptable actions to address our
                                                   recommendations.




                                Highway and Transit Programs   •    20
August 2, 2012                                     August 16, 2012

Improvements Needed in the Federal                 Increased Participation and Improved
Transit Administration’s Grant                     Oversight Mechanisms Would Benefit
	
Oversight Program                                  the NAFTA Pilot Program
Requested by the Federal Transit                   Required by the U.S. Troop Readiness,
Administration                                     Veteran’s Care, Katrina Recovery, and Iraq
                                                   Accountability Act, 2007, Pub. L. 110-28
To enhance the effectiveness and efficiency
of the Nation’s transit systems, FTA provides      In October 2011, FMCSA officially launched
funding to more than 1,200 State and local         a pilot program authorizing long-haul, cross-
grantees. From fiscal year 2006 through            border trucking services between the United
fiscal year 2010, FTA awarded over $57 billion     States and Mexico under the provisions of the
in grants. FTA’s regional offices, as well as      North American Free Trade Agreement (NAFTA).
its contractors, play an important role in         However, low participation in the pilot program
establishing proper stewardship over these         creates the risk that FMCSA will not have an
Federal investments by ensuring grantees           adequate and representative sample of Mexico-
spend funds effectively and comply with            domiciled carriers and inspections to assess the
Federal laws and regulations. However, FTA         program’s impact on motor carrier safety. A low
does not provide its regions or contractors        participation rate also prevents us from making
with adequate guidance or oversight to             reliable statistical projections regarding safety
ensure they consistently identify and track        attributes of program participants. In addition,
grantee deficiencies. Further, FTA Region III      FMCSA’s oversight mechanisms did not ensure
has not effectively followed up on grantee         full compliance with pilot program requirements,
deficiencies. We made six recommendations          and at the time of our review, FMCSA was still
to enhance the level of oversight FTA              developing some monitoring mechanisms.
provides, to develop performance measures
assessing the effectiveness of the outcomes        We made four recommendations to enhance
of its overall oversight program, and to ensure    FMCSA’s monitoring and enforcement activities.
regions do not close findings before receiving     FMCSA concurred with two recommendations
documentation showing that a finding has been      and agreed to re-emphasize and monitor its
fully resolved. FTA fully concurred with our six   existing procedures in lieu of pursuing the other
recommendations and provided responsive            two recommendations. Given that the program
plans to address them. We consider the             has had minimal participation and thus provided
recommendations resolved but open pending          limited operational data for review, we consider
completion of the planned actions.                 FMCSA’s actions to be sufficient at this time.
                                                   We will evaluate FMCSA’s actions to address all



                               Semiannual Report to Congress   •   21
recommendations during our final audit of the     program; OST concurred with three and
pilot program, the results of which are to be     partially concurred with four. We will close six
issued 6 months after the pilot program ends.     of the recommendations, pending receipt of
                                                  appropriate documentation of actions taken
September 20, 2012                                or planned. For one recommendation aimed
                                                  at improving collaboration between operating
DOT Established Timely Controls                   administrations to avoid inconsistent grant
                                                  requirements, we are requesting additional
for the TIGER Discretionary Grants                information to fully assess OST’s response.
Program, but Opportunities Exist To
Strengthen Oversight                              Investigations
Self-initiated
                                                  April – June 2012
The Office of the Secretary’s (OST)
Transportation Investment Generating Economic     Former General Manager of Virginia
Recovery (TIGER) Discretionary Grants Program
uses competitive discretionary grants for
                                                  Transit Agency Pleads Guilty to Theft
capital investments in highway, bridge, public    of FTA Grant Funds
transportation, rail, and port infrastructure
                                                  David Morgan, former general manager of
projects. Congress initially appropriated $1.5
                                                  Valley Metro Transit, pleaded guilty to theft
billion for the program through the American
                                                  of Government funds in U.S. District Court,
Recovery and Reinvestment Act (ARRA) of
                                                  Roanoke, VA.
2009; the program has since grown to over
$3.1 billion. Through this review, conducted as
part of our ongoing ARRA oversight work, we       In 2006, FTA awarded Valley Metro an $80,000
determined that while OST’s TIGER program         grant to replace furniture at the company’s
policies generally adhered to best practices,     downtown Roanoke administration building.
vulnerabilities remain in reviewing grant         Valley Metro hired Diane B. Holdren, a local
agreements, overseeing individual projects,       interior designer, to complete the project.
assessing program risks, and measuring            Holdren admitted to fabricating and inflating
performance. In addition, we identified           all competitors’ bids to ensure Valley Metro
discrepancies in the requirements for safety      would have to pay more than the true costs
standards in the grant agreements for rail        associated with the project. Following Valley
infrastructure projects.                          Metro’s acceptance of the bids, Holdren
                                                  submitted falsified invoices related to the bids
                                                  that included inflated and nonexistent shipping
We made seven recommendations to
                                                  costs. Subsequently, Valley Metro made direct
strengthen OST’s oversight of the TIGER
                                                  payment to the furniture vendors on the inflated



                               Highway and Transit Programs   •   22
bills received from Holdren. The vendors then       Selective Traffic Enforcement Program, which
issued checks back to Holdren for the difference    is funded through a NHTSA grant. The officers
between the true costs and the cost paid by         are part of a group of 25 El Paso police officers
Valley Metro based on Holdren’s deception. The      suspected of submitting fraudulent documents
total estimated loss caused by Holdren’s actions    in this scheme.
is between $80,000 and $120,000.
                                                    This investigation is being conducted jointly
Between July 1, 2007, and June 20, 2008,            with the El Paso Police Department and
Morgan admitted to using Valley Metro Transit       El Paso County District Attorney’s Office,
credit cards to make inappropriate purchases        with assistance from NHTSA and the Texas
that were paid for, in part, with FTA operating     Department of Transportation.
grant funds. Morgan used the grant funds to
purchase meals, alcohol, golf fees, cigars, and     April – September 2012
gift cards totaling more than $14,000. In April
2012, Holdren was sentenced to 4 months in          Former Moving Company Employees
prison, 4 months of home confinement, a $3,000
fine, and $45,728 in restitution.                   Sentenced for Their Roles in a
                                                    Household Goods Fraud Scheme
This investigation was conducted jointly with
                                                    Based on information from FMCSA, OIG
the U.S. Postal Inspection Service, Virginia
                                                    began investigating owners and employees of
State Police, and the City of Roanoke Police
                                                    National Moving Network (NMN), a Miami-based
Department.
                                                    household goods broker, and AY Transport, a
                                                    San Jose-based moving company. As part of
April – June 2012                                   its daily business practice, NMN booked moves
                                                    nationwide, then referred a majority of the moves
Former El Paso Police Officers Indicted             to AY Transport for the transportation of the
for Traffic Ticket Scheme                           household goods. NMN employees and owners
                                                    and employees of AY Transport participated
Twelve former El Paso Police Department             in a “low-ball estimate” scheme, where NMN
police officers were indicted by a Grand Jury       estimators quoted customers a low estimate to
in El Paso County, TX. The former police            move their household goods, and upon taking
officers were indicted on multiple counts of        custody of customers’ goods, raised the price to
tampering with a Government record and are          exorbitant rates.
accused of submitting overtime reimbursement
requests containing false information as to the     A Superseding Information was filed in U.S.
times worked and number of traffic citations        District Court, San Jose, CA, charging Brandi
issued. The requests were submitted in 2009         Aycock, sales manager for NMN with charges
and 2010 while working overtime under the


                                Semiannual Report to Congress   •   23
associated with the failure to observe published     April 4, 2012
moving tariffs. Aycock subsequently pleaded
guilty to the charges and was sentenced to serve     New York Construction Firm Agrees
6 months probation and ordered to pay a $25          to Pay $7.5 Million To Settle Fraud
special assessment fee and $10,765 restitution to
two NMN victims.                                     Allegations
                                                     New York—based trucking companies Judlau
In April and May, Christopher Sariol and Stuart      Contracting, Inc., Dragados USA, Inc., and a
Sheinfield, estimators for NMN, pleaded guilty.      joint venture of Dragados and Judlau signed a
Sariol was sentenced to 6 months probation,          civil settlement agreement in U.S. District Court,
and ordered to pay a $25 special assessment          New York, NY. The joint venture of Dragados
fee and $2,104 restitution to NMN and AY             and Judlau agreed to pay a $7.5 million civil
Transport victims. Sheinfield was sentenced to       settlement related to DBE fraud on a major
12 months probation and ordered to pay $4,900        public works project that received $2 billion
in restitution to his victims.                       in FTA funding. Dragados and Judlau was
                                                     the prime contractor on the East Side Access
In August 2012, Limor Gefen, a data entry clerk      Project, which involves the construction of a
and customer service representative for AY           tunnel connecting the Long Island Railroad to
Transport, pleaded guilty to her participation in    Grand Central Station.
the scheme. She was sentenced to 6 months
probation and ordered to pay a $100 special          As part of the settlement, Dragados and
assessment fee and $1,248 restitution to two AY      Judlau admitted that between 2006 and 2008,
Transport victims.                                   they listed four DBEs as subcontractors and
                                                     indicated that the total contract amount was
This investigation is being conducted jointly with   approximately $22 million. Rather than pay DBEs
the FBI and the Internal Revenue Service (IRS),      for the work they performed, the joint venture
with assistance from FMCSA.                          paid three DBEs fees to act as pass-throughs
                                                     while the work was being performed by non-DBE
                                                     subcontractors.

                                                     As part of this settlement, approximately $6
                                                     million was returned to FTA. This investigation
                                                     was conducted jointly with the U.S. Attorney’s
                                                     Office for the Southern District of New York and
                                                     the Inspector General for the New York State
                                                     Metropolitan Transportation Authority.




                                 Highway and Transit Programs   •    24
April 4, 2012                                      implementation and day-to-day administration
                                                   and oversight of its corporate compliance
Guardrail Manufacturer Agrees to Civil             program.
Settlement for Alleged Buy America
Violations                                         April 5, 2012

Trinity Highway Products, LLC, Dallas, TX—a        Former Owner of Pennsylvania Bridge
leading manufacturer of highway guardrail,         Beam Manufacturer Convicted
highway guardrail end treatments, and
other highway safety products—entered              Joseph W. Nagle, former co-owner of
into a civil settlement agreement with the         Schuylkill Products Incorporated (SPI) and
U.S. Department of Justice. The settlement         its wholly-owned subsidiary, CDS Engineers
agreement called for Trinity to pay the Federal    (CDS), was convicted by a Federal jury in
Highway Administration (FHWA) $142,000 for         Harrisburg, PA, after a 4-week trial. Nagle
alleged violations of the Buy America Act.         was found guilty on numerous counts of
                                                   conspiracy, mail fraud, wire fraud, and money
The allegations of Buy America Act violations      laundering. The jury determined that Nagle
were brought by the Montana Department             participated in a large-scale DBE fraud scheme
of Transportation (MDT), which alleged             that was conducted over a 15-year period
Trinity failed to secure proper Buy America        and involved over $136 million in fraudulent
Act documentation from companies that              DBE subcontracts on 340 federally funded
supplied steel to its Centerville, UT, facility.   highway and transit construction projects
The investigation identified several instances     performed throughout the Commonwealth of
of Trinity’s guardrail accessories being made      Pennsylvania. These projects were awarded by
from steel with non-compliant documentation.       the Pennsylvania Department of Transportation
The non-compliant steel was installed in           and the Southeastern Pennsylvania
Trinity products used in federally funded MDT      Transportation Authority.
projects.
                                                   SPI used Marikina Construction Corporation,
FHWA determined Trinity took appropriate           a Connecticut-based certified DBE, as a
action to implement more effective internal        “front” company to fraudulently obtain DBE
controls, which represented a willingness to       subcontracts. Between 1993 and 2008,
accept responsibility. Trinity entered into an     over $136 million in DBE subcontracts were
administrative settlement and compliance           awarded to Marikina. Contract documents
agreement, which includes a requirement            were created to appear that Marikina was
for Trinity to appoint an independent              involved, when in reality, SPI and CDS
corporate compliance officer responsible for       negotiated, managed, and supervised all




                               Semiannual Report to Congress   •   25
the Marikina subcontracts. In exchange for         Belovs previously pleaded guilty to various
allowing SPI and CDS to use its DBE status,        State charges, including one count of vehicular
Marikina was paid a small fixed fee and all the    homicide. OIG analysis of Belovs’ regulated
profits ended up with SPI and CDS.                 driver logbooks revealed that he was driving in
                                                   excess of FMCSA maximum hours of operating
Ernest Fink, former co-owner of SPI and CDS;       a commercial vehicle at the time of the
Romeo Cruz, former owner of Marikina; Dennis       accident. The truck’s owner, Victor Kalinitchll,
Campbell, former vice president of SPI; and        was previously sentenced on State charges,
Timothy Hubler, former vice president of CDS,      as was Joseph Jadczak, who admitted to
pleaded guilty to criminal conspiracy charges      selling inspection stickers to Kalinitchll without
for their part in this scheme.                     inspecting the truck Belovs drove into stopped
                                                   traffic.
This investigation is being conducted jointly
with the FBI; the U.S. Department of Labor,        This investigation is being conducted
Office of Inspector General; and the IRS,          jointly with the Montgomery County District
Criminal Investigation Division.                   Attorney’s Office and the Pennsylvania State
                                                   Police. FMCSA assisted with the investigation.
April 25, 2012
                                                   May 8, 2012
Philadelphia Truck Driver Jailed for
Falsifying Hours of Service Resulting in           South Carolina Department of
Fatal Crash                                        Motor Vehicle Employee Sentenced
                                                   for Issuing Fraudulent Commercial
Valerjis Belovs was sentenced in U.S. District
Court, Philadelphia, PA, to 18 months in prison,
                                                   Driver’s Licenses
36 months supervised release, and imposed          Brenda Kay Poston, a former South Carolina
$2,500 in fines for his role in a false logbook    Department of Motor Vehicles (SCDMV)
scheme and a fatal truck crash in Philadelphia.    customer service representative, was sentenced
In October 2011, Belovs admitted to falsifying     in U.S. District Court, Columbia, SC, to 3 years
his FMCSA regulated logbooks to conceal            probation, a $100 special assessment, 6 months
that he drove in excess of the allowable driving   home confinement, and ordered to undergo
hours without the required period of rest. The     vocational and psychiatric evaluations for her
Federal charges are related to an accident on      role in a scheme to provide commercial driver
US 76 in Philadelphia, in which one person         licenses (CDL) to unqualified applicants.
died and five others were seriously injured
when Belovs’ truck plowed into stopped traffic.    SCDMV discovered that Poston aided several
                                                   individuals in creating false CDL test scores;



                                Highway and Transit Programs   •   26
knowledge and road test scores; and operational       The charges stem from Athanasiou’s
enhancements, such as hazardous materials             involvement in the fraudulent use of front DBEs
and passenger endorsements, and entered the           as subcontractors on several DOT, State, and
false information into SCDMV databases. OIG           local funded roadway improvement projects
and SCDMV conducted a historical review of the        in the New York City metropolitan area.
driver history records system and identified 19       Athanasiou admitted that during the period
drivers with suspicious or unverifiable credentials   1998 through 2001, the Perini Corporation
dating back to 2004. Poston confessed to              awarded approximately $19 million in fraudulent
her role in the issuance of 19 CDLs, and 13           DBE subcontracts in order to qualify for four
drivers admitted to obtaining their CDLs or           construction projects, collectively worth $284
endorsements fraudulently. SCDMV officials            million, in the New York City area. These
instituted administrative revocations of those        projects included work on the Westside
drivers’ credentials and offered re-examinations      Highway, the Brooklyn-Queens Expressway/
of all drivers believed to be recipients of           Williamsburg Bridge Connector, the Queens
fraudulent CDLs. Poston was subsequently              Boulevard/Honeywell Street Bridges, and the
terminated from her position.                         Long Island Expressway/Cross Island Parkway
                                                      interchange. Athanasiou and others conspired
This joint investigation is being conducted with      to use three front DBE subcontractors to obtain
the South Carolina Law Enforcement Division.          various levels of DBE credit on these projects
                                                      and relied on a number of non-DBE contractors
May 11, 2012                                          to do the actual work. The front DBEs generally
                                                      received between 3 percent and 5 percent
Former New York Construction                          of the subcontract value as a fee to process
                                                      payroll and other required paperwork.
Company Executive Ordered to
Forfeit $100,000                                      As a result of Athanasiou’s guilty plea on
                                                      charges of money laundering and conspiracy,
John Athanasiou, former Vice President of
                                                      he was ordered to forfeit $100,000 and placed
Purchasing for Perini Corporation’s Civil
                                                      on probation for 1 year. The DBE owners and
Division, also known as Tutor Perini, was
                                                      others involved in this conspiracy have since
sentenced in U.S. District Court, Brooklyn, NY,
                                                      pleaded guilty. The Perini Corporation has paid
following his October 29, 2010, guilty plea to
                                                      $9.75 million in a negotiated civil settlement
money laundering and conspiracy charges.
                                                      to resolve its criminal and civil liability in the
                                                      matter.




                                 Semiannual Report to Congress   •   27
June 7, 2012                                        July 10, 2012

North Carolina Trucking Company,                    Georgia Women Indicted or Pleaded
Owner, and Safety Consultant                        Guilty in Fraudulent Double Brokering
Sentenced for Falsifying Drivers’ Logs              Scheme
Mabe Trucking Company (MTC), Eden, NC; its          Pauline Robinson-Kirkland, of Donalsonville, GA,
owner, Roger “Butch” Mabe, Jr.; and James J.        was indicted in U.S. District Court, Albany, GA,
Brylski, owner of DOT Advisor, a Raleigh, NC,       on a mail fraud charge, and in May 2012, Tina
motor carrier consulting firm, were sentenced       Blyth pleaded guilty to a mail fraud charge. Both
in U.S. District Court, Greensboro, NC, for         Robinson-Kirkland’s and Blyth’s charges stem
falsifying drivers’ logs. Each previously pleaded   from their involvement in a fraudulent double
guilty to falsifying drivers’ records for the       brokering scheme.
purpose of concealing that drivers logged more
hours than allowed by Federal Motor Carrier         The investigation revealed that Robinson-
Safety regulations, which limit the number of       Kirkland and Blyth accessed Web sites where
hours a truck driver can operate a vehicle to       companies advertised loads of commercial
prevent motor vehicle accidents caused by           freight available for transport. They bid on and
driver fatigue.                                     were awarded the freight loads using various
                                                    shell company names, which are listed as having
MTC was sentenced to 5 years probation and          broker authority with FMCSA. They led the
fined $8,000, and Mabe was sentenced to 1           sender to believe their trucking business would
year probation and fined $2,000. Brylski, MTC’s     deliver the freight for the contracted price and
safety consultant, was sentenced to 12 months       the sender of the freight would pay them the
probation and was fined $3,000 and a $100           agreed upon price. However, after accepting
special assessment.                                 the bid, they immediately re-advertised the job,
                                                    using a different company name. They accepted
FMCSA assisted in this investigation.               bids from legitimate trucking companies and
                                                    had them deliver the freight from the sender
                                                    to the intended destination, never disclosing
                                                    that they had arranged for the sender to send
                                                    payment to them instead of the company that
                                                    actually transported the freight.




                                 Highway and Transit Programs   •   28
This investigation is being conducted jointly with   untested specimens, misrepresenting that the
the Decatur County Sheriff’s Office, Decatur, GA.    specimens had tested negative and billing his
                                                     clients for services not provided.
Note: Indictments, Informations, and Criminal
Complaints are only accusations by the               This investigation was conducted with
Government. All defendants are presumed              assistance from FMCSA.
innocent unless and until proven guilty.
                                                     July 18, 2012
July 10, 2012
                                                     Former President of Texas Company
Vermont Man Sentenced to Jail for                    Indicted on Environmental Charges
Falsifying Documents Used in Drug                    After the Deaths of Two Employees
Testing Transportation Companies
                                                     Port Arthur Chemical and Environmental
Mounir R. Khouri was sentenced to 1 month            Services (PACES), and its owner Matthew
incarceration, 2 years supervised release, and       Bowman, were indicted in U.S. District Court,
$22,513.10 in restitution in U.S. District Court,    Beaumont, TX, on charges involving the
Brattleboro, VT, for his involvement in a scheme     transport of hazardous materials without a
to defraud transportation companies employing        placard and the illegal treatment of hazardous
drivers subject to random drug testing.              waste.

Khouri, who did business as Mobile Testing           This investigation was initiated as a result of
Services, Inc. (MTSI), represented himself as a      the deaths of two PACES employees who were
third party administrator, capable of assisting      exposed to unsafe levels of hydrogen sulfide,
transportation companies in complying with           a poisonous gas, which was released during
DOT regulations requiring that urine samples         the treatment and processing of hazardous
be obtained by trained collectors and shipped        materials. The investigation revealed that
to licensed labs with a completed Control and        Bowman was directing employees to load tanker
Custody Form (CCF) for drug testing. Test            trucks containing hazardous waste, flammable
results must then be reviewed by a Medical           liquids, poisonous gases, and caustic liquids,
Review Officer (MRO), a licensed physician           and transporting them without the required
trained in substance abuse. However, in 2009,        identifying placards between PACES and a deep
Khouri subverted the role of the MRO by              well injection site.
completing the CCFs and giving test results that
were not reviewed by an MRO. After Khouri’s          In addition, it is alleged that Bowman ordered
contracted drug testing lab stopped testing          hazardous waste water loads, which were
due to nonpayment, he prepared false CCFs for        received in Bowman’s Houston, TX, facility, to be



                                Semiannual Report to Congress   •    29
illegally transported on public roads without the    allowing and causing commercial truck drivers
required placards. PACES employees accepted          employed by D.A. Landis Trucking to operate
hazardous waste and treated it without the           in violation of FMCSA “hours of service” safety
proper Environmental Protection Agency (EPA)         regulations. The company also dispatched
or Texas Commission on Environmental Quality         drivers on trips it knew required excessive
(TCEQ) permits and submitted false shipping          hours of driving time and excessive hours of
documents to conceal these loads were being          on-duty time, without allowing the required
treated at an unpermitted facility.                  hours of rest or regulated off-duty time. Landis
                                                     instructed company employees to prepare two
This investigation is being conducted jointly with   sets of driver’s logs, one of which was false
EPA-Criminal Investigation Division, Houston         and intended for FMCSA inspectors to conceal
Police Department, Texas Parks and Wildlife, and     violations of safety regulations. During the
TCEQ Criminal Enforcement.                           execution of a search warrant of the company,
                                                     Federal agents seized numerous logbooks and
Note: Indictments, Informations, and Criminal        documents marked “Not for DOT.”
Complaints are only accusations by the
Government. All defendants are presumed              Further, the judge ordered Landis to publish,
innocent unless and until proven guilty.             within 2 months, an approved advertisement
                                                     in a trucking industry publication taking
July 24, 2012                                        responsibility for the criminal acts in this case
                                                     and informing the industry of this investigation
                                                     and his role in the scheme.
Pennsylvania Trucking Company
Owner Sentenced                                      This investigation was conducted jointly with
                                                     the Food and Drug Administration’s Office of
Dean A. Landis, the owner—operator of D.A.
                                                     Criminal Investigation, with assistance from
Landis Trucking, Inc., a Lancaster, PA, company,
                                                     FMCSA.
was sentenced in U.S. District Court, Allentown,
PA, to 5 years probation, including 12 months
home detention and electronic monitoring. In         July 31, 2012
addition, he was ordered to pay a criminal fine
of $15,000. His company was sentenced to             Two Alabama Trucking Companies
4 years probation and was ordered to pay a           and Their Owners Indicted for
$250,000 fine, a $4,400 special assessment,
and to implement a comprehensive compliance
                                                     Violating FMCSA Out-of-Service Order
and ethics plan. The sentencing follows a March      Isaac McWilliams, Heronda McWilliams, and
2012 guilty plea in which Landis admitted to         their companies BM&L Trucking and IDM
routinely disregarding FMCSA regulations by          Transportation, were indicted in U.S. District



                                 Highway and Transit Programs   •    30
Court, Birmingham, AL, for false statements and     July 31, 2012
for operating while under an Imminent Hazard
Out-of-Service Order issued by FMCSA.               Maine Man Pleads Guilty to
                                                    $900,000 Embezzlement From a
On December 2, 2010, FMCSA conducted a
compliance review of IDM Transportation and
                                                    Federally Funded Program
identified serious violations of Federal Motor      Thomas Nelson, former Chief Executive Officer
Vehicle Safety Regulations. On June 14, 2011, an    of York County Community Action Corporation
Operations Out-of-Service Order was issued to       (YCCAC), pleaded guilty in U.S. District Court,
IDM, prohibiting IDM from operating under any       Portland, ME, to conspiracy, embezzlement
name or through another company. However, in        from a federally funded program, tax evasion,
May 2011, Isaac McWilliams failed to disclose his   and signing false tax return charges.
involvement with IDM when he applied for motor
carrier authority for BM&L Trucking. McWilliams
                                                    YCCAC provides social service, health,
falsely certified to FMCSA that he did not have
                                                    educational, and transportation-related
or ever have any relationship with any other
                                                    assistance to York County individuals and
FMCSA regulated entity in the past 3 years. In
                                                    families living in poverty. From 2006 to 2010,
May 2012, FMCSA completed an investigation
                                                    YCCAC received in excess of $30 million
of BM&L and again found widespread serious
                                                    in Federal funds, including approximately
safety violations, similar to those found during
                                                    $7 million in FTA grants, nearly $4 million
its review of IDM. Consequently, FMCSA issued
                                                    of which were funds from FTA’s ARRA rural
an Imminent Hazard Out-of-Service Order
                                                    transit assistance and urban transit assistance
to BM&L, IDM, and to Isaac and Heronda
                                                    programs.
McWilliams. Despite this imminent hazard order,
our investigation found that BM&L and the
                                                    The investigation disclosed that from 2004
McWilliamses continued to operate commercial
                                                    to 2010, Nelson embezzled approximately
motor vehicles in commerce.
                                                    $900,000 from YCCAC. He diverted $413,000
                                                    in funds to a consulting company that had
This investigation was conducted with the
                                                    submitted only one invoice for $8,700. In
assistance of FMCSA and the Alabama
                                                    exchange for the fraudulent payments, the
Department of Public Safety.
                                                    consulting company paid more than $20,000 of
                                                    Nelson’s personal expenses, including his home
Note: Indictments, Informations, and Criminal       mortgage, and provided Nelson with a cash
Complaints are only accusations by the              kickback. From 2004 to 2009, Nelson diverted
Government. All defendants are presumed             more than $400,000 in YCCAC funds to New
innocent unless and until proven guilty.            England Community Action Agency (NECAA),
                                                    a defunct non-profit entity, and recorded those



                                Semiannual Report to Congress   •   31
payments as donations or consulting expenses.          The judge also barred Weekes from participating
After transferring these funds to NECAA, Nelson        in any municipal construction contracts during
used more than $300,000 to gamble and to               his period of probation. Weekes pleaded guilty
pay personal credit card bills and his home            in 2001 and admitted that VVSS acted as a
mortgage, failing to report over $400,000 in           DBE front on approximately 35 public works
embezzled income to the IRS. Finally, in 2005          construction projects for numerous general
and 2006, he prepared and signed NECAA                 contractors in the New York City area. He further
tax returns, which suggested the agency had            admitted that he helped negotiate some of these
revenue and assets when it did not.                    fraudulent subcontracts between VVSS and the
                                                       general contractors.
As part of his plea agreement, Nelson agreed to
pay restitution of approximately $1.2 million to       The investigation was conducted by the Federal
YCCAC and $150,000 to the IRS.                         Construction Fraud Task Force for the Eastern
                                                       District of New York, whose members include
This investigation is being conducted jointly with     OIG; the IRS, Criminal Investigation Division; the
the IRS, Criminal Investigation Division; the U.S.     U.S. Department of Labor OIG Office of Labor
Department of Health and Human Services,               Racketeering and Fraud Investigations; and the
Office of Inspector General; U.S. Department           New York City Department of Investigation.
of Housing and Urban Development, Office
of Inspector General; and U.S. Department of           August 13, 2012
Agriculture, Office of Inspector General.
                                                       The United States and LaFarge North
August 7, 2012                                         America Settle Civil Fraud Claims for
Salesman for DBE Firm Sentenced                        $950,000
for Role in $21 Million DBE Fraud                      In U.S. District Court, Buffalo, NY, a civil
                                                       settlement was reached between the U.S.
Scheme
                                                       Attorney’s Office and LaFarge North America
Tony Edmund Weekes, salesman for VVSS                  (LNA). The settlement was based on claims
Co., Inc., a certified DBE, was sentenced in           that LNA fraudulently obtained subcontracts
U.S. District Court, Central Islip, NY, for his role   that were supposed to be performed by
in a $21 million DBE fraud scheme. Weekes              certain minorities and DBEs. It was alleged
was sentenced to serve 3 years probation,              that between June 2001 and March 2006,
and to pay a $1,000 fine and a $100 special            employees of LNA entered into a fraudulent
assessment. In addition, he was ordered to             agreement with Oscar Rayford of Rayford
cooperate with the IRS in calculating the amount       Enterprises, a certified DBE construction
of unpaid taxes, interest, and penalties he owes.      company, and contracted to obtain DBE



                                  Highway and Transit Programs    •   32
concrete supply subcontracts from Rayford on          September 17, 2012
eight separate projects in the Buffalo, NY, area
funded, in part, by FHWA. Rayford claimed his         Anchorage Company Manager
company was a bona fide DBE that performed
concrete work on highway construction
                                                      Charged in Connection With an
projects, but Rayford used LNA, a non-DBE             Alaska Highway Project Double-Billing
manufacturer, to perform all of the concrete          Scheme
work on the projects. Rayford previously
pleaded guilty to mail fraud charges and              Darrell Underwood, a highway construction
forfeited $1.8 million. Pursuant to the settlement,   project manager for Quality Asphalt Paving
LNA agreed to pay the United States $950,000.         (QAP), was charged in U.S. District Court,
The settlement does not constitute an admission       Anchorage, AK, with false statements in
of liability by LNA.                                  connection with highway rehabilitation work
                                                      QAP performed on the federally funded Chief
August 30, 2012                                       Eddie Hoffman Highway project.


Georgia Man Sentenced for Violating                   This investigation was initiated when OIG was
                                                      advised that employees of QAP were allegedly
an Imminent Hazard Out-of-Service                     conducting deceptive business practices on
Order                                                 the highway project between the airport in
                                                      Bethel, AK, and the highway’s intersection with
Devasko Lewis was sentenced in U.S. District          Ridgecrest Drive. The project was estimated
Court, Albany, GA, to 6 months incarceration,         to cost $12,260,852, with $11,089,218 to be
followed by 12 months supervised release, and         paid by Federal-aid funds. The investigation
was ordered to pay a fine of $3,000 for operating     disclosed that Underwood directed QAP
a commercial motor vehicle in violation of an         employees he supervised to create duplicate
Imminent Hazard Out-of-Service Order issued by        weight tickets for single truckloads of gravel
FMCSA in October 2008. Lewis, doing business          in order to collect additional weight tickets for
as Lewis Trucking Company/DDL Transport/DL            which QAP could bill the State of Alaska. The
Transport, Cordele, GA, was placed under an           result of this fraud was that QAP double billed
Imminent Hazard Order to cease all operations         the State for multiple shipments of gravel in
due to serious violations discovered during a         the total dollar amount of just under $70,000.
compliance review conducted by FMCSA. The             The scheme was reported to FHWA by a QAP
compliance review was subsequent to a crash           driver who was directed by Underwood to
in Alabama that resulted in the deaths of seven       falsify weight tickets on the job. In May 2012,
State of Alabama prison guards.                       FHWA suspended Underwood from working on
                                                      Federal-aid contracts.
FMCSA and the Georgia Department of Public
Safety assisted in this investigation.


                                 Semiannual Report to Congress   •   33
FHWA, Alaska State Department of                     to achieve the designed tensile capacity, Harris
Transportation, and Alaska State Troopers            directed his employees to engage in a number
assisted in this investigation.                      of practices to misrepresent the quality of the
                                                     anchor bolt installation, which included tack
Note: Indictments, Informations, and Criminal        welding or epoxying an additional piece of bolt
Complaints are only accusations by the               and/or nut onto an embedded but short anchor
Government. All defendants are presumed              bolt. ITD inspectors, however, discovered the
innocent unless and until proven guilty.             deficiencies during a routine construction
                                                     inspection of the new bridge’s piers. Inspectors
September 18, 2012                                   found approximately 100 of the improperly
                                                     installed bolts. FHWA and ITD had bridge
                                                     experts evaluate the potential safety risks to the
Montana Man Charged With
                                                     bridge the deficient anchor bolts posed. Both
Concealing Improper Bolt Installation                agencies determined that the consequences
on a $21 Million ARRA Idaho Bridge                   of not discovering and repairing the non-
                                                     confirming anchor bolts would have had a
Project                                              minimal impact on the structural integrity of the
Kip Harris, former lead superintendent for           bridge. Sletten has since made repairs to the
Sletten Construction, Granite Falls, MT, was         bridge to correct the deficiencies, which caused
indicted in U.S. District Court, Boise, ID. Harris   the project to be delayed for approximately
was charged with making false statements             1 week. Harris was suspended by FHWA
regarding the quality of work Sletten performed      in October 2011, and Sletten terminated
on the US 2 Dover Bridge project near Coeur          his employment with the company shortly
d’Alene, a $21.6 million project funded by           thereafter.
ARRA. According to the indictment, Harris
directed laborers under his supervision to           This investigation is being conducted jointly with
modify nonconforming anchor bolts so they            the FBI, with assistance from FHWA and ITD.
would appear to the inspection team hired by
the Idaho Transportation Department (ITD) to         Note: Indictments, Informations, and Criminal
conform to project plans.                            Complaints are only accusations by the
                                                     Government. All defendants are presumed
OIG began investigating this case after receiving    innocent unless and until proven guilty.
a referral from ITD and FHWA alleging the fraud.
OIG was advised that Harris misrepresented
the quality of workmanship regarding anchor
bolt installation on bridge bearings. After
determining the anchor bolts were not installed
in accordance with the contract specifications



                                 Highway and Transit Programs   •   34
September 20, 2012                                    vehicles were actually sold and exported out
                                                      of the country. Taylor was sentenced to 1 year
Investigating Household Goods Fraud                   probation and ordered to pay a $3,500 fine and
Testimony before the Senate Committee on              $25 special assessment.
Commerce, Science, and Transportation
                                                      This investigation was initiated based on the
The Principal Assistant Inspector General for         discovery of two vehicles by the California
Investigations testified on OIG’s investigative       Highway Patrol (CHP) at the Port of Oakland
work involving household goods transportation         that were identified as having been trade-ins
fraud and the criminal conduct OIG has                from the CARS program. OIG executed a
targeted through its investigations—conduct           search warrant at Taylor’s place of business in
that typically involves holding a customer’s          March 2011, and through the evidence obtained,
household goods hostage while demanding               determined that Taylor falsely represented to
significantly larger sums of money than               NHTSA and to car dealerships that he had
originally quoted. The Principal Assistant            destroyed the vehicles as he had been paid to
Inspector General also described OIG’s                do. Specifically, our investigation found that
national fraud project to proactively identify        Taylor sold the two cars and had plans to export
the most egregious consumer complaints                them out of the country by using the services
involving hostage loads, a project that focuses       of a freight-forwarder located in southern
on carriers and brokers that illicitly engage in      California. At the conclusion of the investigation,
hostage fraud schemes, and highlighted several        the two vehicles were crushed so as to render
options available to consumers who believe            them inoperable, a requirement under the CARS
they have been victimized by such schemes.            program.


September 25, 2012                                    This investigation was conducted jointly with
                                                      CHP, with assistance from NHTSA.
Northern California Man Sentenced in
Scheme to Defraud NHTSA’s “Cash
for Clunkers” Program
James Taylor, owner of Pinole-Rodeo Auto
Wreckers, Rodeo, CA, was sentenced in U.S.
District Court, Oakland, CA, for falsely certifying
that he had destroyed vehicles after receiving
payment from dealerships to dispose of
them in accordance with NHTSA’s Consumer
Assistance to Recycle and Save Act (CARS)
program. Taylor devised a scheme in which the


                                 Semiannual Report to Congress   •   35
September 27, 2012

Former Virginia Railway Express
Employee Charged With Accepting
Over $200,000 in Bribes
Kevin Wirth Jannell, of Fredericksburg, VA,
pleaded guilty in U.S. District Court, Alexandria,
VA, to accepting more than $200,000 in bribes
to ensure a Virginia Railway Express (VRE)
subcontractor would be retained by VRE.
The investigation revealed that from 2003
and continuing through March 2012, Jannell,
a former facilities manager for VRE, agreed
to take up to $4,000 each month in return
for giving favorable evaluations that would
ensure a company would be retained as a
subcontractor for VRE. Jannell concealed the
bribes by creating a nominee company and
sent monthly invoices to the subcontractor from
that company, falsely billing the company for
services that were never rendered.

This investigation was conducted jointly with
the FBI.




                                 Highway and Transit Programs   •   36
    In Focus: OIG Investigations Uncover Weaknesses in
         NHTSA’s Strategic Traffic Enforcement Program


During fiscal year 2012, NHTSA awarded $235            However, weaknesses in STEP implementation
million in grants to support State and local efforts   and oversight have been exploited by unethical
to reduce fatalities and serious injuries on public    police officers. In the past year, our investigations
roads. One such program—DOT’s Selective                identified four police departments that have
Traffic Enforcement Program (STEP)—supports            misused over $500,000 in STEP grant funds.
law enforcement saturation patrols to reduce           These investigations have resulted in criminal
speeding, drunk driving, red-light running, and        charges for over 25 police officers, who falsified
other traffic safety hazards. STEP is widely           traffic citations and other records to inflate their
known for its high-visibility traffic enforcement      overtime hours. Additionally, 27 police officers
campaigns, such as DOT’s “Click It or Ticket”          have been removed from their positions or
and “Over the Limit. Under Arrest” campaigns.          resigned while under investigation.
To receive STEP funding, law enforcement
agencies must meet the performance indicators          Our investigations have exposed fraud schemes
submitted in their STEP grant proposals to             used by police officers to inflate their overtime
NHTSA. One commonly used performance                   hours. Log sheet falsification was the most
indicator is the average number of tickets issued      prevalent fraud scheme. Investigators discovered
by State and local law enforcement. To help            the fraud scheme by comparing officers’ log
fund States’ STEP efforts, NHTSA provides              sheets with documents detailing their actual time
reimbursement grants to States for overtime pay        worked—such as dispatch logs, ticket records,
accrued by local police officers who conduct           and vehicle logs. To receive pay for hours not
intensive traffic safety enforcement.                  worked, some officers misreported the times

                                  Semiannual Report to Congress    •   37
 they worked, the number of tickets they wrote, or     We identified several management and oversight
 the times the tickets were written. Sometimes log     weaknesses that increased the risk of STEP
 sheets were falsified with the tacit approval of a    grant fraud.
 supervisor. At one department, officers reported
 that a supervisor openly approved log sheet           • Limited Communication: Communication
 falsification, as long as the officers wrote enough   among NHTSA, State transportation
 tickets to maintain the department’s STEP             agencies, and police departments primarily
 performance indicator.                                focused on STEP grant administrative
                                                       requirements, rather than focusing
 Our investigators also discovered ticket              on program oversight or stewardship.
 falsification fraud when they found no court          Oversight responsibilities were not clearly
 system records that corresponded with the             communicated to program oversight staff;
 officers’ tickets. At two departments, officers       some grant agreements did not outline daily
 falsified tickets to give the impression that the     oversight responsibilities.
 tickets had been issued during their overtime
 shift. In one case, an officer omitted times          • Inadequate Monitoring and Supervision:
 from tickets so that he could fill in times that      Officers and supervisors in police
 corresponded with his log sheet. Sometimes            departments with weaker STEP grant
 officers submitted tickets that had never been        programs treated grant-funded shifts the
 issued—using either false names, names of             same as their standard overtime or traffic
 passengers, or names of individuals pulled over       shifts. In police departments with the
 for unrelated matters.                                strongest grant programs, supervisory
                                                       officers adhered to grant oversight action
 Another common scheme we identified is the            plans. For example, some police departments
 misuse of administrative time—the time officers       required sergeants to work the same shifts
 spend completing paperwork, such as log               as officers working the grant, which provided
 sheets and ticket submission, which usually           on-site supervision. Other departments had
 takes place during the last hour of officers’         dedicated grant supervisors aware of their
 shifts. Our review found that officers sometimes      officers’ activities. It appears that officers
 claimed 1 to 2 hours of administrative time when      who knew that their managers were watching
 they had little or no paperwork to complete.          closely were less likely to commit fraud.




In Focus: OIG Investigations Uncover Weaknesses in NHTSA’s Strategic Traffic Enforcement Program   •    38
• Lack of Training: At police departments           program’s stringent policies and procedures,
with incidences of STEP grant fraud,                and communicated department goals.
supervisors and officers were not
given formal STEP training. In contrast,            In May 2012, we issued a memorandum to
departments with strong STEP grant                  NHTSA’s associate administrator responsible for
programs generally had strong training              STEP grants, which identified our investigative
programs, often required annually. STEP             findings to help NHTSA strengthen STEP grant
grant training at these police departments          management and oversight. We will continue to
emphasized the unique nature of the grant           proactively review STEP and other departmental
overtime program, explained officers’               programs to identify vulnerabilities and to ensure
responsibilities under the program,                 that departmental funds are properly spent.
stressedthat officers must observe the




                                Semiannual Report to Congress   •   39
Semiannual Report to Congress   •   40
      Rail and Maritime Programs and Economic Analysis




Audits                                             considerably by host railroad. Only slow orders
                                                   may have produced delays large enough
                                                   to exceed the delays caused by the largest
July 10, 2012                                      host effects. Other factors, such as capacity
                                                   utilization and activities at Amtrak crew change
Analysis of the Causes of Amtrak                   locations, contributed significantly to delays
Train Delays                                       systemwide, but considerably less than either
                                                   host effects or slow orders.
Self-initiated

Our analysis of the causes of Amtrak train         September 11, 2012
delays in fiscal years 2002 through 2007
determined that the chief causes of delays         Completing a Grants Management
systemwide were host effects and slow
orders. Host effects are delays associated with
                                                   Framework Can Enhance FRA’s
operating on the infrastructure of a particular    Administration of the HSIPR Program
railroad or group of railroads. In our analysis,   Self-initiated
slow orders are speed restrictions imposed by a
host railroad because of poor track conditions,    In the 3 years since it set up the High Speed
repairs, or infrastructure improvements. The       Intercity Passenger Rail Program (HSIPR),
delays contributed by host effects differed        the Federal Railroad Administration (FRA) has



                              Semiannual Report to Congress   •     41
awarded and obligated over 95 percent of the        Investigations
program’s $10.1 billion in grant funds—$8 billion
of which was appropriated by ARRA. HSIPR
gave FRA significant new grant-making and           July 3, 2012
oversight duties, presenting unique challenges
for the Agency. In an effort to meet ARRA           Saint Lawrence Seaway Development
timelines and other requirements, FRA obligated     Corporation Employee Pleads Guilty to
grant funds while simultaneously developing
its Grants Management Manual—which sets
                                                    Workers’ Compensation Fraud
forth the policies and procedures for HSIPR         Thomas Schneller, a millwright/welder
grants management. FRA has also determined          employed by the Saint Lawrence Seaway
that additional guidance on standard operating      Development Corporation (SLSDC), pleaded
procedures is needed to help ensure HSIPR           guilty to fraud regarding Federal worker’s
program staff and grantees comply with the          compensation benefits in U.S. District Court,
policies and procedures. While the Agency           Syracuse, NY. Schneller claimed an on-the-job
has take action develop this guidance, these        injury in February 2004, yet continued to work in
actions may not result in guidance that meets       his welding business—AKJ Marine, established
the grantees’ needs. Insufficient staffing          about a week after his purported injury—while
and training have further undermined FRA’s          receiving Federal workers’ compensation
efforts to effectively administer and ensure the    benefits. Schneller failed to disclose his outside
accountability of HSIPR grant funds across all      source of income on the annual Office of
its active programs. Finally, FRA lacks effective   Workers’ Compensation Program certification
mechanisms for assessing program and grantee        forms and remained in the program. As a result
performance. We made five recommendations           of his guilty plea, Schneller agreed to make
to FRA to improve HSIPR grant fund                  restitution to the U.S. Department of Labor in
administration and accountability. The Agency       the amount of $84,987.
concurred with all five recommendations
                                                    This investigation is being conducted jointly
                                                    with the U.S. Department of Labor, Office of
                                                    Inspector General.




                      Rail and Maritime Programs and Economic Analysis   •   42
                                    In Focus: Bringing Amtrak Up to Speed for
                                                             High Speed Rail

The Passenger Rail Investment and                                                     freight railroads have contended that capacity
Improvement Act of 2008 (PRIIA)1 and the                                              limitations contribute more heavily.
American Recovery and Reinvestment Act of
20092 together have provided over $10 billion                                         Our analysis found that the main causes of
to create and sustain a High Speed Intercity                                          delays have been slow orders and host effects.3
Passenger Rail program. A substantial portion                                         Slow orders are speed restrictions imposed by
of these funds is geared towards improving the                                        freight railroads—which own and operate the
speed and reliability of Amtrak services.                                             infrastructure that Amtrak almost exclusively
                                                                                      uses outside the Northeast Corridor—along
Amtrak train delays outside the Northeast                                             track segments in poor condition or undergoing
Corridor have been a long-standing concern,                                           repairs or improvement.4 Host effects capture
and we previously reported that they                                                  the delays associated with factors such as
substantially increased Amtrak’s need for                                             dispatching practices, management capability,
subsidies. Their cause, however, has been                                             and business model of the freight railroads. The
the subject of much debate. Amtrak has                                                magnitude of host effects differs widely across
consistently pointed to freight railroads’                                            freight railroads.
dispatching practices as having the greatest
impact on Amtrak train delays, while the

1
  P.L. No.110-432, Div. B.
2
  P.L. No. 111-5
3
  The focus here and in our analysis is on delay causes that can be affected by stakeholder actions, unlike, for example, weather.
4
  Slow orders can also be imposed because of adverse weather conditions. However, we analyzed weather effects separately,
  and our results on slow orders relate only to infrastructure issues.

                                                  Semiannual Report to Congress                        •    43
Our analysis also found four other factors that     freight railroads it determines cause substantial
contributed significantly to delays: capacity       delays on Amtrak routes.
utilization, a measure of capacity limitations
or congestion; Amtrak crew changes; Amtrak          Understanding the causes of delays is critical
trains operating well outside their scheduled       for stakeholders making and overseeing
time slots; and Amtrak mechanical problems.         investments in rail infrastructure involving
However, their contributions measured               public funds. Of key concern is the need to
considerably less than those of either host         differentiate those factors in passenger train
effects or slow orders.                             delays that may not require public capital
                                                    investment to address, such as host effects
Our analysis is proving useful to the Surface       and slow orders, from those that do. Making
Transportation Board (STB) as it takes up a         this distinction is critical to ensure funds are
PRIIA-mandated duty. Specifically, STB is           targeted to locations where capacity constraints
consulting with us about our methodology, as        are the primary cause of delays.
it assumes responsibility for levying fines on




                  In Focus: Bringing Amtrak Up to Speed for High Speed Rail   •   44
                             Financial and Information Technology



Audits                                            OMB Circular A-133. We found nothing to
                                                  indicate that Deloitte & Touche’s opinion on
                                                  Utah Transit’s reports on internal control and
April 9, 2012                                     compliance were inappropriate or unreliable.

Quality Control Review of Single Audit            April 17, 2012
on the Utah Transit Authority
Self-initiated                                    DOT Does Not Have an Effective
                                                  Enterprise Architecture Program
We conducted a quality control review on a
                                                  for Management of Information
single audit performed by Deloitte & Touche,
LLP, on the Utah Transit Authority’s use of DOT   Technology Changes
grants for the fiscal year ending December 31,    Self-initiated
2010. During this period, Utah Transit expended
approximately $215 million from DOT grant         With approximately $3 billion in annual expen-
programs. The major program tested by Deloitte    ditures and reliance on about 400 IT systems to
& Touche was the Federal Transit Cluster. We      conduct business and meet its missions, DOT
determined the work performed by Deloitte &       has one of the largest IT investments in the
Touche was acceptable and met the require-        Federal Government. Under the Clinger-Cohen
ments of generally accepted Government            Act, each Federal department must implement
auditing standards, the Single Audit Act, and     a management framework that ultimately


                              Semiannual Report to Congress   •    45
reduces its IT expenditures through investments      May 30, 2012
in projects with reasonable costs and solid
management of acquisition risks. This                The U.S. Merchant Marine Academy’s
framework—commonly referred to as an                 Security Controls Were Not Sufficient
	
enterprise architecture (EA)—describes a
department’s current state of IT operations (the     To Protect Sensitive Data From
baseline architecture) as well as the future state   Unauthorized Access
of these operations after the implementation         Self-initiated
of improvements (the target architecture).
The framework also includes a transition             In March 2011, we successfully penetrated
plan to move from the baseline to the target         the U.S. Merchant Marine Academy’s network
architecture. DOT has assigned authority for         security and were able to gain full access to
EA development to its components and has no          its LAN and sensitive information. Our test
plan to integrate the individual components’ EA      demonstrated that the Academy’s network
programs into a Departmentwide program. The          security controls were not sufficient to protect
components’ EA programs are incomplete, and          its data, including personally identifiable
policies and procedures are outdated at both         information, from hackers. Additional
the Department and component levels. Neither         information security weaknesses exist in the
the Department nor the components sufficiently       Academy’s LAN, Website, and databases
address IT security in their IT investment           because the Academy has not implemented
planning and management. Further, DOT does           information security programs to protect
not have procedures for EA assessment and,           information and information systems, as
consequently, cannot measure the status and          required by the Federal Information Security Act
progress of its components’ EAs. We made             and DOT policies. As a result, the Academy runs
eight recommendations to the Department for          the risk that intruders will gain unauthorized
EA improvements. DOT concurred with or met           access to the large amount of sensitive
the intent of our recommendations.                   information stored in its systems without
                                                     being detected. The Maritime Administration
                                                     (MARAD), the operating administration
                                                     responsible for the Academy, concurred with
                                                     our findings and nine recommendations.
                                                     MARAD’s corrective action plan is responsive to
                                                     our recommendations.




                             Financial and Information Technology     •   46
June 4, 2012                                       June 20, 2012

Quality Control Review on the                      Quality Control Review of Single Audit
Suburban Bus Division of the                       on partment of Transportation
Northeastern Illinois Regional                     Self-initiated

Transportation Authority’s Use                     We conducted a quality control review of
of DOT Grants                                      a single audit performed by Moss Adams
Self-initiated                                     LLP on the New Mexico Department of
                                                   Transportation’s use of DOT Transportation
We conducted a quality control review of a         grants for the fiscal year ending June 30, 2010.
single audit performed by Crowe Horwath,           During this period, New Mexico DOT expended
LLP, on Pace, the Suburban Bus Division of the     approximately $452 million from DOT grant
Regional Transportation Authority Northeastern     programs. The major programs tested by Moss
Illinois’ use of DOT grants for the fiscal year    Adams included (1) the Highway Planning and
ending December 31, 2010. During this period,      Construction Program, (2) the Federal Transit
Pace expended approximately $50 million            Cluster, (3) the Nonurbanized Area Formula
from DOT grant programs. The DOT program           Program, (4) the Highway Safety Cluster, and
determined to be major by Crowe Horwath was        (5) the Minimum Penalties for Repeat Offenders
the Federal Transit Cluster. We determined that    for Driving While Intoxicated Program. We
Crowe Horwath’s work was acceptable and,           determined that the audit work was acceptable
therefore, met the requirements of generally       with deficiencies and, therefore, generally
accepted Government auditing standards,            met the requirements of generally accepted
the Single Audit Act, and OMB Circular A-133.      Government auditing standards, the Single
We found nothing to indicate that Crowe            Audit Act, and OMB Circular A-133. We found
Horwath’s opinion on Pace’s reports on internal    nothing to indicate that Moss Adams’ reports
control and compliance were inappropriate or       on New Mexico DOT’s internal control and
unreliable.                                        compliance were inappropriate or unreliable.
                                                   However, we identified deficiencies in audit
                                                   documentation that Moss Adams needs to
                                                   correct in future audits.




                               Semiannual Report to Congress   •    47
September 12, 2012

Review of DOT’s Reporting of
Improper Payments Under Executive
Order 13520
Required by Executive Order 13520

Executive Order 13520 requires OIGs to
review their agency’s reports and provide
recommendations to agency heads for
improvements to their improper payment
corrective action plans. We reviewed DOT’s
High Dollar Improper Payments report for
the quarter ending December 31, 2011, for
accuracy and compliance with OMB Circular
A-123 Appendix C requirements. We did not
identify any additional high-dollar overpayments
that DOT should have reported for the quarter.
The report contained the required information,
except for (1) whether the improper payments
were made by individuals or entities and (2) the
actions taken to prevent improper payments in
the future. DOT included this information in its
fiscal year 2011 Agency Financial Report. We
are not making any recommendations at this
time.




                            Financial and Information Technology   •   48
                                                Acquisition and Procurement



In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range
of reports related to our aviation, highway and transit, rail and maritime, and information technology
work. Leveraging OIG’s acquisition expertise across all audit groups ensures consistent and thorough
reviews of acquisition matters throughout the Department and with its grantees. Our comprehensive
approach focuses on the strategic significance of promoting effective oversight of the Department’s
acquisitions, contracts, and financial assistance arrangements.



Audits                                                To ensure these funds are used wisely—as well
                                                      as improve contractor performance, curb fraud,
                                                      and promote accountability for results—States
April 5, 2012
                                                      are required to use fixed-price contracts and
                                                      competitive procedures to the maximum extent
Lessons Learned From ARRA: Improved                   possible. However, almost one-fifth of State
FHWA Oversight Can Enhance States’                    DOT ARRA contracts were awarded with one
Use of Federal-aid Funds                              or two bids—more often at prices exceeding
                                                      the engineer’s estimate than contracts with
Self-initiated
                                                      three bids. We determined that FHWA does
                                                      not require States to use contract award
ARRA added roughly $27 billion to FHWA’s
                                                      practices that promote increased competition
Federal-aid program for State highway
                                                      or have effective controls for monitoring State
construction and improvement projects.


                                Semiannual Report to Congress    •   49
award policies and procedures. We made             and achieve desired program outcomes. Due
five recommendations aimed at ensuring             to insufficient acquisition planning, FAA did
FHWA takes advantage of opportunities              not fully adopt best practices that would have
to foster competition and maximize use of          permitted more effective contract management
Federal-aid funds. FHWA concurred with four        when designing the ERAM contract structure.
recommendations and partially concurred with       In addition, ERAM’s delays pose significant
one.                                               risks to FAA’s plans to implement critical
                                                   NextGen initiatives because of complex
September 13, 2012                                 interdependencies between ERAM and other
                                                   key systems needed to advance NextGen.
Weaknesses in Program and Contract
                                                   We made 13 recommendations to improve
Management Contribute to ERAM                      ERAM’s contract structure and oversight and
Delays and Put Other NextGen                       reduce the associated risks to future NextGen
Initiatives at Risk                                related programs. FAA concurred with 12, and
                                                   partially concurred with 1.
Requested by the Chairman and Ranking
Member of the House Committee on
Appropriations, Subcommittee on
Transportation, Housing, and Urban
Development and Related Agencies

Since 2002, FAA has been developing the
$2.1 billion ERAM program to replace and
significantly enhance the existing hardware and
software at facilities that manage high-altitude
air traffic. ERAM is a foundational component
of FAA’s NextGen program and is critical to
meeting FAA’s goals for increasing airspace
capacity and reducing flight delays. However,
ERAM has experienced software problems that
impacted the system’s ability to safely manage
and separate aircraft. As a result of delays at
the key sites, FAA now projects that ERAM
will be almost 4 years behind schedule, with
an uncertain final completion date. ERAM’s
problems are also traceable to weaknesses
in its contract, which is not structured or
administered to effectively manage costs


                                Acquisition and Procurement   •   50
                                                       Departmentwide Issues



Audits                                             benefit or cost savings totaling over $1.9 billion.
                                                   To determine the three most significant open
                                                   recommendations, we assessed whether the
April 26, 2012                                     recommendation would lead to significant
                                                   safety improvements, financial benefits, or
Letter to Chairman Issa on OIG’s                   increased economy or efficiency of the program
Open Audit Recommendations                         audited. We selected one recommendation
                                                   from each of these reports: FAA and Industry
Requested by Representative Darrell Issa,
                                                   Are Taking Action To Address Pilot Fatigue,
Chairman of the House Committee on Oversight
                                                   but More Information on Pilot Commuting Is
and Government Reform
                                                   Needed; Assessment of FHWA Oversight of
                                                   the Highway Bridge Program and the National
As of April 16, 2012, we identified 536 open
                                                   Bridge Inspection Program; and Timely Actions
recommendations, which were included
                                                   Needed To Improve DOT’s Cybersecurity. Last,
in 193 audit reports. Of the 536 open
                                                   between April 7, 2011, and April 16, 2012, we
recommendations, 50 were included in 42
                                                   have closed 466 recommendations from 204
reports and carry an estimated monetary
                                                   audit reports.




                               Semiannual Report to Congress   •   51
May 15, 2012                                        August 24, 2012

Interim Response Letter to                          Letter to Chairman Issa Regarding
Congressmen Wolf and Latham                         Use of the Seven-Day Letter by
Regarding MWAA                                      the IG Community
Requested by Congressmen Frank R. Wolf              Requested by Representative Darrell Issa,
and Tom Latham                                      Chairman of the House Committee on Oversight
                                                    and Government Reform
The Metropolitan Washington Airports
Authority (MWAA) operates the federally owned       As of August 24, 2012, DOT-OIG has not issued
Washington Dulles International and Ronald          a 7-day letter to DOT or otherwise reported
Reagan Washington National airports; it is also     particularly serious or flagrant problems
responsible for designing, constructing, and        through the specific mechanism authorized in
partially financing the Dulles Corridor Metrorail   section 5(d) of the Inspector General Act since
Project. Although MWAA is a public body             January 1, 2009. We are also not aware of any
and its Board of Directors are Government           particularly serious or flagrant problems at
appointees, it is independent of the Federal        DOT that have not been reported to Congress
Government and not subject to Federal or            since January 1, 2009. We further explained our
State laws that govern ethics, transparency,        understanding of our reporting requirements
access to information, procurement, and other       and identified various additional measures
areas. As such, MWAA’s governance depends           through which we keep the Secretary and
on the strength of its internal codes, policies,    Congress fully and currently informed of our
and processes, and its adherence to them.           work.
However, our observations to date indicate
that weaknesses in MWAA’s policies and
procedures related to financial disclosures,
travel, and transparency have limited the
Board’s accountability to the public, Congress,
and stakeholders. MWAA’s contracting policies
and practices are also insufficient to ensure
compliance with provisions of the Washington
Metropolitan Airports Act of 1986 as well as
with its internal procurement procedures. Our
letter also includes a preliminary assessment of
MWAA’s Dulles Toll Road revenue assumptions,
which overall appear reasonable.




                                    Departmentwide Issues   •   52
                                                   Other Accomplishments




OIG’s other accomplishments and contributions are those that extend beyond the legal reporting
requirements of the Inspector General Act.



April 17, 2012                                     and Procurement Audits and Office of
                                                   Investigations also gave presentations
Presentations on OIG’s Acquisitions                that highlighted the effectiveness of OIG’s
Work                                               acquisitions work.

A Program Director from OIG’s Acquisition          April 18, 2012
and Procurement Audits Office, who also
co-chairs the Federal Audit Executive Council      Presentation on Contracting and Panel
Contracting Committee, organized the
                                                   Discussion on OIG’s Acquisition and
Council’s Annual Procurement Conference.
The conference featured speakers who               Procurement Audits, Investigations, and
presented on a variety of procurement topics,      Methodologies
including the Associate Administrator for
OMB’s Office of Federal Procurement Policy         A Program Director from OIG’s Acquisition
and representatives from other Federal             and Procurement Audits Office provided
OIGs. Staff from OIG’s Office of Acquisition       a presentation on “Smarter Contracting
                                                   Saves Taxpayer Dollars” at DOT’s First



                              Semiannual Report to Congress   •   53
Annual Spring Acquisition Conference. OIG            May 3, 2012
Acquisition and Procurement Audit staff
also participated in a panel discussion on           Presentation on OIG’s Investigative
the mission and role of the office, how their        Priorities as They Relate to FHWA
work impacts DOT acquisition professionals,
recent accomplishments, current reviews,             An Assistant Special Agent in Charge provided
and success stories that resulted from these         a presentation to the FHWA Director of Field
audits. The Office of Investigations highlighted     Operations, South, and her respective State
its procurement and DBE fraud teams’ ongoing         Division Administrators. The presentation
work, fraud prevention techniques, and grant         centered on communicating OIG’s investigative
and procurement fraud schemes. Additionally,         priorities as they relate to FHWA. Additional
OIG’s Senior Statistician highlighted the            highlights included trends and the types of
important work of statisticians in ensuring that     fraud schemes that our investigation offices
audits are methodologically sound.                   are currently investigating.


April 23, 2012                                       May 7, 2012

Presentation on New Aviation                         Presentation on FAA’s Fiscal Year 2013
Technologies in Tough Financial Times                Budget Request
The Deputy Assistant Inspector General               The Deputy Assistant Inspector General for
for Aviation and Special Programs spoke              Aviation and Special Programs spoke at the
at Aviation Week and Space Technology’s              Air Traffic Controller Association’s annual
NextGen Ahead Conference on “Moving                  conference on FAA’s Fiscal Year 2013 budget
Forward With New Technologies in Tough               request. The Deputy Assistant Inspector
Financial Times.” The Deputy Assistant               General focused on the importance of
Inspector General’s comments focused on              modernizing the National Airspace System
upgrading the existing air traffic infrastructure    to enhance safety, replace aging equipment,
(communication equipment and controller              and reduce delays at congested airports. In
automation systems) to incorporate new               looking at FAA’s $15.5 billion budget request,
satellite-based systems for improving the flow       the Agency will be challenged to (1) sustain the
of air travel. A key theme of the presentation       current system and transition new NextGen
was the need to address persistent problems          technologies; (2) define the timeframes, costs,
with FAA’s $2.1 billion effort to replace software   and benefits from major transformational
and hardware at the Nation’s facilities that         programs; and (3) address cyber security
manage high-altitude traffic. The conference         issues. The conference was attended by
was attended by leaders of U.S. and foreign          aircraft and avionics manufacturers, trade
aerospace firms as well as various Government        associations, and airlines.
agencies, including the Department of Defense.

                                   Other Accomplishments   •   54
May 15, 2012                                      and auditing to identify fraud in airport grant
                                                  programs. Conference attendees included
Presentation on OIG’s Interim Letter              members representing Federal, State and
Regarding Our Ongoing MWAA Audit                  Local government agencies.

The Inspector General, Deputy Inspector           June 6, 2012
General, and OIG Senior Executives briefed
stakeholders regarding our ongoing audit work     Briefing on OIG’s Office of
on the governance and management policies
                                                  Investigations
and processes of MWAA. The presentation
focused on our observations to date,              The Office of Investigation’s Chief of Complaint
which indicate that weaknesses in MWAA’s          Center Operations (Hotline) and a Desk
policies and procedures related to financial      Officer provided a briefing to the International
disclosures, travel, and transparency have        Road Federation conference on the roles and
limited MWAA’s accountability to the public,      responsibilities of the Office of Investigations.
Congress, and stakeholders. OIG officials also    The briefing was provided via Webinar.
highlighted insufficient contracting policies     Conference attendees included individuals
and practices, which are insufficient to ensure   from transportation departments in Saudi
compliance with provisions of the Washington      Arabia, Jamaica, and Bangladesh.
Metropolitan Airports Act of 1986 as well as
with its internal procurement procedures. We      June 7, 2012
also discussed our preliminary assessment of
Dulles Toll Road revenue estimates, suggesting    Presentation on OIG’s Efforts To
that the assumptions MWAA used to arrive at
the estimates are generally reasonable.
                                                  Ensure Accountability Across DOT
                                                  The Deputy Inspector General and the
May 31, 2012                                      Principal Assistant Inspector General
                                                  for Investigations provided a keynote
Fraud Awareness Briefing                          presentation, “Ensuring Accountability
                                                  Through Accountability,” at the Mid Atlantic
Two Assistant Special Agents in Charge and a
                                                  Intergovernmental Audit Forum. The
Program Manager from our Western regional
                                                  presentation focused on OIG’s audit and
offices presented a Fraud Awareness Briefing
                                                  investigative initiatives to ensure accountability
at the Olympia Chapter of the Association
                                                  across DOT’s operating administrations by
of Government Accountant’s annual fraud
                                                  ensuring accountability within OIG. Forum
conference. The presentation included
                                                  participants included Federal, State, and local
information on OIG’s fraud prevention efforts,
                                                  auditors from the Mid Atlantic chapter of the
use of computer forensics to identify fraud,
                                                  Intergovernmental Audit Forum.


                              Semiannual Report to Congress   •   55
June 26, 2012                                      FAA to be proactive in assessing risks to
                                                   current systems as well as new satellite-based
Presentation on OIG’s Efforts To                   systems for communications, navigation, and
Ensure Ethics in DOT Programs and                  surveillance that will form the cornerstone of
                                                   a new air traffic system. The conference was
Operations                                         attended by aerospace companies, trade
The Deputy Inspector General and a Special         associations, and various Federal agencies.
Agent from OIG’s New York, NY, Regional
Investigations Office spoke at the Illinois        July 16, 2012
Department of Transportation Ethics in the
Workplace Seminar—a conference organized           Presentation on Lessons Learned From
by OIG’s Chicago, IL, Regional Investigations      ARRA
Office. The presentation, “Ensuring Ethical
Behavior in Department of Transportation           The Assistant Inspector General for Highway
Programs and Operations,” focused on               and Transit Audits presented “Lessons Learned
OIG’s role in investigating and auditing           and Future Implications from the ARRA
ethics concerns in DOT programs as well as         Era” at the annual conference of the Audit
ensuring OIG employees comply with Federal         Subcommittee, American Association of State
ethics standards; the net effects of public        Highway and Transportation Officials. The
malfeasance; and the major components of           presentation focused on OIG’s broad range
ethical government.                                of ARRA audit and investigative work, paying
                                                   particular attention to reviews related to the $8
June 27, 2012                                      billion provided for local highway and bridge
                                                   projects and FHWA’s oversight of contracting
Presentation on Cyber Security and                 issues. Conference participants included State
                                                   auditors and program staff, as well as private
the U.S. Air Transportation System                 sector consultants.
The Deputy Assistant Inspector General for
Aviation and Special Programs spoke at the
Air Traffic Control Association’s conference on
emerging issues with cyber security and the air
transportation system. The Deputy Assistant
Inspector General emphasized the importance
of safeguarding the National Airspace System
from malicious cyber attacks. A key theme
for the discussion focused on the need for




                                  Other Accomplishments   •   56
August 1, 2012                                       participants included Federal, State, and local
                                                     auditors from the Southeastern chapter of the
Presentation on Recent OIG Work on                   Intergovernmental Audit Forum.
the Federal Contract Tower Program
                                                     September 17, 2012
The Assistant Inspector General for Aviation
and Special Programs spoke at the American           Presentation on OIG’s Rail Work
Association of Airport Executive’s Annual
“Contract Tower Program Workshop.” The               The Assistant Inspector General for Rail,
Assistant Inspector General’s comments               Maritime, and Economic Analysis spoke
focused on recent OIG audit work, including          at the Rail Transportation Annual Meeting,
a summary of a July 18, 2012, testimony              sponsored by the American Association of State
before the House Subcommittee on Aviation            Highway and Transportation Officials Standing
regarding FAA’s Contract Tower Program, which        Committee, on the role of the Inspector General
noted that while contract towers provide safe        as well as a discussed recently issued, in
and cost-efficient air traffic control services      process, and planned rail-related products.
and users strongly support them, some                Participants included State transportation
improvements are needed in the areas of              officials, Amtrak, freight railroad representatives,
voluntary self-reporting programs and recurring      and other interested parties from the private
evaluations. The conference was attended             sector.
by airport managers, officials from the firms
that provide contract tower services, and FAA        September 18, 2012
representatives.
                                                     Presentation on Closing the Business
September 13, 2012                                   Case for Several Major FAA NextGen
	
Presentation on OIG’s Efforts To                     Initiatives
Ensure Accountability Across DOT                     The Deputy Assistant Inspector General for
                                                     Aviation and Special Programs spoke at the
The Deputy Inspector General presented               Avionics for NextGen Conference on closing the
“Ensuring Accountability Through                     business case for several major FAA initiatives
Accountability” at the Southeastern                  that require joint investment by the Government
Intergovernmental Audit Forum. The                   and airspace users. The Deputy Assistant
presentation focused on OIG’s audit and              Inspector General highlighted the results of a
investigative initiatives to ensure accountability   recent OIG report on progress with developing
across DOT’s operating administrations by            near-term initiatives at metroplex locations—
ensuring accountability within OIG. Forum




                                 Semiannual Report to Congress   •   57
major cities with several busy airports, such as      September 20, 2012
New York. The key to closing the business case
for airspace users and realizing benefits of new      “Wanted Fugitives” Link Added to OIG
cockpit technologies—depends on addressing            Web Site
a number of barriers, including refining new
flight procedures, improving controller training,     OIG created a “Wanted Fugitives” link on its
and resolving policy issues about how to              Web site to elicit credible tips to locate and
handle diverse aircraft with different capabilities   bring to justice defendants charged with
in congested airspace. The conference was             transportation-related crimes and who have fled
attended by U.S. and foreign aerospace                the court’s jurisdiction.
companies and various U.S. Government
agencies.




                                    Other Accomplishments   •   58
                                         Work Planned and In Progress

This section describes OIG’s work planned or in progress for October 1, 2012, through March
31, 2013. The work focuses on the Department’s Strategic Plan and responds to requests by
Administration officials and Congress. We take into account the need to support DOT’s most critical
programs and to ensure that the Department’s resources are protected from fraud, waste, and
abuse.



AVIATION AND SPECIAL PROGRAMS
IN PROGRESS

FAA’s Controller Facility Training                 FAA Oversight of Aircraft Repair
Program                                            Stations
                                                   At the request of the former Chairman of the
FAA plans to hire and train nearly 11,000 new      House Transportation and Infrastructure’s
air traffic controllers through fiscal year 2020   Subcommittee on Aviation, OIG is assessing
to offset impending retirements. Training and      U.S. airlines’ use of aircraft repair stations.
certifying these large numbers of newly hired      The objectives of our audit are to (1) examine
controllers pose significant challenges for        changes FAA has made to its repair station
FAA. Over the past 2 years, average training       oversight, (2) assess the effectiveness of these
times for controllers assigned to terminal         changes in bolstering FAA’s oversight of both
facilities increased significantly, primarily      domestic and foreign repair stations, and (3)
due to the increased number of new hires           identify challenges to effective oversight that
who have no prior air traffic experience. In       FAA still needs to address.
addition, some facilities have experienced
high training attrition rates. For example, at     FAA’s Terminal Automation
New York Terminal Radar Approach Control,
77 percent of new controllers who completed
                                                   Modernization Program
facility training between fiscal years 2008 and    FAA plans to invest about $1 billion through
2010 did not successfully complete controller      2018 to modernize terminal automation
certification. Given these challenges, our audit   systems that controllers rely on to manage
objectives are to (1) identify steps FAA has       air traffic near airports. This effort is key to
taken to improve the facility training program     replacing aging equipment and achieving
for air traffic controllers and (2) assess the     FAA’s goals for NextGen. Our audit objectives
effectiveness of those steps in improving          are to determine whether FAA’s (1) acquisition
training times, staffing composition, and          strategy for terminal modernization effectively
training completion rates.                         addresses technological and operational



                                Semiannual Report to Congress   •   59
risks and (2) terminal modernization efforts are     review inspection data. Accordingly, our audit
compatible with key NextGen programs and             objectives are to (1) determine the status
schedules.                                           of FAA’s implementation of its new staffing
                                                     model, (2) evaluate the process FAA uses to
                                                     assess the number and level of experience of
FAA and Air Carrier Efforts To Enhance
                                                     inspectors and analysts assigned to each part
Safety in Response to the Colgan                     121 carrier, and (3) evaluate FAA’s use of other
Accident                                             surveillance processes to supplement the
                                                     inspections performed by assigned oversight
At the request of the Chairman and Ranking           offices.
Member of the House Committee on
Transportation and Infrastructure, we are
reviewing FAA and industry efforts to enhance        Challenges and Risks With Automatic
safety. Since the fatal crash of Colgan Air flight   Dependent Surveillance-Broadcast
3407 in February 2009, FAA, Congress, and air        (ADS-B) Implementation
carriers have recognized the need for safety
initiatives that address pilot fatigue, training,    At the request of the Chairman and Ranking
and professionalism. These initiatives, while        Minority Member of the House Appropriations
ongoing, were not completed during FAA’s Call        Committee on Appropriations, Subcommittee on
to Action on Airline Safety and Pilot Training       Transportation, Housing and Urban Development,
and subsequently became requirements                 and Related Agencies, and as required by the
under the Airline Safety and FAA Extension           FAA Modernization and Reform Act of 2012, we
Act of 2010. Accordingly, we are (1) examining       are conducting an annual review of ADS-B—a
FAA and industry progress in implementing            key NextGen component, which is expected
elements of the Airline Safety and FAA               to leverage satellite-based technology, aircraft
Extension Act of 2010 and (2) identifying any        avionics, and ground-based systems to provide
challenges to completing these actions.              information to pilots and air traffic controllers
                                                     on the position of aircraft in all phases of flight.
                                                     Our audit objective is to assess FAA’s progress
FAA’s Aviation Safety Inspector and                  with mitigating risks and addressing challenges
Analyst Staffing                                     associated with implementing ADS-B.

The Airline Safety and FAA Extension Act of
2010 directed OIG to review staffing levels
                                                     Aviation Safety Information Analysis
for FAA’s aviation safety inspectors and             and Sharing (ASIAS) System
operations research analysts. The 2009
                                                     The Airline Safety and FAA Extension Act of
Colgan crash raised concerns about the               2010 directed OIG to assess the feasibility of
experience and numbers of inspectors and             FAA establishing a comprehensive repository
analysts assigned to oversee air carriers and



                                 Work Planned and In Progress   •   60
containing data from multiple sources that is      Air Carrier Flight Delays, Cancellations,
accessible by aviation safety inspectors and
analysts. FAA’s ASIAS system contains data
                                                   and Associated Causes
from numerous safety databases, including          The FAA Modernization and Reform Act of 2012
the Aviation Safety Action Program and other       directed OIG to update its July 2000 report
voluntary safety reporting programs. In the
                                                   on Air Carrier Flight Delays and Cancellations.
past, access to such data has been limited.
                                                   As part of this effort, we are assessing FAA’s
Our audit objectives are to assess FAA’s (1)
                                                   and the Bureau of Transportation Statistics’
progress in implementing ASIAS, (2) process
                                                   progress in addressing our prior report
and plan for allowing system access at both
field and headquarters levels, and (3) use of      findings and recommendations. We are also (1)
ASIAS data to assist in commercial air carrier     comparing recent flight delay and cancellation
safety oversight.                                  trends with prior problem periods, (2) examining
                                                   air carrier scheduling practices and their
                                                   relative impact in causing flight delays and
Underlying Causes for Limited                      cancellations, and (3) assessing FAA’s use of
Progress With NextGen                              capacity benchmarks to help manage air traffic
                                                   at the Nation’s busiest airports.
Since the NextGen effort began in 2005,
OIG has repeatedly reported on cost and
schedule risks as well as operational and          FAA’s Efforts To Streamline Its Process
management challenges NextGen faces.               for Implementing New Performance-
These longstanding concerns prompted OIG
to identify the development and execution          Based Flight Procedures
of NextGen as one of the Department’s top
                                                   In 2009, RTCA Task Force 5—a joint FAA-
management challenges. During recent
hearings on NextGen, Congress has indicated        industry task force—completed an assessment
its growing concern with NextGen’s lack of         and identified near-term performance-based
progress. At the request of the Chairman and       flight procedure priorities for the 2012 to 2018
Ranking Members of the House Committee             timeframe. Key recommendations focus on
on Transportation and Infrastructure and its       developing high-value flight procedures that
Subcommittee on Aviation, we are (1) assessing     rely on equipment already onboard aircraft
FAA’s progress with meeting key milestones for     and resolving longstanding approval and
achieving NextGen capabilities, (2) examining      certification issues for new flight procedures. In
possible underlying causes for FAA’s limited       response to the Task Force’s recommendations,
progress with advancing NextGen overall, and       FAA performed a study (the NAV Lean Project)
(3) reviewing FAA’s recent reorganization and      that identified 21 needed improvements.
other efforts to improve the management and        However, these improvements could take as
execution of NextGen initiatives.                  long as 5 years to complete, and new flight
                                                   procedures are not yet yielding expected



                               Semiannual Report to Congress   •   61
benefits—raising congressional and industry           ensure the program is not misused. The FAA
concern. At the request of the Chairmen of            Modernization and Reform Act of 2012 included
the House Transportation and Infrastructure           a mandate that OIG examine FAA’s oversight
Committee and its Subcommittee on Aviation,           of VDRP. Accordingly, our audit objectives
we are assessing FAA’s progress in (1) providing      are to determine whether FAA (1) ensures
new high-value performance-based navigation           that air carrier disclosure reports meet FAA
procedures and (2) implementing improvements          requirements prior to acceptance into VDRP
recommended by the NAV Lean Project.                  and (2) evaluates the effectiveness of air carrier
                                                      corrective actions prior to closing the reports.
Air Traffic Controller Scheduling
Practices                                             Los Angeles International Airport
                                                      Revenue Use
The FAA Modernization and Reform Act of 2012
required OIG to review FAA’s air traffic controller   FAA regulations and Federal statutes require
scheduling practices, mandating that the review       that airport revenue be used for the airport’s
include an assessment of FAA’s process for            operating and capital costs. Using any airport-
determining controller schedules. Accordingly,        generated funds for non-airport purposes
our audit objectives are to (1) determine the         constitutes illegal revenue diversion and
impact that controller scheduling practices have      is grounds for FAA remediation—including
on safety and air traffic controller performance,     withholding of grants. Our office has received
(2) evaluate the cost effectiveness of controller     requests by several Members of Congress to
scheduling practices, and (3) assess air              review allegations of revenue diversion at Los
traffic control facilities’ compliance with FAA       Angeles International Airport. Accordingly, our
scheduling policies.                                  audit objective is to evaluate FAA’s oversight of
                                                      the airport’s revenue use.
FAA’s Oversight of the Voluntary
Disclosure Reporting Program                          PHMSA Oversight and Enforcement
                                                      of the State Pipeline Safety Program
In 2006, FAA established the Voluntary
Disclosure Reporting Program (VDRP), which            The September 2010 pipeline explosion in San
allows air carriers to voluntarily report adverse     Bruno, CA—which killed eight and destroyed
safety issues to the Agency in exchange for           37 homes—as well as other recent accidents
immunity from FAA enforcement actions.                called into question the effectiveness of
While this program provides an important              Federal and State oversight and enforcement
opportunity to identify and mitigate safety           of pipeline operators’ compliance with federally
issues that might not otherwise come to FAA’s         mandated safety requirements. Our objectives
attention, it also requires close monitoring to       are to assess PHMSA’s policies and processes



                                  Work Planned and In Progress   •   62
for (1) executing the State Pipeline Safety          challenges in meeting the UAS requirements of
Program and (2) verifying States execute their       the FAA Modernization and Reform Act of 2012.
pipeline safety oversight and enforcement
responsibilities.
                                                     DOT Oversight and Enforcement of
PLANNED
                                                     Selected Airline Passenger Protection
                                                     Rules
FAA’s Surface Surveillance Programs                  OIG’s work over the past decade has
for Runway Safety                                    consistently shown that strong oversight
                                                     of airline passenger protections is needed.
Preventing aircraft ground collisions and runway     We recommended several actions that DOT
incursions has been on NTSB’s “Most Wanted           has taken to strengthen the accountability,
Transportation Safety Improvements List” since       enforcement, and the protection afforded to air
1990. NTSB recommended that FAA require              travelers. We plan to assess the effectiveness
ground movement safety systems at airports to        of DOT’s oversight and enforcement of airline
prevent collisions and provide direct warnings       passenger protection requirements, including
to flight crews. In response, FAA designed           air carriers’ compliance with requirements
Airport Surface Detection Equipment-Model X          relating to (1) lengthy tarmac delays, (2) flight
(ASDE-X). We are assessing FAA’s progress in         delay information, (3) chronically delayed flights,
integrating ASDE-X with other runway safety          (4) customer service plans, and (5) consumer
technologies, such as Runway Status Lights           complaints.
and ADS-B to improve runway safety.
                                                     FAA Data Communications
FAA Policy Regarding Use of
                                                     DataComm, a NextGen transformational
Unmanned Aerial Systems (UAS)
                                                     program, is expected to provide digital
At the request of the Chairmen and Ranking           communications with data link capability
Members of the Senate Committee on                   for routine pilot-controller communications,
Commerce, Science, and Transportation and            including air traffic clearances, advisories, and
its Subcommittee on Aviation Operations,             flight crew requests and reports. Airspace
Safety, and Security, as well as the Chairmen        users have raised significant concerns about
and Ranking Members of the House                     DataComm’s development, and industry and
Transportation and Infrastructure Committee          FAA have not reached consensus on how to
and its Subcommittee on Aviation, we plan to         implement the technology. We plan to conduct
conduct an audit to assess FAA’s (1) efforts to      an audit to determine (1) whether FAA’s
mitigate safety risks for integrating UAS into the   acquisition strategy for DataComm addresses
National Airspace System and (2) progress and        the cost, schedule, and performance risks



                                 Semiannual Report to Congress   •   63
associated with FAA’s NextGen plans and              (1) controller productivity and factors that may
goals and (2) whether there are difficulties or      impact controller productivity and (2) whether
uncertainties in integrating new DataComm            FAA’s productivity and efficiency initiatives are
services with existing or planned automation         producing the desired outcomes.
platforms, such as the Standard Terminal
Automation Replacement System and ERAM.
                                                     DOT’s Transportation Employee Drug
                                                     and Alcohol Testing Program
Air Traffic Controller Productivity
                                                     The Transportation Employee Testing Act
Since 2000, air traffic operations have dropped      of 1991 requires drug and alcohol testing of
by 21 percent while controller staffing levels       safety-sensitive transportation employees
have remained essentially unchanged,                 in aviation, trucking, railroads, mass transit,
resulting in controller productivity dropping        pipelines, and other transportation industries.
by nearly 23 percent over this time frame.           For DOT this is roughly 12.1 million people of
FAA introduced several initiatives in its initial    which 3 million are contract workers. We plan
controller workforce plan that it stated would       to assess the effectiveness of DOT’s Office
improve operational productivity and encourage       of Drug and Alcohol Policy and Compliance
efficiency within the controller workforce.          oversight of operating administrations’
However, it is unclear whether these initiatives     implementation of their respective drug and
are achieving the promised efficiencies. We          alcohol testing programs.
plan to review operational data to determine




                                 Work Planned and In Progress   •   64
HIGHWAY AND TRANSIT PROGRAMS 

IN PROGRESS


FHWA’s Full Oversight of ARRA                       Dulles Corridor Metrorail Project,
Projects                                            Phase 2
OIG is conducting an audit of FHWA’s oversight      At the request of Representatives Frank R. Wolf
of ARRA projects for which FHWA has retained        and Tom Latham, OIG is conducting an audit of
full oversight—that is, project-level approval      phase 2 of the Dulles Corridor Metrorail Project
responsibilities for project design, plans,         in Northern Virginia. Our objectives are to (1)
specifications, estimates and contract awards,      evaluate FTA’s oversight role and determine
and inspections. These responsibilities are         whether its approach will address project risks
typically delegated to States in accordance         and (2) review the phase 2 financial plan and
with Stewardship and Oversight Agreements.          determine whether anticipated Dulles Toll Road
Our objectives are to (1) determine whether         revenue expectations are based on credible and
FHWA’s full oversight inspections detected          supportable toll road demands and forecasts.
instances of noncompliance with select Federal
requirements and (2) assess whether FHWA’s
                                                    NHTSA Oversight of Highway Safety
oversight guidance adequately defines full
oversight activities to ensure a comprehensive      Grants to the State of Mississippi
review of full oversight projects during
                                                    Over the past 4 years, NHTSA provided more
construction.
                                                    than $57 million in highway safety grants to
                                                    Mississippi’s State Office of Highway Safety
FHWA’s Highway Safety Improvement                   (MOHS); in 2011, NHTSA placed the State of
Program (HSIP)                                      Mississippi Highway Safety Program on its “high
                                                    risk” list. Accordingly, OIG is conducting an
                                                    audit of the Mississippi MOHS’s management
HSIP is a data-driven and performance-based
                                                    of highway safety grants. Our objectives are
program that aims to significantly reduce traffic
                                                    to (1) determine whether MOHS sufficiently
fatalities and serious injuries on public roads.
                                                    administered the highway safety grant program
OIG is assessing whether FHWA (1) provides
                                                    to ensure compliance with Federal grant
sufficient guidance and assistance to enable
                                                    requirements and (2) assess NHTSA’s oversight
States to effectively implement the data-driven,
                                                    of MOHS’s compliance with Federal grant
performance-based approach called for in
                                                    requirements.
HSIP’s enabling legislation and (2) evaluates
HSIP results, which States report to FHWA
annually, to determine the program’s impact.



                                Semiannual Report to Congress   •   65
Federal Lands Highways Indian                       New York City Major Projects: East
Reservation Roads (IRR) Program                     Side Access Project
FHWA’s IRR program provides financial               FTA has committed to investing almost $2.7
resources and technical assistance for public       billion in Federal funds for the East Side
roads that service the needs of Indian lands.       Access project, one of the largest and most
For fiscal years 2005 through 2011, the program     complex transit projects in the country. Though
received $3.17 billion, including $310 million      it is in construction, the East Side Access proj-
provided by ARRA. Our objectives are to assess      ect has experienced billions in cost increases
whether FHWA is (1) effectively coordinating        and years of schedule delays. Our objectives
with the Bureau of Indian Affairs to administer     are to evaluate whether FTA’s efforts have
and manage the IRR program and (2) providing        ensured that (1) the East Side Access project’s
adequate oversight of projects.                     current plans will mitigate cost, schedule, and
                                                    local funding risks and (2) ARRA funding and
                                                    oversight requirements were met.
FTA’s National Transit Database
(NTD)
                                                    Follow-up Audit on Cross-Border
NTD was established to be the Nation’s              Trucking
primary source of information and performance
statistics on U.S. transit systems. Congress,       OIG is conducting a follow–up audit on
Federal agencies, and transit industry              FMCSA’s implementation of NAFTA’s
stakeholders rely on NTD data to make sound         cross–border provisions. The Fiscal Year 2002
planning and investment decisions. FTA              Department of Transportation Appropriations
apportions over $6 billion annually in formula      Act and subsequent appropriations legislation
grants to nearly 2,000 urban and rural transit      through 2012 mandates us to review the safety
agencies based on NTD data. Our objectives          requirements related to Mexico–domiciled
are to evaluate FTA’s oversight of NTD data to      motor carrier operations. In accordance with
ensure that submissions from grant recipients       this legislation, our audit objectives are to
and beneficiaries of transit funds for the          determine whether FMCSA (1) continues to
Urbanized Area Formula Program are complete,        comply with the safety requirements set forth
accurate, and timely.                               in Section 350(c) and (2) has taken sufficient
                                                    action to implement our prior recommendations
                                                    for improving its capacity to perform bus
                                                    inspections at U.S.–Mexico border crossings.




                                Work Planned and In Progress   •   66
FHWA Oversight of Unexpended                           FHWA’s Efforts to Improve
ARRA Obligations                                       Operational Efficiency
ARRA established tight timeframes for the use of       FHWA’s 3,000 staff are decentralized across
over $27 billion invested in highway infrastructure    headquarters, 52 State division offices, and
projects. As of September 2012, approximately $1.6     other smaller field activities. As Federal and
billion, or 6 percent, of the ARRA funds that States   State funds available for overseeing FHWA
obligated to projects had not been expended.           programs decrease, FHWA needs to effectively
We initiated two related audits. The objectives of     manage its resources to meet current and future
the first audit are to (1) assess FHWA’s controls      risks with little to no duplication of efforts. We
for monitoring unexpended ARRA obligations             plan to (1) evaluate FHWA’s actions to improve
and (2) identify unexpended ARRA funds at risk         operational efficiency and (2) review selected
of not being expended before final deadlines.          FHWA operations and organizational structures
The objective of the second audit is to determine      to identify opportunities to increase efficiency.
whether FHWA’s policies, procedures, and
management activities result in the prompt and
                                                       Final Audit of the NAFTA Pilot
appropriate use or return of unexpended ARRA
funds.                                                 Program
                                                       OIG plans to conduct the final in a series
PLANNED                                                of three congressionally mandated audits
                                                       of FMCSA’s NAFTA cross-border trucking
DOT’s Efforts to Implement Moving                      pilot program. We will assess whether (1) the
Ahead for Progress in the 21st                         pilot program consists of an adequate and
Century Act (MAP-21) Project and                       representative sample of Mexico-domiciled
                                                       carriers that are likely to engage in cross-
Program Delivery Requirements                          border operations beyond U.S. municipalities
The new surface transportation authorization,          and commercial zones on the U.S.–Mexico
MAP-21, was enacted in July 2012 and included          border, (2) Federal and State monitoring and
program reforms designed to reduce project             enforcement activities are sufficient to ensure
delivery time and costs while protecting the           that pilot program participants comply with
environment, such as allowing for early right-of-      all applicable laws and regulations, and (3)
way acquisitions, encouraging early coordination       the Department has established sufficient
between relevant agencies to avoid delays later        mechanisms to determine whether the pilot
in the environmental impact review process, and        program is adversely affecting motor carrier
accelerating project delivery decisions within         safety.
specified deadlines. MAP-21 directs OIG to
assess the Department’s related efforts, within 2
years of enactment of MAP-21.


                                  Semiannual Report to Congress   •   67
Work Planned and In Progress   •   68
RAIL AND MARITIME PROGRAMS AND ECONOMIC ANALYSIS

IN PROGRESS

MARAD Oversight and Coordination                   Amtrak’s Financial Accounting and
of Port Infrastructure Development                 Reporting System
Projects                                           Section 203(b) of PRIIA mandates OIG to
Since 2003, MARAD has played a key role in         conduct an audit of the Amtrak Performance
overseeing and coordinating port infrastructure    Tracking (APT) system, Amtrak’s financial
development projects, acting as a central          accounting and reporting system. Accordingly,
procurement organization, leveraging Federal       we are assessing whether APT (1) allocates all
and non-Federal funding resources, and             of Amtrak’s revenues to each of its routes, lines
streamlining environmental review and permit       of business, and major activities; (2) assigns all
processes. OIG is assessing MARAD’s (1)            of Amtrak’s fully allocated costs to each of its
oversight and risk management of port              routes, lines of business, and major activities
infrastructure development projects and            in accordance with standard cost accounting
(2) oversight of port infrastructure projects’     practices; and (3) calculates all of Amtrak’s
contract awards and administration.                avoidable costs with respect each of its routes
                                                   using a sound methodology.

FRA’s Progress in Implementing the
Rail Safety Improvement Act of 2008                FRA’s National Environmental
                                                   Protection Act Process
In response to several fatal rail accidents
between 2002 and 2008, Congress passed the         The National Environmental Protection Act
Rail Safety Improvement Act of 2008 (RSIA)—        (NEPA) requires FRA, as a Federal agency,
the first authorization FRA’s safety programs      to assess the environmental impacts of its
since 1994—which directs FRA to promulgate         proposed actions prior to making decisions.
new safety regulations. OIG is assessing FRA’s     To increase transparency in FRA’s NEPA
progress in (1) developing and issuing the new     application process and review concerns raised
regulations and (2) establishing or modifying      by stakeholders, OIG is assessing FRA’s policies,
policies and procedures to ensure compliance       procedures, and guidance for coordinating with
with the new RSIA-required regulations.            FHWA and FTA and ensuring FRA staff and
                                                   grantees meet NEPA requirements.




                               Semiannual Report to Congress   •   69
PLANNED                                              Amtrak Annual Budget and 5-Year
                                                     Plan
Effects of Limited Air Service Options
on Quality of Service                                Pursuant to Section 204 of PRIIA, OIG plans
                                                     to review the annual budget and the 5-year
The FAA Modernization and Reform Act of 2012         financial plans prepared by Amtrak to determine
directs OIG to assess the effect that limited        whether they meet the requirements of PRIIA
air carrier service options on routes have on        and furnish any relevant findings to the House
the frequency of delays and cancellations on         Committee on Transportation and Infrastructure;
such routes. To meet this requirement, OIG           the Senate Committee on Commerce, Science,
is conducting an analysis of the relationship        and Transportation; and the House and Senate
between the presence or degree of competition        Committees on Appropriations.
on airline routes and the frequency of delays
and cancellations. To conduct this assessment,
we are developing econometric models of
                                                     FRA’s Progress in Implementing
delays and cancellations. These models will          the Provisions of the Passenger Rail
allow us to separate the effects of changes          Investment and Improvement Act of
or limits in competition on cancellations and        2008
delays from the effects of other factors, such as
weather and congestion.                              As required by Section 221 of PRIIA, OIG
                                                     plans to assess FRA’s implementation of the
                                                     provisions of this act. Our audit objectives
                                                     will be to (1) evaluate FRA’s progress in
                                                     implementing its PRIIA responsibilities
                                                     and (2) determine how the status of FRA’s
                                                     implementation of its PRIIA responsibilities
                                                     impacts the improvement and expansion of
                                                     intercity passenger rail.




                                 Work Planned and In Progress   •   70
FINANCIAL AND INFORMATION TECHNOLOGY

IN PROGRESS


Quality Control Review of Standards                  planning ensures FAA’s continued ability to
for Attestation Engagements (SSAE-                   accomplish its mission of aviation safety.

16) Review of DOT’s Enterprise
Services Center                                      DOT’s Common Operating
                                                     Environment Assessment
OIG is performing a quality control review
of the audit performed by an independent             The Common Operating Environment (COE),
public accounting firm to determine whether          DOT’s largest non-FAA network, supports the
(1) management’s description of the service          Department in fulfilling its missions. It also
organization’s systems are fairly presented; (2)     contains considerable amounts of personally
controls are suitably designed; and (3) controls     identifiable information. Accordingly, DOT needs
operate effectively during the period of October     to protect COE and the availability, integrity,
1, 2011, to June 30, 2012.                           and confidentiality of its information. OIG is
                                                     performing a review of COE to (1) determine
                                                     whether it is secure from compromise and (2)
DOT’s Information Security Program                   identify other security weaknesses.
and Practices for Fiscal Year 2012
As mandated by the Federal Information               FAA’s Air Traffic Control System
Security Management Act of 2002, OIG                 Command Center
is performing its annual review of DOT’s
information security program and practices to        Air Traffic Control System Command Center
determine their effectiveness.                       (ATCSCC) systems assist FAA in managing
                                                     air traffic flow, resolving inter-air traffic facility
                                                     issues, and addressing weather and other
Security Protection of Airmen Registry               conditions that stress the National Airspace
Systems                                              System. As such, it is critical that FAA protect
                                                     these systems and the availability and integrity
OIG is assessing FAA’s registry systems for
                                                     of its information. OIG is performing a review to
airmen certification, rating, and authorization
                                                     assess ATCSCC systems’ information security
to determine whether (1) personally identifiable
                                                     controls, including whether FAA is identifying
information is secure from unauthorized use or
                                                     security risks and properly mitigating them.
access, (2) information in the registry systems is
sufficient for managing aircraft registrations and
airmen’s records, and (3) registry contingency


                                Semiannual Report to Congress    •   71
Quality Control Review of DOT’s Fiscal               FTA’s Improper Payment Controls
Years 2012 and 2011 Consolidated                     The Improper Payments Information Act of
Financial Statements, and FAA’s,                     2002 holds Federal agencies accountable for
SLSDC’s, and NTSB’s Financial                        preventing and detecting improper payments
Statements                                           in their programs. More recent legislation has
                                                     implemented consequences for noncompliance
OIG is performing a quality control review of        with statutory requirements for the reduction and
the audits performed by independent public           recovery of improper payments. The Department
accounting firms to determine whether the audits     has identified FTA’s Formula Grant and Capital
were performed in accordance with applicable         Investment Grant Programs as susceptible to
auditing standards.                                  significant improper payments; 99 percent of
                                                     FTA’s ARRA funds were awarded through these
                                                     programs. We are assessing FTA’s internal
Quality Control Reviews of Single
                                                     controls to determine if they are adequate to
Audits on DOT Grantees                               prevent and detect improper payments to ARRA
                                                     grant recipients.
OIG is performing a quality control review of
the audits performed by independent public
accounting firms on grant recipients’ use of         Union Station Redevelopment
DOT funds.                                           Corporation
                                                     At the request of Representatives Nick J. Rahall
DOT’s Purchase Card Program
                                                     II and Eleanor Holmes Norton, OIG is performing
OIG is performing an audit of DOT’s purchase         an audit of the management and financial
card program. Issued via the General Services        viability of the Union Station Redevelopment
Administration’s SmartPay® program, these            Corporation (USRC). Our objectives are to (1)
cards offer a convenient and efficient way           conduct a quality control review of USRC’s
for Government agencies to purchase a wide           latest financial statement audit to determine
variety of goods and services. In fiscal year        if the audit was performed in accordance
2010, DOT employees made more than $200              with applicable standards and (2) assess the
million in purchases with purchase cards.            adequacy of USRC’s oversight of Union Station’s
Recent OIG investigations have identified internal   development.
control issues within the program that have led
to instances of fraud. We are assessing the
adequacy of controls established to prevent
and detect inappropriate or unauthorized use of
DOT-issued purchase cards.




                                Work Planned and In Progress    •   72
PLANNED                                             FAA’s Air Traffic Organization Network 

                                                    Assessment
Quality Control Review of Standards
for Attestation Engagements (SSAE-                  The FAA Air Traffic Organization (ATO) network
                                                    is critical in supporting FAA in fulfilling its
16) Review of DOT’s Enterprise                      mission to move air traffic safely and efficiently.
Services Center                                     This network is used to support the work
                                                    performed by 35,000 controllers, technicians,
OIG will perform a quality control review
                                                    engineers, and support personnel. Accordingly,
of the audit performed by an independent
                                                    FAA needs to protect the ATO network and
public accounting firm to determine whether
                                                    the availability, integrity, and confidentiality of
(1) management’s description of the service
                                                    its information. OIG will perform a review of
organization’s systems are fairly presented; (2)
                                                    the ATO network to (1) determine whether it is
controls are suitably designed; and (3) controls
                                                    secure from compromise and (2) identify other
operate effectively during the period of October
                                                    security weaknesses.
1, 2012, to June 30, 2013.


DOT’s Information Security Program                  DOT’s Travel Card Program
and Practices for Fiscal Year 2013                  OIG will perform an audit of DOT’s travel card
                                                    program. Issued via the General Services
As mandated by the Federal Information              Administration’s SmartPay® program, these
Security Management Act of 2002, OIG will           cards are used by DOT employees to pay for
perform its annual review of DOT’s information      travel expenses related to official government
security program and practices to determine         travel. In fiscal year 2011, DOT employees
their effectiveness.                                made 1.2 million payments or charges totaling
                                                    $172 million on their travel cards. A prior DOT
DOT’s Privacy Management Program                    audit on the use of travel cards identified
                                                    instances of employees abusing their travel
As mandated by the Appropriations Act               cards by charging personal purchases,
of 2008, Section 742, OIG will perform a            withdrawing cash in excess of their needs, and
periodic review of DOT’s privacy management         not paying their bills on time. We will assess
program to determine whether DOT (1) has an         DOT’s internal controls to determine their
effective privacy management program and            effectiveness in preventing and detecting travel
(2) adequately protects personally identifiable     charge misuse.
information.




                                Semiannual Report to Congress   •   73
DOT Drug Control Reporting                          investments, and (4) methodology for analyzing
                                                    and using EVM data to assess and monitor
OIG will perform a review of the reasonableness     contract performance.
of the Fiscal Year 2012 NHTSA and FAA Drug
Control Funds Summary Reports submitted to
the Office of National Drug Control Policy.
                                                    Review of DOT’s Reducing Over-
                                                    Classification Program
Quality Control Review of DOT’s Fiscal              On October 7, 2010, the President signed
Years 2013 and 2012 Consolidated                    legislation to decrease over-classification
Financial Statements, and FAA’s,                    and promote information sharing across the
                                                    Federal Government and with State, local,
SLSDC’s, and NTSB’s Financial                       tribal, and private sector entities.The act also
Statements                                          directs Federal Inspectors General to assess
                                                    the effectiveness of agency classification
OIG will perform a quality control review of
                                                    policies. We plan to (1) assess whether
the audits performed by independent public
                                                    applicable classification policies, procedures,
accounting firms to determine whether the
                                                    rules, and regulations have been effectively
audits were performed in accordance with
                                                    administered within DOT; (2) identify policies,
applicable auditing standards.
                                                    procedures, rules, regulations, or management
                                                    practices that may be contributing to persistent
Earned Value Management                             misclassification of material within DOT; and (3)
                                                    evaluate DOT’s classification training program.
OIG and GAO have previously reviewed
DOT’s use of earned value management
(EVM)—a tool to plan, execute, and control IT
project costs and schedule—and have made
recommendations to implement EVM. However,
there has been limited follow-up to determine
the status of DOT’s EVM implementation and
assess its guidelines’ compliance with EVM
legislation, policy, and standards. We plan to
assess DOT’s (1) management and monitoring
of IT investments against their approved
performance measurement baselines; (2)
controls to ensure the IT Investment Manager
performs EVM as an integral part of standard
investment management operations, (3)
performance measurement baselines for IT



                                Work Planned and In Progress   •   74
ACQUISITION AND PROCUREMENT
In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with other
OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range of reports
related to our aviation, highway and transit, rail and maritime, and information technology work. Leveraging
OIG’s acquisition expertise across all audit groups ensures consistent and thorough reviews of acquisition
matters throughout the Department and with its grantees. Our comprehensive approach focuses on the
strategic significance of promoting effective oversight of the Department’s acquisitions, contracts, and
financial assistance arrangements.

IN PROGRESS
DOT’s Administration of the                              intended to provide up to 10 years of controller
Disadvantaged Business Enterprise                        training support and to assist in modernizing the
                                                         training program. In September 2010, we reported
Program                                                  that the ATCOTS contract faces challenges. Our
DOT’s DBE program distributes approximately              audit objectives are to determine whether FAA (1)
$3 billion annually to increase the participation        implemented our prior reported recommendations
of socially and economically disadvantaged               to improve program and contract oversight, (2)
firms in State and local contract awards. OIG is         established effective performance measures to
reviewing DOT’s management and oversight of              support ATCOTS training goals, and (3) can achieve
its DBE program. Specifically, we are assessing          ATCOTS training goals under the current contract.
DOT and State policies, internal controls, and
program management to determine whether                  Departmental Governance Processes
they are adequate to ensure only eligible firms          for Major IT Acquisitions
are certified as DBEs and funds are effectively
used to meet the program’s objectives.                   DOT’s Investment Review Board (IRB) and FAA’s
                                                         Joint Resources Council (JRC) are executive
Update on FAA’s Challenges for the                       governance boards responsible for approving
                                                         and overseeing the annual investment of billions
Air Traffic Controller Optimum Training 
                of dollars in major systems acquisitions. Within
Solution (ATCOTS) Contract                               DOT, FAA manages most of the Department’s
                                                         major IT investments; in fiscal year 2012, FAA is
At the request of the Chairman of the Senate
                                                         expected to spend approximately $2 billion (94
Homeland Security and Governmental Affairs
                                                         percent) of DOT’s estimated $2.2 billion major IT
Committee’s Subcommittee on Contracting
                                                         investment portfolio. We are assessing DOT’s and
Oversight, OIG is conducting a follow-up audit of
                                                         FAA’s compliance with IRB and JRC investment
FAA’s ATCOTS contract, an $859-million contract
                                                         controls and governance processes, and whether



                                  Semiannual Report to Congress     •   75
these processes are structured to effectively                 tion requires that Federal Inspectors General
oversee FAA’s major program acquisitions.                     review their agencies’ use of these contracts for
                                                              compliance with Federal acquisition regulations.
                                                              Accordingly, we are assessing DOT’s compliance
DOT’s Administration of Cost-
                                                              with the Federal acquisition regulations revisions
Reimbursable Contracts                                        resulting from Section 864(a) of the Duncan
                                                              Hunter National Defense Authorization Act, which
In fiscal year 2010, DOT obligated $1.7 billion
                                                              addresses the proper use and management of
for new cost-reimbursable contracts. However,
                                                              cost-reimbursement contracts.
this contract type carries a significant risk of
overspending because it shifts cost risk from the
contractor to the Government. Recent legisla-


Office of Acquisition and Procurement Joint Audits in Progress
	
              In Progress                    Partner Office                             Objective
MARAD’s Oversight and Coordination    Rail and Maritime Programs Evaluate MARAD’s oversight of port infrastructure
of Port Infrastructure Development    and Economic Analysis         projects’ contract awards and administration
Projects



PLANNED                                                       Contract Audit Support Services
DOT’s Contract Closeout Processes                             The FAR requires annual post-award reviews of
                                                              contractors’ incurred costs to establish annual
Effective contract closeout processes protect the             rates for cost-reimbursable contracts. Since
Government’s interests, minimize administrative               fiscal year 2009, Defense Contract Audit Agency
costs for the Government and the contractor,                  (DCAA) pre-award audits obtained by DOT
and free excess funds for possible use                        agencies—other than FAA—have decreased by
elsewhere. In fiscal year 2011, DOT obligated                 more than 70 percent. Between fiscal years 2008
approximately $5.7 billion on contracts for goods             and 2011, the number of DCAA’s incurred cost
and services—a significant pool of contracts that             audits of DOT’s cost-reimbursable contracts
may require careful contract closeout. We plan                also declined, from 140 to less than 20. We
to assess DOT’s contract closeout processes to                plan to conduct an audit to determine whether
determine whether DOT’s Office of the Secretary               DOT and its operating administrations obtain
and DOT’s operating administrations are closing               contract audit services according to acquisition
contracts efficiently and effectively, including de-          regulations and guidance, and perform sufficient
obligating excess funds on completed contracts.               alternate procedures when audit services are not
                                                              obtained.




                                     Work Planned and In Progress       •   76
FTA Oversight of Grantees’ Contract                   against such firms continues, Congress directed
Award and Administration Practices                    OIG to identify significant obstacles for new
                                                      airport DBE entrants, including those owned
FTA has awarded billions of dollars for transit       by veterans. We will also identify any steps
projects involving the construction and               that large and medium hub airports have taken
renovation of transit facilities and preventative     to facilitate participation by newly certified
maintenance. We plan to conduct an audit to           DBE firms, and the significant reasons for any
determine whether FTA’s oversight of transit          differences between the two.
agencies’ construction and renovation grants is
sufficient to ensure (1) that grantees’ contract      Volpe Center’s Use of Interagency
award and administration practices comply with
laws, regulations, policies, and procedures and
                                                      Agreements (IAA) to Fulfill DOT
(2) that grantees achieve the cost, schedule,         Projects
and performance goals of their infrastructure
                                                      DOT’s Volpe Center provides analytical,
investments.
                                                      scientific, and engineering project support
                                                      to DOT, other Federal agencies, and non-
Participation in FAA’s Airport                        Federal agencies. Rather than receive direct
Disadvantaged Business Enterprise                     appropriations from Congress, Volpe projects
Program                                               are funded through fees-for-service, which
                                                      entails recovering costs through IAAs with
Under FAA’s DBE program, an airport                   its customers. For fiscal year 2012, Volpe
receiving Federal grants must establish an            requested $250 million in budget authority to
annual aspirational goal that reflects what           support customers’ projects using a workforce
DBE participation would be in the absence of          of approximately 500 Federal employees. We
discrimination. In achieving its goal, an airport     plan to assess Volpe’s IAA process for ensuring
seeks to award contracts—procurement,                 recently completed projects meet cost, schedule,
construction, professional services, or               and technical requirements, as well as Volpe’s
concessions—to women and minority-owned               project and financial controls for ensuring timely
small businesses. However, based on                   reimbursement of excess funds.
congressional concerns that discrimination




                                  Semiannual Report to Congress   •   77
DOT’s Use of Management Support                     reimbursable pricing methods. Such contracts
Services Contracts                                  are also more complex to manage and oversee,
                                                    which poses challenges to DOT’s acquisition
The Office of Management and Budget’s               workforce and its contracting officer technical
procurement reforms focus on improving              representatives who work first-hand to monitor
agencies’ planning and use of management            contractor performance. We plan to conduct an
support services contracts. DOT relies heavily on   audit to determine whether DOT (1) structures
support services contracts to meet its mission      management support service contracts
needs. However, DOT frequently obtains these        with clear requirements to reduce risks and
services using contract vehicles that pose cost     maximize competition and (2) maintains
risks to DOT, such as time-and-materials or cost-   effective processes to oversee such contracts.




                                Work Planned and In Progress   •   78
                                          Statistical Performance Data


Summary of Performance
Office of Inspector General
April 1 – September 30, 2012
(Dollars in Thousands)

Reports Issued                                                      105
Recommendations Issued                                              355
Congressional Testimonies                                                5
Total Financial Recommendations                                $349,212
 That Funds Be Better Used                                     $336,000
 Questioned Costs                                               $13,212
Indictments                                                          59
Convictions                                                          62




                               Semiannual Report to Congress    •   79
Statistical Performance Data   •   80
Audits
Completed OIG Reports
	
April 1 – September 30, 2012
(Dollars in Thousands) *


                                Number of      Number of       Questioned   Unsupported     Funds To Be
         Type of Review          Reports    Recommendations      Costs         Costs      Put to Better Use


Internal Audits
Performance Audits                 18             124               $0          $0          $336,000
Financial Audits                   0               0                $0          $0              $0
Attestation Engagements            0               0                $0          $0              $0
Other OIG Reports                  0               0                $0          $0              $0
Total Internal Audit Reports       18             124               $0          $0          $336,000
Grant Audits
Audits of Grantees under
Single Audit Act                   87             231          $13,212          $0              $0
Total Completed OIG Reports       105             355          $13,212          $0          $336,000


*The dollars shown are the amounts reported to management. The actual amounts may change
during final resolution.


Department of Transportation programs and operations are primarily carried out by Department
personnel and recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General
generally fall into three categories: internal audits of departmental programs and operations, audits
of grant recipients, and other OIG reports.




                               Semiannual Report to Congress    •    81
OIG Reports With Recommendations That Questioned Costs
	
April 1 – September 30, 2012
(Dollars in Thousands)

                                        Number of         Number of            Questioned   Unsupported
                                         Reports       Recommendations           Costs         Costsa


A.	 For which no management                  5                  6               $1,222          $0
    decision had been made
    by the start of the reporting
    period


B.	 Which were issued during                19                 28               $13,212         $0
    the reporting period


      Totals (A+B)	                         24                 34               $14,434         $0


C.	 For which a management                  18	                27               $10,768         $0
    decision was made during
    the reporting period


      (i) dollar value of disallowed        15	                24               $10,687         $0
      costsb


      (ii) dollar value of costs not         3	                 3                $106           $0
      disallowedb


D.	 For which no management                  6	                 7               $3,666          $0
    decision had been made
    by the end of the reporting
    period

a
    Unsupported costs are also included in the figures shown as questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




                                       Statistical Performance Data   •   82
OIG Reports With Recommendations That Funds Be Put To Better Use
	
April 1 – September 30, 2012
(Dollars in Thousands)

                                      Number of        Number of
                                       Reports      Recommendations          Funds to Be Put To Better Use


A.	 For which no management                1                1                           $426
    decision had been made
    by the start of the reporting
    period


B.	 Which were issued during               2                2                         $336,000
    the reporting period


      Totals (A+B)                         3                3                         $336,426


C.    For which a management               2                2                         $336,000
      decision was made during
      the reporting period


      (i) dollar value of                  1                1                         $157,000
      recommendations that were
      agreed to by managementa


      (ii) dollar value of                 1                1                         $179,000
      recommendations that
      were not agreed to by
      managementa


D.    For which no management              1                1                           $426
      decision had been made
      by the end of the reporting
      period

a
    Includes reports and recommendations where costs were both allowed and disallowed.




                                    Semiannual Report to Congress   •   83
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
	
April 1 – September 30, 2012

                                                                                Number of
                                                        Number of Reports    Recommendations


A.	 For which no management decision had been                    40               104

    made by the start of the reporting period



B.	 Which were issued during the reporting period                92               325




      Totals: (A+B)	                                             132              429



C.	 For which a management decision was made                     112              335

    during the reporting perioda



D.	 For which no management decision had been                    38                94

    made by the end of the reporting perioda


a
    Includes reports where management both made and did not make a decision on recommendations.




                                  Statistical Performance Data   •     84

Management Decisions Regarding OIG Recommendations
	
April 1 – September 30, 2012
(Dollars in Thousands)

                               Number of      Number of        Questioned   Unsupported     Funds To Be
                                Reports    Recommendations       Costs        Costs a     Put to Better Use
Unresolved as of of 4/1/2012      43            111             $1,222          $0             $426


Audits with Findings During       93            355            $13,212          $0          $336,000
Current Period


Total to be Resolved             136            466            $14,434          $0          $336,426
Management Decisions:
Audits Prior Period b             29             69              $709           $0              $0
Audits Current Period b           86            295            $10,059          $0          $336,000


Total Resolved                   115            364            $10,768          $0          $336,000
Aging of Unresolved Audits c
Less than 6 months old            21             60             $3,153          $0              $0
6 months – 1 year                 8              16              $20            $0              $0
1 year – 18 months                6              12              $493           $0             $426
18 months – 2 years               3              8                   $0         $0              $0
Over 2 years old                  2              6                   $0         $0              $0


Unresolved as of 09/30/2012       40            102             $3,666          $0             $426
a
  Unsupported costs are also included in the figures shown as questioned costs.
	
b
  Includes reports and recommendations where costs were both allowed and disallowed.

c
  Considered unresolved if management decisions have not been made on all report recommendations.





                               Semiannual Report to Congress     •    85
Office of Inspector General Reports
	
April 1 – September 30, 2012

DEPARTMENTWIDE

Internal Audits: Performance – 1 report

    Report        Date                Title                        Focus of Report/ Recommendations

FI-2012-086   04/17/2012   DOT Does Not Have         DOT does not have a departmentwide Enterprise Architecture
                           an Effective Enterprise   (EA) plan, having delegated authority to its components. The
                           Architecture Program      components’ EA programs are incomplete and outdated.
                           for Management of         Neither the Department nor the components sufficiently
                           Information Technology    address IT security in their IT investment planning and man-
                           Changes                   agement. Furthermore, DOT does not have procedures for EA
                                                     assessment, and consequently, cannot measure the status
                                                     and progress of its components’ EAs.



Grant Audits: Audits of Grantee Under Single Audit Act – 4 reports


    Report        Date                Title                        Focus of Report/ Recommendations

QC-2012-149   07/17/2012   State of Ohio             The State Auditor’s work, as it related to DOT’s major pro-
                                                     gram, was Acceptable. The audit work met the requirements
                                                     of the Single Audit Act, OMB Circular A-133, and the Federal
                                                     Highway Planning and Construction Cluster. OIG found
                                                     nothing to indicate the State Auditor’s opinion on DOT’s major
                                                     program was inappropriate or unreliable.
QC-2012-150   07/17/2012   State of Florida          The Auditor General’s work, as it related to DOT’s major
                                                     programs, was Acceptable. The audit work met the require-
                                                     ments of the Single Audit Act, OMB Circular A-133, and
                                                     DOT’s major programs. OIG found nothing to indicate that the
                                                     Auditor General’s opinions on DOT’s major programs were
                                                     inappropriate or unreliable.




                                  Statistical Performance Data        •   86
QC-2012-153   07/25/2012    State of Mississippi        The State Auditor’s work, as it related to DOT’s major pro-
                                                        gram, was Acceptable. The audit work met the requirements
                                                        of the Single Audit Act, OMB Circular A-133 and DOT’s major
                                                        program. OIG found nothing to indicate the State Auditor’s
                                                        opinion on the DOT major program was inappropriate or
                                                        unreliable.
QC-2012-154   07/25/2012    State of Delaware           KPMG, LLP’s work, as it related to DOT’s major programs,
                                                        was Acceptable. The audit work met the requirements of
                                                        the Single Audit Act, OMB Circular A-133 and DOT’s major
                                                        programs. OIG found nothing to indicate KPMG’s opinions on
                                                        DOT’s major programs were inappropriate or unreliable.



FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance – 6 reports

    Report       Date                   Title                          Focus of Report/ Recommendations

AV-2012-094   04/23/2012   Status of Transformational    FAA has not established total program costs, schedules, or
                           Programs and Risks To         performance baselines for any of the six NextGen transfor-
                           Achieving NextGen Goals       mational programs, which limits visibility into the total costs
                                                         and timelines required to achieve benefits.
AV-2012-151   07/17/2012   Success of FAA’s Long-        Successful implementation of FAA’s plans will depend
                           Term Plan for Air Traffic     on addressing key challenges—such as aligning ongoing
                           Facility Realignments and     construction projects, making critical technical decisions,
                           Consolidations Depends on coordinating with NextGen offices, finalizing cost estimates,
                           Addressing Key Technical,     and addressing the impacts of consolidations on the work-
                           Financial, and Workforce      force and affected communities.
                           Challenges
AV-2012-152   07/19/2012   Long-Term Success             Although FAA completed ATSAP implementation at all air
                           of ATSAP Will Require         traffic control facilities in 2010, the Agency will need to
                           Improvements in Oversight make significant improvements before ATSAP will be able
                           Accountability and Trans-     to effectively identify and address the root causes of safety
                           parency                       risks. In addition, FAA’s oversight of ATSAP lacks effective
                                                         program management controls.




                                  Semiannual Report to Congress            •   87
AV-2012-167   08/01/2012   Challenges With               FAA efforts are delayed in key areas, including its critical
                           Implementing Near-Term        metroplex initiation. FAA has not yet resolved many of the
                           NextGen Capabilities at       barriers that will impede implementing task force recom-
                           Congested Airports Could      mendations.
                           Delay Benefits

AV-2012-170   08/22/2012   FAA Has Not Effectively       FAA coordinates with the U.S. Department of Agriculture
                           Implemented Its Wildlife      Wildlife Services, its main partner in wildlife hazard
                           Hazard Mitigation Program mitigation, but its efforts to coordinate with other relevant
                                                         Government agencies are limited and infrequent.


AV-2012-179   09/13/2012   Weaknesses in Program         While FAA has made strides towards improving its program
                           and Contract Management and contract management for ERAM, considerable risk
                           Contribute to ERAM Delays remains as FAA implements ERAM at some of the Nation’s
                           and Put Other NextGen         busiest facilities. Put $157 million to better use.
                           Initiatives at Risk



Grant Audits: Audits of Grantee Under Single Audit Act – 13 reports



   Report        Date                 Title                          Focus of Report/ Recommendations

SA-2012-098   04/23/2012   State of Georgia (also     Findings concerning the use of the American Recovery and
                           listed under Federal       Reinvestment Act funds were identified.OIG recommends FAA,
                           Highway Administration FHWA, and FTA improve grantee oversight.
                           and Federal Transit
                           Administration)
SA-2012-110   05/03/2012   City of Albuquerque, NM Findings concerning the use of the American Recovery and
                           (also listed under Federal Reinvestment Act funds were identified. OIG recommends FAA
                           Highway Administration) and FHWA improve grantee oversight.
SA-2012-117   05/10/2012   State of Minnesota (also Findings concerning the use of the American Recovery and
                           listed under Federal       Reinvestment Act funds were identified. OIG recommends FAA
                           Highway Administration) and FHWA improve grantee oversight. $7,627,000 questioned.
SA-2012-130   05/16/2012   Sioux Falls Regional       Findings concerning the use of the American Recovery and
                           Airport Authority, SD      Reinvestment Act funds were identified. OIG recommends FAA
                                                      improve grantee oversight. $20,658 questioned.




                                     Statistical Performance Data        •   88
SA-2012-134   05/29/2012   Port Authority of New       Findings concerning the use of the American Recovery and
                           York and New Jersey         Reinvestment Act funds were identified. OIG recommends FAA
                           (also listed under Federal and FHWA improve grantee oversight.
                           Highway Administration)
SA-2012-135   05/29/2012   McComb-Pike County          A finding concerning the use of the American Recovery and
                           Airport Board, MO           Reinvestment Act funds was identified. OIG recommends FAA
                                                       improve grantee oversight.
SA-2012-137   05/29/2012   Town of Dexter, ME          A finding concerning the use of the American Recovery and
                                                       Reinvestment Act funds was identified. OIG recommends FAA
                                                       improve grantee oversight.

SA-2012-146   06/19/2012   Wyoming Department          OIG recommends FAA and NHTSA improve grantee oversight.

                           of Transportation (also
                           listed under the National
                           Highway Traffic Safety
                           Administration)
SA-2012-156   07/30/2012   Federated States of         OIG recommends FAA improve grantee oversight. $33,580 

                           Micronesia National         questioned.

                           Government
SA-2012-171   08/30/2012   State of Illinois (also     Findings concerning the use of the American Recovery and 

                           listed under Federal        Reinvestment Act funds were identified. OIG recommends FAA,
                           Highway Administration FHWA, and FRA improve grantee oversight.

                           and Federal Railroad
                           Administration)
SA-2012-172   08/30/2012
 City of Mount Ida, AR        OIG recommends FAA improve grantee oversight.

                                                       $131,000 questioned.

SA-2012-173   08/30/2012
 Republic of Palau            OIG recommends FAA improve grantee oversight.

                           National Government         $270,327 questioned.

SA-2012-185   09/17/2012
 Territory of American        Findings concerning the use of the American Recovery and 

                           Samoa Government            Reinvestment Act funds were identified. OIG recommends FAA
                           (also listed under Federal and FHWA improve grantee oversight. $1,890,766 questioned.
                           Highway Administration)




                                   Semiannual Report to Congress           •   89
FEDERAL HIGHWAY ADMINISTRATION

Internal Audits: Performance – 1 report

   Report        Date                  Title                          Focus of Report/ Recommendations

ZA-2012-084   04/05/2012   Lessons Learned From          One-fifth of State DOT ARRA contracts were awarded with
                           ARRA: Improved FHWA           one or two bids, and FHWA does not require States to use
                           Oversight Can Enhance         contract award practices that promote increased competition
                           States’ Use of Federal-aid    or have effective controls for monitoring State award policies
                           Funds                         and procedures. Put $179 million to better use.



Grant Audits: Audits of Grantee Under Single Audit Act – 47 reports

    Report        Date                 Title                                    Focus of Report/
                                                                               Recommendations
SA-2012-088   04/23/2012 Wyoming Department              Findings concerning the use of the American Recovery and
                           of Transportation (also       Reinvestment Act funds were identified. OIG recommends
                           listed under Federal Transit FHWA, NHTSA, and FTA improve grantee oversight.
                           Administration and National
                           Highway Traffic Safety
                           Administration)
SA-2012-091   04/23/2012 State of Nebraska               A finding concerning the use of the American Recovery and
                                                         Reinvestment Act funds was identified. OIG recommends
                                                         FHWA improve grantee oversight.
SA-2012-092   04/23/2012 State of Ohio                   A finding concerning the use of the American Recovery and
                                                         Reinvestment Act funds was identified. OIG recommends
                                                         FHWA improve grantee oversight.
SA-2012-093   04/23/2012 Salt River Pima-Maricopa        A finding concerning the use of the American Recovery and
                           Indian Community, AZ          Reinvestment Act funds was identified. OIG recommends
                                                         FHWA improve grantee oversight.

SA-2012-096   04/23/2012 State of Texas (also            Findings concerning the use of the American Recovery and 

                           listed under Federal Transit Reinvestment Act funds were identified. OIG recommends
                           Administration)               FHWA and FTA improve grantee oversight. $42,655 questioned.


SA-2012-097    04/23/2012 State of Colorado              A finding concerning the use of the American Recovery and
                                                         Reinvestment Act funds was identified. OIG recommends
                                                         FHWA improve grantee oversight.



                                    Statistical Performance Data        •    90
SA-2012-098   04/23/2012 State of Georgia (also           Findings concerning the use of the American Recovery and
                           listed under Federal Aviation Reinvestment Act funds were identified. OIG recommends
                           Administration and Federal     FAA, FHWA, and FTA improve grantee oversight.
                           Transit Administration)
SA-2012-099   04/23/2012 State of Wisconsin               A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-100   04/23/2012 State of Florida                 Findings concerning the use of the American Recovery and 

                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-103   05/02/2012 State of Tennessee (also         Findings concerning the use of the American Recovery and

                           listed under Federal Transit   Reinvestment Act funds were identified. OIG recommends
                           Administration)                FHWA and FTA improve grantee oversight. $30,408 questioned.
SA-2012-104   05/02/2012 State of Rhode Island and        Findings concerning the use of the American Recovery and
                           Providence Plantations         Reinvestment Act funds were identified. OIG recommends FHWA
                           (also listed under Federal     and FTA improve grantee oversight. $1,118,335 questioned.
                           Transit Administration)
SA-2012-107   05/02/2012 State of New Hampshire           Findings concerning the use of the American Recovery and
                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-108   05/02/2012 State of West Virginia           Findings concerning the use of the American Recovery and 

                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FTA improve grantee oversight.

SA-2012-109   05/03/2012 Commonwealth of                  Findings concerning the use of the American Recovery and 

                           Pennsylvania                   Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-110   05/03/2012 City of Albuquerque, NM          Findings concerning the use of the American Recovery and 

                           (also listed under Federal     Reinvestment Act funds were identified. OIG recommends
                           Aviation Administration)       FAA and FHWA improve grantee oversight.

SA-2012-111   05/03/2012 State of New Jersey              Findings concerning the use of the American Recovery and
                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-113   05/03/2012 State of Nevada                  Findings concerning the use of the American Recovery and 

                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.




                                  Semiannual Report to Congress            •   91
SA-2012-114   05/03/2012 Commonwealth of              Findings concerning the use of the American Recovery and
                          Kentucky (also listed under Reinvestment Act funds were identified. OIG recommends
                          Office of the Secretary)    OST improve grantee oversight.

SA-2012-115   05/03/2012 State of Maryland            Findings concerning the use of the American Recovery and
                                                      Reinvestment Act funds were identified. OIG recommends
                                                      FHWA improve grantee oversight. $41,471 questioned.

SA-2012-116   05/03/2012 State of Oklahoma (also      Findings concerning the use of the American Recovery and
                          listed under Federal Transit Reinvestment Act funds were identified. OIG recommends
                          Administration)             FHWA and FTA improve grantee oversight.

SA-2012-117   05/10/2012 State of Minnesota (also     Findings concerning the use of the American Recovery and
                          listed under Federal        Reinvestment Act funds were identified. OIG recommends FAA
                          Aviation Administration)    and FHWA improve grantee oversight. $7,627,000 questioned.


SA-2012-119   05/10/2012 State of Maine               Findings concerning the use of the American Recovery and
                                                      Reinvestment Act funds were identified. OIG recommends
                                                      FHWA improve grantee oversight.

SA-2012-120   05/10/2012 State of California          A finding concerning the use of the American Recovery and
                                                      Reinvestment Act funds was identified. OIG recommends
                                                      FHWA improve grantee oversight.

SA-2012-121   05/10/2012 State of Montana (also       Findings concerning the use of the American Recovery and Re-
                          listed under Federal Transit investment Act funds were identified. OIG recommends FHWA
                          Administration)             and FTA improve grantee oversight. $350,000 questioned

SA-2012-122   05/10/2012 State of Connecticut (also   Findings concerning the use of the American Recovery and
                          listed under Federal Transit Reinvestment Act funds were identified. OIG recommends
                          Administration)             FHWA and FTA improve grantee oversight.

SA-2012-123   05/10/2012 City of Stamford, CT (also   Findings concerning the use of the American Recovery and
                          listed under Federal Transit Reinvestment Act funds were identified. OIG recommends
                          Administration)             FHWA and FTA improve grantee oversight.


SA-2012-125   05/10/2012 State of Louisiana           Findings concerning the use of the American Recovery and 

                                                      Reinvestment Act funds were identified. OIG recommends
                                                      FHWA improve grantee oversight.




                                   Statistical Performance Data     •   92
SA-2012-126   05/10/2012 State of Delaware (also         Findings concerning the use of the American Recovery and
                          listed under Federal Transit Reinvestment Act funds were identified. OIG recommends
                          Administration)                FHWA and FTA improve grantee oversight.

SA-2012-127   05/16/2012 Commonwealth of the             Findings concerning the use of the American Recovery and
                          Northern Mariana Islands,      Reinvestment Act funds were identified. OIG recommends
                          HI (also listed under          FHWA and FMCSA improve grantee oversight. $701,460
                          Federal Motor Carrier          questioned.
                          Safety Administration)
SA-2012-134   05/29/2012 Port Authority of New York Findings concerning the use of the American Recovery and
                          and New Jersey (also listed Reinvestment Act funds were identified. OIG recommends
                          under Federal Aviation         FAA and FHWA improve grantee oversight.
                          Administration)
SA-2012-143   06/19/2012 State of Arizona                Findings concerning the use of the American Recovery and
                                                         Reinvestment Act funds were identified. OIG recommends
                                                         FHWA improve grantee oversight. $24,603 questioned.

SA-2012-145   06/19/2012 Pueblo of Pojoaque, NM          Findings concerning the use of the American Recovery and
                                                         Reinvestment Act funds were identified. OIG recommends
                                                         FHWA improve grantee oversight.

QC-2012-147   06/20/2012 Quality Control Review          Moss Adams LLP rendered an unqualified opinion on DOT’s
                          of Single Audit on the         major programs, but made recommendations to correct
                          New Mexico Department          internal control and compliance deficiencies that directly
                          of Transportation (also        affect FHWA, FTA, and NHTSA programs.
                          listed under Federal Transit
                          Administration and National
                          Highway Traffic Safety
                          Administration)
SA-2012-157   07/30/2012 Metropolitan Council of the OIG recommends FHWA and FTA improve grantee oversight.
                          Twin Cities, Minnesota (also
                          listed under Federal Transit
                          Administration)
SA-2012-161   07/30/2012 Government of the District Findings concerning the use of the American Recovery and
                          of Columbia                    Reinvestment Act funds were identified. OIG recommends
                                                         FHWA improve grantee oversight.




                                 Semiannual Report to Congress            •    93
SA-2012-162   07/30/2012 Eastern Band of Cherokee A finding concerning the use of the American Recovery and
                            Indians, NC                   Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-163   07/30/2012 Mescalero Apache Tribe,          Findings concerning the use of the American Recovery and
                            NM                            Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-164   07/30/2012 St. Croix Chippewa               A finding concerning the use of the American Recovery and
                            Indians, WI                   Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-165   07/30/2012 City of Whittier, AR             A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-171   08/30/2012 State of Illinois (also listed   Findings concerning the use of the American Recovery and
                            under Federal Aviation        Reinvestment Act funds were identified. OIG recommends
                            Administration and Federal FAA, FHWA, and FRA improve grantee oversight.
                            Railroad Administration)
SA-2012-174   08/30/2012 Native Village of South          Findings concerning the use of the American Recovery and
                            Naknek, AK                    Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-175   08/30/2012 Assiniboine and Sioux            A finding concerning the use of the American Recovery and
                            Tribes of the Fort Peck       Reinvestment Act funds was identified. OIG recommends
                            Indian Reservation            FHWA improve grantee oversight.

SA-2012-181   09/17/2012 Hydaburg Cooperative             A finding concerning the use of the American Recovery and
                            Association, AK               Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.

SA-2012-182   09/17/2012 Town of Gloucester, NJ           A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight. $13,144 questioned.

SA-2012-183   09/17/2012 Confederated Tribes of           A finding concerning the use of the American Recovery and
                            Warm Springs, Reservation Reinvestment Act funds was identified. OIG recommends
                            of Oregon (also listed        FHWA and FTA improve grantee oversight.
                            under Federal Transit
                            Administration)



                                     Statistical Performance Data       •   94
SA-2012-185   09/17/2012 Territory of American           Findings concerning the use of the American Recovery and
                           Samoa Government              Reinvestment Act funds were identified. OIG recommends
                           (also listed under Federal    FAA and FHWA improve grantee oversight.
                           Aviation Administration)
QC-2012-186   09/17/2012 Quality Control Review on       KPMG, LLP rendered an unqualified opinion on DOT’s major
                           the Metropolitan Transit      programs, but made recommendations to correct internal
                           Authority of Harris County, control and compliance deficiencies that directly affect FTA
                           TX (also listed under         programs.
                           Federal Transit Administra-
                           tion)


FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

Internal Audits: Performance – 2 reports

   Report         Date                   Title                                    Focus of Report/
                                                                                 Recommendations
MH-2012-087 04/17/2012       Timely and Targeted            FMCSA could improve its vetting process to detect
                             FMCSA Action Is Needed         reincarnated carriers; while FMCSA took action on rules
                             To Fully Address National      NTSB recommended to improve passenger carrier
                             Transportation Safety Board oversight, it has yet to implement those rules. FMCSA has
                             Recommendations for            not implemented NTSB's recommendations on enhancing
                             Improving Passenger Carrier Federal Motor Vehicle Safety Standards compliance.
                             Oversight
MH-2012-169   08/16/2012     Increased Participation        FMCSA’s oversight mechanisms did not ensure full
                             and Improved Oversight         compliance with pilot program requirements; and at
                             Mechanisms Would Benefit       the time of OIG’s review, it was still developing certain
                             the NAFTA Pilot Program        monitoring mechanisms. The current low participation
                                                            rate does not allow us to make reliable statistical
                                                            projections regarding safety attributes of program
                                                            participants.




                                   Semiannual Report to Congress            •   95
Grant Audits: Audits of Grantee Under Single Audit Act – 1 report


   Report          Date                       Title                                   Focus of Report/
                                                                                     Recommendations
SA-2012-127   05/16/2012    Commonwealth of the Northern             Findings concerning the use of the American
                            Mariana Islands, HI (also listed under   Recovery and Reinvestment Act funds were
                            Federal Highway Administration)          identified. OIG recommends FHWA and
                                                                     FMCSA improve grantee oversight. $701,460
                                                                     questioned.



FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance – 2 reports

   Report          Date                       Title                                   Focus of Report/
                                                                                     Recommendations
CR-2012-148   07/10/2012	   Analysis of the Causes of Amtrak Train The chief causes of systemwide delays were (1)
                            Delays                                   host effects, delays associated with operating
                                                                     on the infrastructure of a particular railroad or
                                                                     group of railroads, and (2) slow orders, speed
                                                                     restrictions imposed by a host railroad because
                                                                     of poor track conditions, repairs, or infrastruc-
                                                                     ture improvements.
CR-2012-178   09/11/2012	   Completing a Grants Management           FRA lacks effective mechanisms for assessing
                            Framework Can Enhance FRA’s              program and grantee performance. While
                            Administration of the HSIPR Program      FRA has outlined HSIPR goals in several
                                                                     documents, the goals are inconsistent across
                                                                     these documents, and the goals’ performance
                                                                     measures are not specific enough to determine
                                                                     overall program progress.




                                     Statistical Performance Data      •   96
Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports


                                                                                    Focus of Report/
   Report         Date                     Title
                                                                                   Recommendations
SA-2012-095   04/23/2012	 National Railroad Passenger        Findings concerning the use of the American Recovery
                           Corporation (Amtrak), District of and Reinvestment Act funds were identified. OIG
                           Columbia                          recommends FRA improve grantee oversight. $53,121
                                                             questioned.

SA-2012-105   05/02/2012	 State of Vermont                   Findings concerning the use of the American Recovery 

                                                             and Reinvestment Act funds were identified. OIG recom-
                                                             mends FRA improve grantee oversight.

SA-2012-171   08/30/2012	 State of Illinois (also listed under Findings concerning the use of the American Recovery 

                           Federal Aviation Administration and Reinvestment Act funds were identified. OIG recom-
                           and Federal Highway Adminis-      mends FAA, FHWA, and FRA improve grantee oversight.

                           tration)



FEDERAL TRANSIT ADMINISTRATION

Internal Audits: Performance –3 reports

   Report          Date                    Title                                   Focus of Report/
                                                                                  Recommendations
MH-2012-132 05/17/2012        FTA Can Improve Procedures FTA improved procedures for overseeing the
                              To Ensure More Effective       implementation of the charter service regulation,
                              Implementation of the          including procedures for responding to stakeholder
                              Charter Service Regulation     concerns and for notifying private charter operators of
                                                             potential business opportunities. However, inaccuracies
                                                             in FTA data and misinterpretations of the regulation’s
                                                             requirements still exist.
MH-2012-155 07/26/2012        Actions Needed To Improve      While FTA implemented an oversight process to ensure
                              FTA’s Oversight of the Dulles that MWAA tested the 30-year-old pier foundations, the
                              Corridor Metrorail Project’s   testing process has not yet provided assurance that the
                              Phase 1                        structures will meet the 50-year service life specified in
                                                             FTA guidance. In addition, as of February 2012, FTA had
                                                             not taken sufficient mitigation actions to address key
                                                             project issues that put the schedule, cost estimate, and
                                                             funding from the 2009 Full Funding Grant Agreement at
                                                             risk.


                                      Semiannual Report to Congress         •   97
MH-2012-168 08/02/2012     Improvements Needed           FTA Headquarters does not provide its regions or
                           in FTA’s Grant Oversight      contractors with adequate guidance or oversight to
                           Program                       ensure they consistently identify and track grantee
                                                         deficiencies. FTA Region III has not effectively followed on
                                                         grantee deficiencies.


Grant Audits: Audits of Grantee Under Single Audit Act – 36 reports


   Report         Date                 Title                                     Focus of Report/
                                                                                Recommendations
QC-2012-085   04/09/2012   Quality Control Review of     Deloitte & Touche, LLP rendered an unqualified opinion on
                           Single Audit on the Utah      Utah Transit reports on internal control and did not identify
                           Transit Authority             any internal control or compliance deficiencies that directly
                                                         affected the Federal Transit Cluster.

SA-2012-088   04/23/2012   Wyoming Department of         Findings concerning the use of the American Recovery 

                           Transportation (also listed   and Reinvestment Act funds were identified. OIG
                           under Federal Highway         recommends FTA, FHWA, and NHTSA improve grantee
                           Administration and National oversight.
                           Highway Traffic Safety
                           Administration)
SA-2012-089   04/23/2012   Ann Arbor Transportation      A finding concerning the use of the American Recovery
                           Authority, MI                 and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.
SA-2012-090   04/23/2012   Metropolitan Atlanta Rapid    A finding concerning the use of the American Recovery
                           Transit Authority, GA         and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.
SA-2012-096   04/23/2012   State of Texas (also listed   Findings concerning the use of the American Recovery
                           under Federal Highway         and Reinvestment Act funds were identified. OIG recom-
                           Administration)               mends FTA and FHWA and improve grantee oversight.
                                                         $42,655 questioned.
SA-2012-098   04/23/2012   State of Georgia (also listed Findings concerning the use of the American Recovery
                           under Federal Aviation        and Reinvestment Act funds were identified. OIG recom-
                           Administration and Federal mends FTA, FAA, and FHWA improve grantee oversight.
                           Highway Administration)
SA-2012-101   05/02/2012   State of Washington           A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. $768,778
                                                         questioned.



                                  Statistical Performance Data         •   98
SA-2012-102   05/02/2012   Capital Metropolitan         Findings concerning the use of the American Recovery and
                           Transportation Authority, TX Reinvestment Act funds were identified. OIG recommends
                                                        FTA improve grantee oversight. $54,307 questioned.
SA-2012-103   05/02/2012   State of Tennessee (also     Findings concerning the use of the American Recovery
                           listed under Federal         and Reinvestment Act funds were identified. OIG recom-
                           Highway Administration)      mends FTA and FHWA improve grantee oversight. $30,408
                                                        questioned.
SA-2012-104   05/02/2012   State of Rhode Island and    Findings concerning the use of the American Recovery
                           Providence Plantations       and Reinvestment Act funds were identified. OIG
                           (also listed under Federal   recommends FTA and FHWA improve grantee oversight. 

                           Highway Administration)      $1,118,335 questioned.

SA-2012-106   05/02/2012   County of Placer, CA         Findings concerning the use of the American Recovery 

                                                        and Reinvestment Act funds were identified. OIG recom-
                                                        mends FTA improve grantee oversight.

SA-2012-112   05/03/2012   Puerto Rico Metropolitan     Findings concerning the use of the American Recovery 

                           Bus Authority                and Reinvestment Act funds were identified. OIG recom-
                                                        mends FTA improve grantee oversight.

SA-2012-116   05/03/2012   State of Oklahoma (also      Findings concerning the use of the American Recovery 

                           listed under Federal         and Reinvestment Act funds were identified. OIG recom-
                           Highway Administration)      mends FTA and FHWA improve grantee oversight.

SA-2012-121   05/10/2012   State of Montana (also       Findings concerning the use of the American Recovery 

                           listed under Federal         and Reinvestment Act funds were identified. OIG
                           Highway Administration)      recommends FTA and FHWA improve grantee oversight.
                                                        $350,000 questioned.
SA-2012-122   05/10/2012   State of Connecticut         Findings concerning the use of the American Recovery
                           (also listed under Federal   and Reinvestment Act funds were identified. OIG recom-
                           Highway Administration)      mends FTA and FHWA improve grantee oversight.
SA-2012-123   05/10/2012   City of Stamford, CT         Findings concerning the use of the American Recovery
                           (also listed under Federal   and Reinvestment Act funds were identified. OIG recom-
                           Highway Administration)      mends FTA and FHWA improve grantee oversight.
SA-2012-124   05/10/2012   City of Detroit, MI          Findings concerning the use of the American Recovery
                                                        and Reinvestment Act funds were identified. OIG recom-
                                                        mends FTA improve grantee oversight.
SA-2012-126   05/10/2012   State of Delaware (also      Findings concerning the use of the American Recovery
                           listed under Federal         and Reinvestment Act funds were identified. OIG recom-
                           Highway Administration)      mends FTA and FHWA improve grantee oversight.




                               Semiannual Report to Congress          •   99
SA-2012-128   05/16/2012    City of Manteca, CA           Findings concerning the use of the American Recovery
                                                          and Reinvestment Act funds were identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-129   05/16/2012    City of Santa Monica, CA      A finding concerning the use of the American Recovery
                                                          and Reinvestment Act funds was identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-131   05/16/2012    Metropolitan Transit          A finding concerning the use of the American Recovery
                            Authority of Harris County,   and Reinvestment Act funds was identified. OIG
                            TX                            recommends FTA improve grantee oversight. $28,154
                                                          questioned.
SA-2012-133   05/29/2012    Toledo Area Regional Transit A finding concerning the use of the American Recovery
                            Authority, OH                 and Reinvestment Act funds was identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-136   05/29/2012    Yuma Metropolitan Planning A finding concerning the use of the American Recovery
                            Organization, AZ              and Reinvestment Act funds was identified. OIG recom-
                                                          mends FTA improve grantee oversight.
QC-2012-139   06/04/2012    Quality Control Review        Crowe Horwath LLP rendered an unqualified opinion on
                            of Single Audit on Pace,      Pace’s financial statements and did not question any
                            Suburban Bus Division of      cost concerning DOT’s grant programs. However, Crowe
                            the Regional Transportation Horwath LLP rendered a qualified opinion on DOT’s major
                            Authority, Chicago, IL        program because of non-compliance with Davis-Bacon 

                                                          Act requirements.

SA-2012-141   06/19/2012    San Joaquin Regional Rail     Findings concerning the use of the American Recovery 

                            Commission, CA                and Reinvestment Act funds were identified. OIG recom-
                                                          mends FTA improve grantee oversight.

SA-2012-142   06/19/2012    Los Angeles County            A finding concerning the use of the American Recovery
                            Metropolitan Transportation and Reinvestment Act funds was identified. OIG recom-
                            Authority, CA                 mends FTA improve grantee oversight.
SA-2012-144   06/19/2012
   Utah Transit Authority        OIG recommends FTA improve grantee oversight.
QC-2012-147   06/20/2012
   Quality Control Review of     Moss Adams LLP rendered an unqualified opinion on
                            Single Audit on the New       DOT’s major programs, but made recommendations to
                            Mexico Department of          correct internal control and compliance deficiencies that
                            Transportation (also listed   directly affect FTA, FHWA, and NHTSA programs.
                            under Federal Highway
                            Administration and National
                            Highway Traffic Safety
                            Administration)



                                  Statistical Performance Data          •   100
SA-2012-157   07/30/12     Metropolitan Council of the OIG recommends FTA and FHWA improve grantee
                           Twin Cities, MN (also listed oversight.
                           under Federal Highway
                           Administration)
SA-2012-158   07/30/2012   Miami-Dade Transit, FL        A finding concerning the use of the American Recovery and
                                                         Reinvestment Act funds was identified. OIG recommends
                                                         FTA improve grantee oversight. $12,000 questioned.
SA-2012-159   07/30/2012   City of Fort Collins, CO      A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.
SA-2012-160   07/30/2012   Broward County, FL            A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.
SA-2012-166   07/30/2012   Chicago Transit Authority     A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.
SA-2012-183   09/17/2012   Confederated Tribes of        A finding concerning the use of the American Recovery
                           Warm Springs, Reservation and Reinvestment Act funds was identified. OIG recom-
                           of Oregon (also listed        mends FHWA and FTA improve grantee oversight.
                           under Federal Highway
                           Administration)
SA-2012-184   09/17/2012   City of Eau Claire, WI        A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. OIG recom-
                                                         mends FTA improve grantee oversight.

QC-2012-186   09/17/2012   Quality Control Review on     KPMG, LLP rendered an unqualified opinion on DOT’s
                           the Metropolitan Transit      major programs, but made recommendations to correct
                           Authority of Harris County,   internal control and compliance deficiencies that directly
                           TX (also listed under Federal affect FTA programs.
                           Highway Administration)




                              Semiannual Report to Congress           •   101
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports

   Report         Date                  Title                                     Focus of Report/
                                                                                 Recommendations
SA-2012-088   04/23/2012   Wyoming Department of         Findings concerning the use of the American Recovery
                           Transportation (also listed   and Reinvestment Act funds were identified. OIG
                           under Federal Highway         recommends FHWA, NHTSA, and FTA improve grantee
                           Administration and Federal    oversight.
                           Transit Administration)

SA-2012-146   06/19/2012   Wyoming Department of         OIG recommends FAA and NHTSA improve grantee
                           Transportation (also listed   oversight.
                           under the Federal Aviation
                           Administration)

QC-2012-147   06/20/2012   Quality Control Review of     Moss Adams LLP rendered an unqualified opinion on
                           Single Audit on the New       DOT’s major programs, but made recommendations to
                           Mexico Department of          correct internal control and compliance deficiencies that
                           Transportation (also listed   directly affect NHTSA, FHWA, and FTA programs.
                           under Federal Highway
                           Administration and Federal
                           Transit Administration)


MARITIME ADMINISTRATION
Internal Audits: Performance –1 report

    Report        Date                          Title                                 Focus of Report/
                                                                                     Recommendations
FI-2012-138   05/30/2012   The U.S. Merchant Marine Academy’s         The Academy’s security controls were not
                           Security Controls Were Not Sufficient      sufficient to protect its Website and LAN from
                           To Protect Sensitive Data From             compromise because the Academy has not
                           Unauthorized Access                        implemented information security programs
                                                                      for protection of information and information
                                                                      systems, as required by FISMA and DOT
                                                                      policies. As a result, the Academy runs the risk
                                                                      that intruders will gain unauthorized access to
                                                                      the large amount of sensitive information stored
                                                                      in its systems without being detected.

                                 Statistical Performance Data          •   102
OFFICE OF THE SECRETARY OF TRANSPORTATION

Internal Audits: Performance – 1 report

    Report        Date                  Title                                 Focus of Report/
                                                                             Recommendations
MH-2012-188 09/20/2012     DOT Established Timely        OST established TIGER program policies that generally
                           Controls for the TIGER Dis-   adhered to best practices, but vulnerabilities remain
                           cretionary Grants Program,    in reviewing grant agreements, overseeing individual
                           but Opportunities Exist To    projects, assessing program risks, and measuring
                           Strengthen Oversight          performance. In addition, we found discrepancies
                                                         in the requirements for safety standards in the grant
                                                         agreements for rail infrastructure projects.



Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports


    Report        Date                  Title                                 Focus of Report/
                                                                             Recommendations
SA-2012-114   05/03/2012   Commonwealth of Kentucky      Findings concerning the use of the American Recovery
                           (also listed under Federal    and Reinvestment Act funds were identified. OIG
                           Highway Administration)       recommends OST and FHWA improve grantee oversight.




SA-2012-118   05/10/2012   Harbors Division, Department Findings concerning the use of the American Recovery
                           of Transportation, HI         and Reinvestment Act funds were identified. OIG
                                                         recommends OST improve grantee oversight.
SA-2012-180   09/17/2012   Town of Normal, IL            A finding concerning the use of the American Recovery
                                                         and Reinvestment Act funds was identified. OIG recom-
                                                         mends OST improve grantee oversight.




                               Semiannual Report to Congress         •    103
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION
Internal Audits: Performance – 1 report

   Report         Date                      Title                                 Focus of Report/
                                                                                 Recommendations
AV-2012-140   06/18/2012   Hazardous Liquid Pipeline Operators’   PHMSA has established a corrective action
                           Integrity Management Programs Need plan to address long-standing data manage-
                           More Rigorous PHMSA Oversight          ment deficiencies. However, PHMSA has not
                                                                  yet resolved key deficiencies or established
                                                                  meaningful analysis capabilities to improve its
                                                                  oversight .




                                 Statistical Performance Data      •   104
Unresolved Recommendations Over 6 Months Old
	
Cited in Semiannual Report for October 1, 2009 - March 31, 2010

                                  Title                                   Report Number     Final Issue Date
FAA's Oversight of American Airlines' Maintenance Programs                AV-2010-042         02/16/2010


Cited in Semiannual Report for April 1, 2010 - September 30, 2010

                                  Title                                   Report Number     Final Issue Date
Information Security and Privacy Controls Over the Airmen Medical             FI-2010-069     06/18/2010
Support Systems


Cited in Semiannual Report for October 1, 2010 - March 31, 2011

                                  Title                                   Report Number     Final Issue Date
FAA Did Not Ensure Revenue Was Maximized at Denver Interna-               AV-2011-057         02/28/2011
tional Airport
New York Flight Delays Have Three Main Causes, but More Work Is           AV-2011-007         10/28/2010
Needed To Understand Their Nationwide Effect
FAA Faces Significant Risks in Implementing the Automatic Depen-          AV-2011-002         10/12/2010
dent Surveillance-Broadcast Program and Realizing Benefits


Cited in Semiannual Report for April 1, 2011 - September 30, 2011

                                  Title                                   Report Number     Final Issue Date
More Rigorous Oversight Is Needed To Ensure Venice Municipal              AV-2011-180         09/29/2011
Airport Land Sales and Leases Are Used Appropriately
FAA Policies and Plans Are Insufficient To Ensure an Adequate and         ZA-2011-148         08/03/2011
Effective Acquisition Workforce
Puerto Rico Highways and Transportation Authority, San Juan, PR           SA-2011-144         07/14/2011
FAA Needs To Strengthen Its Risk Assessment and Oversight Ap-             AV-2011-136         06/29/2011
proach for Organization Designation Authorization and Risk-Based
Resource Targeting Programs
FAA's Approach to SWIM Has Led to Cost and Schedule Uncer-                AV-2011-131         06/15/2011
tainty and No Clear Path for Achieving NextGen Goals



                                          Semiannual Report to Congress   •    105
FAA Must Strengthen Its Cost and Price Analysis Processes To          ZA-2011-089       5/19/2011
Prevent Overpaying for Noncompetitive Contracts



Cited in Semiannual Report for October 1, 2011 - March 31, 2012

                               Title                                  Report Number   Final Issue Date
FAA’s Contracting Practices Are Insufficient To Effectively Manage    ZA-2012-082       03/28/2012
Its Systems Engineering 2020 Contracts
City of Camden, Arkansas                                              SA-2012-065       03/01/2012
City of King Cove, Alaska                                             SA-2012-052       02/09/2012
City of Erie, Pennsylvania                                            SA-2012-054       02/09/2012
Challenges To Improving Oversight of Rail Transit Safety and          MH-2012-048       01/31/2012
Implementing an Enhanced Federal Role
New Approaches Are Needed To Strengthen FAA Oversight of Air          AV-2012-027       12/20/2011
Carrier Training Programs and Pilot Performance
Commonwealth of Pennsylvania                                          SA-2012-026       12/13/2011
State of Illinois                                                     SA-2012-011       11/23/2011




                                       Statistical Performance Data   •   106
Investigations
Statistical Outcomes
April 1, 2012 – September 30, 2012

                                 Financial Impact
Fines (and Special Assessments)                                        $752,986
Restitution                                                           $3,400,172
Recoveries                                                            $9,239,164
Total                                                             $13,392,322


Investigative Workload
Current Investigations                                                       397
Investigations Opened                                                        73
Investigations Closed                                                        135


Referrals
Referred for Criminal Prosecution                                            141
Accepted for Criminal Prosecution                                            94
Declined for Criminal Prosecution                                            86
Referred for Civil Prosecution                                               23
Accepted for Civil Prosecution                                               11
Declined for Civil Prosecution                                                8


Judicial and Administrative Actions
Indictments                                                                  59
Convictions                                                                  62
Years Incarceration                                                          21
Years Supervised Release                                                     40
Years Probation                                                              70
Hours Community Service                                                      820
Business Debarment                                                            2


                                  Semiannual Report to Congress   •    107
Business Suspension                                                           6
Individual Debarment                                                          3
Individual Suspension                                                         7


Employee: Counseling                                                          1
Employee: Reprimand                                                           2
Employee: Resigned/Retired During Investigation                               4
Employee: Suspension                                                          1


Certification/License/Permit Revoked/Terminated                               1
Compliance Agreement                                                          3
Corrective Action Taken                                                       1
Decertification MBE/DBE                                                       3
Regulation/Rule Revised                                                       1
Restatement of Policy                                                         1
Enforcement Action Taken                                                      2


OIG Hotline Contacts
Email                                                                     1,869
Fax                                                                          13
Letters                                                                    152
Web                                                                        167
Telephone                                                                  377
Walk Ins                                                                      4
TOTAL                                                                     2,582





                                 Statistical Performance Data   •   108
Profile of All Pending Investigations by Case Type, as of September 30, 2012
	
                                                          Types of Cases

                     Number of      Aviation            Motor Transportation   Grant    Procurement Workforce Employee
                   Investigations    Safety    Hazmat   Carrier   Safety       Fraud       Fraud    Protection Integrity Othera
FAA                     95            56         5        0          0          19           3          0         10       2
FHWA                    138            0         0        0          0         135           0          0          2       1
FMCSA                   58             0         5        24         1          0            0         24          4       0
FRA                      4             0         0        0          0          3            0          0          1       0
FTA                     38             0         0        0          0          36           1          0          0       1

MARAD                    9             0         0        0          0          1            5          1          2       0
NHTSA                   19             0         0        0          8          9            1          0          1       0
OIG                      1             0         0        0          0          0            0          0          1       0
OST                      3             0         0        0          1          0            0          2          0       0
Other OIG                1             0         0        0          0          0            0          0          1       0
PHMSA                   26             0         23       0          0          0            0          0          3       0
RITA                     4             0         0        0          0          0            1          0          2       1
         b
SLSDC                    1             0         0        0          0          0            0          0          1       0
Totals                  397           56         33       24        10         203           11        27         28       5
Percent of Total       100%          14%        8%       6%         3%         51%           3%        7%         7%      1%

a
    Includes computer intrusion cases.
b
    Saint Lawrence Seaway Development Corporation




                                        Semiannual Report to Congress           •      109
Statistical Performance Data   •   110
                                                          Peer Review Activity

OIG’s Office of Investigations was the subject of   determined the system of quality control for our
a Council of the Inspectors General on Integrity    audit function has been suitably designed and
and Efficiency (CIGIE) peer review during this      complied with to provide reasonable assurance
reporting period by the U.S. Department of the      of performing and reporting in conformity with
Treasury OIG. Treasury OIG concluded that           applicable professional standards in all material
our Office of Investigations was in compliance      respects. Accordingly, VA OIG provided a
with quality standards established by CIGIE         “pass” rating, and no recommendations were
and Attorney General guidelines, and no             made. The report was released on March 3,
recommendations were made. Treasury OIG             2010.
highlighted our Investigative Operations’
Contractor Performance Oversight, Professional
                                                    For the reports of the peer reviews conducted
Development Detail Program, and Special
                                                    on our office, go to http://www.oig.dot.gov/
Agent Field Training Program as best practices.
                                                    peer-review.
The report was released on August 30, 2012.

                                                    OIG is currently conducting a CIGIE peer
The last peer review conducted on our Office of
                                                    review of the U.S. Postal Service OIG’s audit
Audits was performed in fiscal year 2010 by the
                                                    organization. We expect to release a final report
Department of Veterans Affairs (VA) OIG. VA OIG
                                                    in December 2012.




                               Semiannual Report to Congress   •   111
Peer Review   •   112

                                                   Mission and Organization

The Office of Inspector General for the Department of Transportation was created by Congress
through the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

 •		 To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •		 To promote economy, effectiveness, and efficiency within the Department;
 •		 To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •		 To review existing and proposed laws or regulations affecting the Department and make 

     recommendations about them; 

 •		 To keep the Secretary of Transportation and Congress fully informed about problems in 

     departmental programs and operations. 


The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.


OIG’s audits and investigations offices and three support offices work together to fulfill its mission:


 •	 The	Office	of	the	Principal	Assistant	Inspector	General	for	Auditing	and	Evaluation
    supervises and conducts all audit activities related to DOT programs and operations through
    its five suboffices, which are divided according to specific DOT program areas: Aviation and
    Special Programs; Highway and Transit; Rail, Maritime, and Economic Analysis; Financial
    and Information Technology; and Acquisition and Procurement. Audit staff are located in
    headquarters and field offices across the country.

 •	 The	Office	of	the	Principal	Assistant	Inspector	General	for	Investigations supervises and
    conducts OIG investigative activities related to DOT programs and operations through its
    headquarters and seven major regional offices. The headquarters office conducts nationwide
    special investigations and analyses as well as manages the OIG Hotline Complaint Center and
    activities generated by complaints.

 •	 The	Office	of	the	Assistant	Inspector	General	for	Legal,	Legislative,	and	External	Affairs
    provides a full-range of professional legal services and advice, facilitates communications with
    Congress, and manages public and external affairs.




                                Semiannual Report to Congress     •   113
•	 The	Office	of	the	Assistant	Inspector	General	for	Administration is divided into four
   suboffices: the Office of Procurement and Administrative Services, the Office of Budget
   and Financial Management, the Office of Human Resources, and the Office of Information
   Technology Management.

•	 The	Office	of	Quality	Assurance	Reviews	and	Internal	Affairs, under the direction of the
   Deputy Inspector General, ensures that internal operations and functions are performed
   objectively and in an efficient and effective manner.




                               Mission and Organization   •   114
                                                        Inspector General




                                                             Deputy
                                                        Inspector General




                       Quality Assurance
                      Reviews and Internal                                                  Chief of Staff
                             Affairs




                                             Principal Assistant            Assistant
Principal Assistant                                                                                      Assistant
                                             Inspector General          Inspector General
Inspector General                                                                                   Inspector General
                                              for Auditing and        for Legal, Legislative,
for Investigations                                                                                  for Administration
                                                 Evaluation            and External Affairs




                                                                        Assistant               Assistant
                           Assistant              Assistant                                                          Assistant
 Deputy Assistant                                                  Inspector General       Inspector General
                      Inspector General      Inspector General                                                  Inspector General
Inspector General                                                  for Rail, Maritime,      for Financial and
                       for Aviation and       for Highway and                                                     for Acquisition
for Investigations                                                   and Economic              Information
                      Special Programs             Transit                                                      and Procurement
                                                                        Analysis               Technology




                       Deputy Assistant       Deputy Assistant
                      Inspector General      Inspector General
                       for Aviation and       for Highway and
                      Special Programs             Transit




                                          Semiannual Report to Congress         •    115
Semiannual Report to Congress   •   116
                                                             Contacts


Inspector General
Calvin L. Scovel III ……………………………………………………………… (202) 366-1959
Deputy Inspector General
Ann Calvaresi Barr ……………………………………………………………… (202) 366-6767
Principal Assistant Inspector General for Investigations
Timothy Barry …………………………………………………………………… (202) 366-1967
Principal Assistant Inspector General for Auditing and Evaluation
Lou Dixon………………………………………………………………………… (202) 366-1427
Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach …………………………………………………………… (202) 366-8751
Assistant Inspector General for Administration
Susan Dailey …………………………………………………………………… (202) 366-1748
Chief of Staff
Madeline Chulumovich ………………………………………………………… (202) 366-6767
Deputy Assistant Inspector General for Investigations
Robert Westbrooks …………………………………………………………… (202) 366-1972
Assistant Inspector General for Aviation and Special Program Audits
Jeffrey Guzzetti ………………………………………………………………… (202) 366-0500
Deputy Assistant Inspector General for Aviation and Special Program Audits
Matt Hampton…………………………………………………………………… (202) 366-1987
Assistant Inspector General for Highway and Transit Audits
Joe Comé ……………………………………………………………………… (202) 366-5630
Deputy Assistant Inspector General for Highway and Transit Audits
Thomas Yatsco ………………………………………………………………… (202) 366-5630
Assistant Inspector General for Rail, Maritime, and Economic Analysis
Mitchell Behm …………………………………………………………………… (202) 366-9970
Assistant Inspector General for Financial and Information Technology Audits
Louis King ……………………………………………………………………… (202) 366-1407
Assistant Inspector General for Acquisition and Procurement Audits
Mary Kay Langan-Feirson……………………………………………………… (202) 366-5225




                   Semiannual Report to Congress   •   117
            Notes





Semiannual Report to Congress   •   118

U.S. Department of tranSportation

        office of inSpector General

       1200 new JerSey avenUe, Se

          waShinGton, Dc 20590





hotline to report fraUD, waSte, anD abUSe:

              phone: 800-424-9071


           email: hotline@oiG.Dot.Gov


       oiG webSite: http://www.oiG.Dot.Gov

